d
No. _______
IN THE

Supreme Court of the United States
EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF OF
ITSELF, ITS STAFF, AND ITS PATIENTS ; E RNEST M ARSHALL , M.D.,
ON BEHALF OF HIMSELF AND HIS PATIENTS ; A SHLEE B ERGIN , M.D.,
ON BEHALF OF HERSELF AND HER PATIENTS ; TANYA F RANKLIN ,
M.D., ON BEHALF OF HERSELF AND HER PATIENTS,
Petitioners,
—v.—

OF

ADAM MEIER, IN HIS OFFICIAL CAPACITY AS SECRETARY
THE K ENTUCKY C ABINET FOR H EALTH AND FAMILY S ERVICES ,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
Heather Gatnarek
ACLU OF KENTUCKY
FOUNDATION, INC.
325 W. Main Street, Suite 2210
Louisville, KY 40202
Amy D. Cubbage
ACLU OF KENTUCKY
FOUNDATION, INC.
734 W. Main Street, Suite 200
Louisville, KY 40202

Alexa Kolbi-Molinas
Counsel of Record
Andrew D. Beck
Meagan Burrows
Jennifer Dalven
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
akolbi-molinas@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005

(Counsel continued on inside cover)

Anton Metlitsky
Leah Godesky
Jennifer B. Sokoler
Kendall Turner
O’MELVENY & MYERS LLP
7 Times Square
New York, NY 10036

QUESTION PRESENTED
The Kentucky Ultrasound Informed Consent
Act (House Bill 2) requires a physician, while
performing a pre-abortion ultrasound, to (i) describe
the ultrasound in a manner prescribed by the state;
(ii) display the ultrasound image so that the patient
may see it; and (iii) auscultate (make audible) the
fetal heart tones. The physician must display and
describe the image even when the patient objects,
even when complying with the statute would harm
the patient, and even when the patient seeks to avoid
the state-mandated speech by covering her eyes and
ears.
The Sixth Circuit upheld the law against a
First Amendment challenge on the ground that it is
an ordinary informed-consent provision. The Fifth
Circuit previously upheld a similar Texas law for the
same reason. The Fourth Circuit, in contrast,
invalidated a materially identical North Carolina law
as an unconstitutional compelled speech mandate,
reasoning that a law requiring physicians to engage
in speech over a patient’s objection and in
contravention of the physician’s medical judgment—
even when the patient is intentionally avoiding the
speech and images—is “antithetical to the very
communication that lies at the heart of the informed
consent process.” Stuart v. Camnitz, 774 F.3d 238,
253 (4th Cir. 2014).
The question presented is whether such
compulsory display-and-describe ultrasound laws
abridge physicians’ freedom of speech in violation of
the First Amendment.
i

STATEMENT OF RELATED PROCEEDINGS
There are no other court proceedings directly
related to this case.

ii

PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
Petitioners are EMW Women’s Surgical
Center, P.S.C., Ernest Marshall, MD, Ashlee Bergin,
MD, and Tanya Franklin, MD, all of whom were
plaintiff-appellees below. EMW Women’s Surgical
Center, P.S.C. has no parent corporation, and no
publicly held company owns more than 10% of its
stock.
Respondent is Adam Meier, in his official
capacity as Secretary of Kentucky’s Cabinet for
Health and Family Services, a defendant-appellant
below.
The Attorney General of Kentucky was also
named as a defendant below, but was dismissed as a
party by the court of appeals. This petition does not
challenge that portion of the decision below.

iii

TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
STATEMENT OF RELATED PROCEEDINGS ...... ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ....................................... iii
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW .................................................. 1
JURISDICTION......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ........................................ 1
STATEMENT OF THE CASE................................... 2
REASONS FOR GRANTING THE PETITION ...... 12
I.

THERE IS A CIRCUIT CONFLICT
OVER THE QUESTION PRESENTED. ...... 12

II.

THE QUESTION PRESENTED IS
IMPORTANT AND RECURRING, AND
THIS PETITION PROVIDES AN
IDEAL VEHICLE THROUGH WHICH
TO RESOLVE IT. .......................................... 20

III.

THE DECISION BELOW IS
INCORRECT. ................................................ 22

CONCLUSION......................................................... 32
APPENDIX
Opinion, U.S. Court of Appeals for the Sixth
Circuit, April 4, 2019 ............................. 1a-85a
iv

Memorandum Opinion and Order, U.S District
Court for the Western District of Kentucky,
Sept. 27, 2017 ..................................... 86a-123a
Judgment, U.S Court of Appeals for the Sixth Circuit, April 4, 2019 ............................. 124a-125a
Order, U.S Court of Appeals for the Sixth Circuit,
June 28, 2019 ................................... 126a-127a
Judgment and Permanent Injunction, U.S.
District Court for the Western District of
Kentucky, Sept. 27, 2017 ................. 128a-129a
Relevant Statute.................................... 130a-134a

v

TABLE OF AUTHORITIES
CASES
Agency for Int’l Dev. v. All. for Open Soc’y
Int’l, Inc., 570 U.S. 205 (2013) ........................... 23
Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Grp. of Bos., 515 U.S. 557 (1995) ....................... 23
Nat’l Inst. of Family & Life Advocates v.
Becerra, 138 S. Ct. 2361 (2018) .................. passim
Nova Health Sys. v. Pruitt,
292 P.3d 28 (Okla. 2012) (per curiam) ............... 21
Planned Parenthood Minn., N.D., S.D. v.
Rounds, 530 F.3d 724 (8th Cir. 2008)
(en banc) ........................................................ 10, 18
Planned Parenthood of Se. Pa. v. Casey,
505 U.S. 833 (1992) .................................... passim
Riley v. Nat’l Fed’n of the Blind of N.C., Inc.,
487 U.S. 781 (1988) .......................... 23, 24, 25, 29
Sorrell v. IMS Health, Inc.,
564 U.S. 552 (2011) ...................................... 29, 31
Stuart v. Camnitz,
774 F.3d 238 (4th Cir. 2014) ...................... passim
Stuart v. Loomis,
992 F. Supp. 2d 585 (M.D.N.C. 2014) ................ 30
Tex. Med. Providers Performing Abortion
Servs. v. Lakey,
667 F.3d 570 (5th Cir. 2012) ............ 10, 17, 18, 21
Thompson v. W. States Med. Ctr.,
535 U.S. 357 (2002) ............................................ 31
vi

Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622 (1994) ...................................... 29, 30
United States v. Alvarez, 567 U.S. 709 (2012) ........ 26
Wooley v. Maynard, 430 U.S. 705 (1977) ................ 13
CONSTITUTION & STATUTES
U.S. Const. amend. I ........................................ passim
18 Pa. Cons. Stat. § 3205(a)(1) ................................ 13
Ky. Rev. Stat. § 311.724 ............................................ 4
Ky. Rev. Stat. § 311.725(1) ........................................ 4
Ky. Rev. Stat. § 311.725(1)(b) .................................... 4
Ky. Rev. Stat. § 311.725(2) ........................................ 4
Ky. Rev. Stat. § 311.727(2)(d) .................................... 7
Ky. Rev. Stat. § 311.727(2)(e) .................................... 6
Ky. Rev. Stat. § 311.727(3) .................................. 7, 26
Ky. Rev. Stat. § 311.727(5) .................................... 7, 8
Ky. Rev. Stat. § 311.727(2)(b) .................................... 6
Ky. Rev. Stat. § 311.727(2)(c) .................................... 6
La. Rev. Stat. Ann. § 1061.10 .................................. 21
Okla. Stat. Tit. 63, § 1-738.3d ................................. 21
Okla. Stat. Tit. 63, § 1-738.3e.................................. 21
S.D. Codified Laws § 34-23A-10.1 ........................... 18
Wis. Stat. § 253.10 ................................................... 21

vii

PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully request a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The decision of the court of appeals is reported
at 920 F.3d 421, and is reprinted in the Appendix to
the Petition (“App.”) at 1a-85a. The district court’s
opinion granting petitioners summary judgment is
reported at 283 F. Supp. 3d 629, and reprinted at
App. 86a-123a.
JURISDICTION
The court of appeals issued its decision on
April 4, 2019. App. 1a. The court of appeals denied a
petition for rehearing on June 28, 2019. App. 126a127a. This Court has jurisdiction under 28 U.S.C. §
1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the United States
Constitution provides that “Congress shall make no
law … abridging the freedom of speech ….”
The text of Kentucky’s Ultrasound Informed
Consent Act—also known as House Bill 2 (“H.B. 2” or
“the Act”)—is reproduced at App. 130a-134a.

1

STATEMENT OF THE CASE
Petitioners perform an ultrasound on all
patients before providing abortion care, and,
consistent with established medical practice, offer
every patient the option of seeing the ultrasound
image and discussing it with her provider.
The Act challenged here transforms this
standard medical practice into a pure speech
mandate: under the Act, the physician must display
and provide a graphic description of the ultrasound
image (including, e.g., identifying all visible internal
organs) during the ultrasound procedure. The
physician must convey these specific words, images
and sounds to the patient even if she does not want
to see or hear them and even if she tries to physically
resist them.
As a result of this law, while the patient is
half-naked on the exam table with her feet in
stirrups, usually with an ultrasound probe inside her
vagina, the physician has to keep talking to her,
showing her images and describing them, even as she
tries to close her eyes and cover her ears to avoid the
speech. The Commonwealth characterizes this as
part of “informed consent,” but it is not. The most
obvious tell is that under the Act, the patient has
provided “informed consent” even when she has not
seen or heard the images or description, so long as
the physician has read and performed the
Commonwealth’s script. A law that requires a
physician to keep speaking even though her words do
not inform anyone of anything is not an informedconsent provision. And indeed, the Act is flatly
inconsistent with the tradition of informed consent,
which precludes doctors forcing information on
2

patients in this manner, and requires doctors to
respect, not run roughshod over, their patients’
autonomous choices.
The Act, in short, is on its face a compelledspeech mandate wholly unrelated to traditional
informed consent and therefore presumptively
unconstitutional
under
this
Court’s
First
Amendment precedent. The court of appeals’ decision
upholding the Act is not only incorrect, but solidifies
a circuit conflict over whether such statutes—which
have proliferated over the past several years—are
consistent with the First Amendment. And this
petition offers the Court a perfect vehicle through
which to resolve the conflict.
The petition should be granted.
A.

Factual Background and
Pre-Existing Legal Landscape

Petitioners are the sole licensed abortion clinic
in Kentucky—EMW Women’s Surgical Center, P.S.C.
(“EMW”)—and its three obstetrician-gynecologists.
Before the Act’s enactment and to this day,
petitioners engaged in the robust informed consent
process applicable to medical procedures in general
and to abortion in particular, consistent with
preexisting law.
At the core of informed consent is “freedom
from
external
coercion,
manipulation,
or
infringement of bodily integrity. It is the freedom
from being acted upon by others when they have not
taken account of and respected the individual’s own
preference and choice.” Dkt. No. 55 at 98 (“Trial
Tr.”). Regardless of the particular medical procedure
involved, the informed-consent process generally
consists of the following disclosures: (i) the nature
3

and purpose of the procedure; (ii) any potential risks
or benefits associated with the procedure; and (iii)
any significant alternatives to the procedure. Trial
Tr. at 86-87. During the informed consent process, a
provider should be “respectful of the patient, [] follow
the patient’s lead, and [] be empathic in the
interaction with the patient in these very private and
sensitive moments.” Id. at 108.
For nearly two decades prior to the enactment
of H.B.2—the Act at issue here—Kentucky has
required abortion providers to make certain verbal
disclosures at least 24 hours before an abortion, such
as the embryo’s or fetus’s probable gestational age at
the time the abortion will be performed and the risks
of, and alternatives to, the procedure. See Ky. Rev.
Stat. § 311.725(1) (“Abortion Consent Law”).
Providers must also offer patients printed materials
published by the Kentucky Cabinet for Health and
Family Services containing written and pictorial
descriptions of “the probable anatomical and
physiological characteristics of the zygote, blastocyte,
embryo, or fetus” at gestational increments. Id. at
§ 311.725(2). In 2016, Kentucky amended the
Abortion Consent Law to require that this
information be provided while “both parties are
physically located in the same room or are
participating in real-time visual telehealth services.”
See id. §§ 311.724, 311.725(1)(b). H.B. 2 does not
alter the Abortion Consent Law.
The undisputed evidence presented at trial
demonstrated that EMW takes seriously the
responsibility of ensuring that each patient makes an
informed, thoughtful decision about abortion. Trial
Tr. at 31-38, 96-97. For example, on the day of the
abortion, EMW presents each patient with a video
4

describing the procedure and detailing, again,
possible complications. Id. at 34. Each patient then
participates in an individual counseling session,
where alternatives to abortion are again discussed, to
ensure consent is informed and the patient’s decision
is voluntary. Id. at 34-35. EMW staff is trained to be
alert to any signs of uncertainty or coercion and will
not perform the procedure unless the patient is sure
she wishes to proceed. Id. at 36-38.
Before her abortion each patient undergoes an
ultrasound. Dkt. No. 3-3 at ¶¶ 12, 16-21. The clinical
purpose of the ultrasound is to (i) confirm the
pregnancy; (ii) confirm the embryo’s or fetus’s
gestational age; (iii) identify the number of embryos
or fetuses; (iv) identify any abnormalities with regard
to the embryo’s or fetus’s location; and (v) determine
whether fetal death has already occurred. Dkt. No.
39 at ¶ 27. To obtain this information during the
early first trimester of pregnancy, when most
abortions are performed, physicians must perform a
transvaginal ultrasound, which requires the patient
to undress from the waist down and place her feet in
stirrups so that a probe may be inserted into her
vagina. Dkt. No. 3-3 at ¶¶ 17-18.
Consistent with established medical practice
and informed consent, petitioners convey all
clinically relevant information obtained from the
ultrasound to the patient, answer any questions, and
also offer to show and discuss the ultrasound image
with every patient. Id. at ¶ 12; see also Dkt. No. 39 at
¶ 27. Prior to the Act, most patients declined the
petitioners’ offer to display and discuss the
ultrasound. Trial Tr. at 36. And, prior to the Act, if a
patient declined to view the ultrasound image or
5

discuss its contents, the petitioners would never act
against her wishes. Dkt No. 3-3 at ¶ 21.
The undisputed evidence shows that the
petitioners’ pre-Act practices are consistent with
medical ethics and the standard of care. While the
standard of care is for physicians to offer to display
and discuss ultrasounds with patients, Trial Tr. at
155; Dkt. No. 39 at ¶ 28, no medical organization or
guidelines countenance doing so against a patient’s
wishes, Trial Tr. at 49-50, 159-60. Indeed, there is no
area of medicine that considers the forced display
and description of diagnostic images over the
patient’s objection or against their will to be
appropriate or part of informed consent. In fact, longestablished ethical standards for physicians and
accepted best medical practices both reject foisting
such information on a patient when she does not
want it, because to do so disregards patient
autonomy, a central principle of informed consent.
B.

The Act

H.B. 2, which was signed into law on January
9, 2017, requires a physician performing a preabortion ultrasound to, among other things,
“[d]isplay ... ultrasound images so that the pregnant
woman may view [them],” and simultaneously
(i) explain what the ultrasound is depicting; and
(ii) inform the woman of the presence, number,
and location of the embryo(s) or fetus(es), and
whether fetal demise has occurred. See Ky. Rev.
Stat. §§ 311.727(2)(b), (c). The physician must also
“provide a medical description of the ultrasound
images, which shall include the dimensions of
the embryo or fetus and the presence of external
members and internal organs, if present and
6

viewable.” Id. § 311.727(2)(e). In addition, the
physician must “[a]scultate [sic] the fetal heartbeat
of the unborn child so that the pregnant woman may
hear the heartbeat if the heartbeat is audible.” Id.
§ 311.727(2)(d). The Act’s only exception is for
medical emergencies; there are no exceptions, e.g.,
for victims of rape or incest or patients who have
received a fetal diagnosis. Id. § 311.727(5).
These words, sounds, and images must be
conveyed to the patient during the ultrasound
procedure, while she lies half-naked on the
examination table with her feet in stirrups, and
usually with a probe inside her vagina. See Dkt. No.
3-3 at ¶¶ 17-18. The state-mandated expression must
be conveyed to the patient even if she is straining
to avoid seeing the images or hearing the speech.
See Ky. Rev. Stat. § 311.727(3). In most cases,
compliance with H.B. 2 doubles the time the probe is
inside the vagina. Trial Tr. at 40.
While the Act is styled an “informed consent”
provision, it provides that “[w]hen the ultrasound
images and heartbeat sounds are provided to and
reviewed with the pregnant woman, nothing in
this section shall be construed to prevent the
pregnant woman from averting her eyes from the
ultrasound images or requesting the volume of the
heartbeat be reduced or turned off if the heartbeat is
audible.” Ky. Rev. Stat. § 311.727(3). Thus, as even
the Commonwealth has admitted, a woman can
provide informed consent to an abortion under
the Act even if she refuses to view the ultrasound
image or attempts to avoid hearing the ultrasound
description. See id. Yet nothing in the Act (other
than a medical emergency) relieves petitioners from
continuing to display and describe the ultrasound, or
7

auscultating the fetal heart tones—even if the
patient objects, refuses to view or listen, and is
visibly upset; and even if the physician believes doing
so will cause the patient harm or distress,
or undermine the doctor-patient relationship so
essential to informed consent itself. See Ky. Rev.
Stat. § 311.727(5). Thus, the undisputed evidence
established that the speech mandated by the Act
“looks nothing like” the long-settled, traditional
standard for informed consent, and is instead “in
complete violation of” medical ethics. Trial Tr. at 95.
The undisputed evidence presented further
demonstrated that compliance with the Act
unnecessarily exposed patients to “distress and
trauma.” Trial Tr. at 45-46; see also id. at 40-44.
Some patients would “take their sweater and cover
their face and cover their eyes,” or “cover their face
with their hands” to avoid the display. Id. at 41.
Many were “very upset,” with “[s]ome of them crying”
or “sobbing.” Id. For patients with a diagnosis of fetal
demise or serious fetal anomaly, the ultrasound
description was “extremely difficult.” Id. at 43. Dr.
Franklin testified that one such patient who had
already undergone five or six ultrasounds sobbed
inconsolably when Dr. Franklin explained the Act’s
requirements. Id. “Her husband was visibly furious,
and saying, ‘Why do they have to force her to do this?
She has gone through enough. We have gone through
enough.’” Id. at 43-44; see also Dkt. No. 41 at ¶¶ 1-9
(explaining that requirements of similar Texas law
were “nothing short of torture” for patient
terminating wanted pregnancy due to diagnosis of
serious fetal anomaly).

8

C.

Decisions Below

1.
Petitioners challenged the law on First
Amendment grounds. The parties cross-moved for
summary judgment, and the district denied
respondents’ motion and granted petitioners’.
The district court concluded that H.B. 2 is
unconstitutional and permanently enjoined it. App.
122a-123a; 128a-129a. Relying heavily on the Fourth
Circuit’s decision invalidating a materially identical
North Carolina statute, see Stuart v. Camnitz, 774
F.3d 238 (4th Cir. 2014), the district court concluded
that the plaintiffs’ First Amendment claim was
subject to intermediate scrutiny. App. 98a-99a, 105a109a. Based on the undisputed evidence, the district
court concluded that while “[o]ffering the mandated
information is acceptable and consistent with
principles of patient autonomy, as it respects the
patient’s ability to decide whether or not she wants
more information,” App. 112a, forcing ultrasound
images and description on patients against their will
in the manner required by the H.B. 2 “go[es] well
beyond the basic disclosures necessary for informed
consent to a medical procedure,” App. 105a. The
district court found that the Act is “designed to
convey the state’s ideological, anti-abortion message”
by requiring private physicians to force “ultrasound
images, detailed descriptions of the fetus, and the
sounds of the fetal heartbeat on [patients], against
their will, at a time when they are most vulnerable.”
App. 105a, 107a. As such, the Court concluded that
“application of at least intermediate scrutiny is
necessary here, as rational basis review would fail to
acknowledge the severity of the burden H.B. 2
imposes upon the First Amendment rights of
physicians.” App. 109a.
9

The district court held that the Act could
not survive intermediate scrutiny because, based
on the undisputed evidence, it “does not advance
a substantial government interest, is not drawn
to achieve the government’s interests, and prevents
no actual harm.” App. 115a. Indeed, the district
court concluded that the Act “has more potential
to harm the psychological well-being of the patient
than to further the legitimate interests of the
Commonwealth.” App. 116a.
2.
reversed.

A divided panel of the Sixth Circuit

a.
Citing this Court’s decision in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992), the panel majority concluded
that H.B. 2 is an “informed consent” statute because
it requires the provision of “truthful, non-misleading”
information that “is pertinent to [the patient’s]
decision-making.” App. 14a-17a. As such, the panel
held that the Act was a “regulation[] of professional
conduct that incidentally burden[ed] speech” and
therefore exempt from First Amendment scrutiny.
App. 12a.
In so holding, the panel concluded that its
decision is “in line with two other circuits that have
faced First Amendment challenges to similar
abortion-informed-consent statutes.” App. 21a; see
also App. 21a-26a (citing Tex. Med. Providers
Performing Abortion Servs. v. Lakey, 667 F.3d 570,
574 (5th Cir. 2012), and Planned Parenthood Minn.,
N.D., S.D. v. Rounds, 530 F.3d 724, 726 (8th Cir.
2008) (en banc)).
The panel also recognized that the Fourth
Circuit had invalidated a materially identical law on
10

First Amendment grounds in Stuart, but “decline[d]
to follow Stuart … because it gave insufficient regard
to the First Amendment analysis in Casey that the
Court clarified and adopted as the majority view in
NIFLA.” App. 27a-28a.
b.
Judge Donald dissented. Relying in part
on Stuart, Judge Donald concluded that H.B. 2 “does
not facilitate informed consent” because it “does not
permit physician discretion—a central tenet of
informed consent—and it would require physicians to
harm their patients with ‘no medical purpose.’”
App. 57a. As Judge Donald recognized, the panel
majority effectively exempted physician speech from
First Amendment scrutiny “[s]o long as the state’s
legislators wisely use the words ‘informed consent’
in the title of a regulation.” App. 83a. But as Judge
Donald recognized, this Court has held that “state
labels cannot be dispositive of [the] degree of First
Amendment protection.” App. 83a (quoting Nat’l Inst.
of Family & Life Advocates v. Becerra, 138 S. Ct.
2361, 2375 (2018) (“NIFLA”)). In view of the
undisputed evidence that H.B. 2 contravenes basic
principles of informed consent, App. 73a-82a, Judge
Donald would have held that H.B. 2 “does not
regulate speech as part of the practice of medicine; it
regulates ‘speech as speech.’” App. 57a. Judge Donald
accordingly concluded that the Act “should be
subjected to heightened scrutiny and deemed an
unconstitutional infringement of the physicians’
right to free speech.” App. 57a.
3.
The court of appeals denied a petition
for rehearing, App. 126a-127a, but stayed its
mandate pending this Court’s resolution of a petition
for a writ of certiorari.
11

REASONS FOR GRANTING THE PETITION
The decision below solidifies a decisional
conflict over the question presented that warrants
this Court’s review. The question of First
Amendment law presented here is also self-evidently
important, as it implicates numerous compulsory
display-and-describe ultrasound laws around the
Nation, as well as state regulation of physicianpatient speech more broadly. This petition offers the
Court an ideal vehicle through which to resolve the
question presented. And the decision below is
incorrect.
The petition should be granted.
I.

THERE IS A CIRCUIT CONFLICT OVER
THE QUESTION PRESENTED.

As the court of appeals recognized, the Fifth
and now Sixth Circuits hold that compulsory displayand-describe ultrasound laws do not violate the First
Amendment because they regulate conduct and only
incidentally burden speech. The Fourth Circuit, in
contrast, holds that such laws are unconstitutional
compelled speech.
1.
The dispute here turns on the proper
interpretation of a plurality’s First Amendment
decision in Planned Parenthood of Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992), recently
reaffirmed and adopted by the Court in National
Institute of Family & Life Advocates v. Becerra, 138
S. Ct. 2361 (2018) (“NIFLA”).
Casey involved (as relevant here) a First
Amendment challenge to a requirement that
physicians inform their patients of “the availability
of printed materials published by the State
12

describing the fetus and providing information about
medical assistance for childbirth.” 505 U.S. at 881.
The Casey plurality upheld this requirement, holding
that “the physician’s First Amendment rights not to
speak are implicated,” id. at 884 (citing Wooley v.
Maynard, 430 U.S. 705 (1977)), “but only as part of
the practice of medicine, subject to reasonable
licensing and regulation by the State,” id. Thus, the
plurality concluded, there was “no constitutional
infirmity in the requirement that the physician
provide the information mandated by the State.” Id.1
NIFLA affirmed the Casey plurality’s
conclusion, explaining that the law upheld in Casey
merely required “physicians to obtain informed
consent before they could perform an abortion.”
NIFLA, 138 S. Ct. at 2373. This was permissible
because the First Amendment does not prohibit
“regulations of professional conduct that incidentally
burden speech.” Id. And the informed-consent
provision at issue in Casey fell within that category
of regulation because “the requirement that a doctor
obtain informed consent to perform an operation is
Casey also concerned a challenge to a provision that required
physicians to explain to their patients the risks and available
alternatives to abortion, the risks of carrying a child to term,
and “the probable gestational age of the unborn child.” 18 Pa.
Cons. Stat. § 3205(a)(1). But the substance of those informedconsent requirements was not challenged under the First
Amendment. The physicians in Casey challenged this requirement only on the ground that the First Amendment precluded
compelling physicians, as opposed to other qualified professionals, to provide this information to patients. See, e.g., Casey, 505
U.S. at 968 (Rehnquist, J. concurring). Indeed, as Chief Justice
Rehnquist recognized, “the record show[ed] that the clinics,
without exception, [already] insist on providing this information
to women before an abortion is performed.” Id. at 967.
1

13

firmly entrenched in American tort
(quotations and citations omitted).

law.”

Id.

2.
As discussed further below, H.B. 2 bears
no resemblance to the informed consent provisions at
issue in Casey. While the physicians in Casey were
required only to make their patients aware of
pamphlets containing the state’s speech, H.B. 2
requires physicians to display images and provide
medically detailed state-prescribed descriptions of
those images through their own speech. Moreover,
the statute at issue in Casey allowed the physician
to decline to offer the pamphlets if the physician
believed doing so would harm the patient, consistent
with general informed-consent principles. H.B. 2,
by contrast, affords providers no comparable
opportunity to exercise their medical judgment; they
must display the images and utter the statemandated speech without modification, even if the
patient objects and is attempting to physically resist
the information, and even if the patient becomes
visibly distressed or traumatized during the process.
Three courts of appeals have now applied
Casey’s First Amendment holding to compulsory
display-and-describe ultrasound laws and they have
reached different results because of a dispute over
Casey’s scope.
a.
The Fourth Circuit in Stuart v.
Camnitz, 774 F.3d 238 (4th Cir. 2014) considered a
North Carolina law materially identical to the law
here and held that statute unconstitutional under
the First Amendment.
Writing for a unanimous panel, Judge
Wilkinson explained that Casey “does not assert that
physicians forfeit their First Amendment rights in
14

the procedures surrounding abortions.” 774 F.3d at
249. The North Carolina law was “extraordinary,”
the Fourth Circuit explained, precisely because it
was not an ordinary informed-consent law—it was, in
fact, “antithetical to the very communication that lies
at the heart of the informed consent process.” Id. at
249, 253.
The
Fourth
Circuit
explained
that
“[t]raditional informed consent requirements derive
from the principle of patient autonomy in medical
treatment.” Id. at 251. “As the term suggests,
informed consent consists of two essential elements:
comprehension and free consent.” Id. “Comprehension requires that the physician convey adequate
information about the diagnosis, the prognosis,
alternative treatment options (including no treatment), and the risks and likely results of each
option.” Id. “Free consent,” meanwhile, “requires that
the patient be able to exercise her autonomy free
from coercion,” and “include[s] at times the choice not
to receive certain pertinent information.” Id. at 252.
The informed consent process typically involves a
conversation between the patient, fully clothed, and
the physician in an office or similar room before the
procedure begins.” Id. Notably, the informed-consent
materials at issue in Casey “deviate only modestly
from traditional informed consent.” Id.
By contrast, Judge Wilkinson explained,
North Carolina’s compulsory display-and-describe
ultrasound law “look[s] nothing like traditional
informed consent.” Id. at 254. Rather than a “fullyclothed conversation,” the law “finds the patient halfnaked or disrobed on her back on an examination
table, with an ultrasound probe either on her belly or
inserted into her vagina.” Id. at 254-55. And, unlike
15

the law at issue in Casey, the North Carolina law
contained no “therapeutic privilege,” thereby
“requiring the physician to provide the information
regardless of the psychological or emotional wellbeing of the patient.” Id. As the court explained,
“[t]herapeutic privilege . . . permits physicians to
decline or at least wait to convey relevant
information as part of informed consent,” thereby
“protect[ing] the health of particularly vulnerable or
fragile patients, and permit[ting] the physician to
uphold his ethical obligations of benevolence.” Id. at
254.
The court further explained that “[t]he most
serious deviation from standard practice is requiring
the physician to display an image and provide an
explanation and medical description to a woman who
has through ear and eye covering rendered herself
temporarily deaf and blind.” Id. at 252. “[W]hile
having to choose between blindfolding and
earmuffing herself or watching and listening to
unwanted information may in some remote way
influence a woman in favor of carrying the child to
term, forced speech to unwilling or incapacitated
listeners does not bear the constitutionally necessary
connection to the protection of fetal life.” Id. at 253.
Rather, the effect is to “wall[] off patients and
physicians in a manner antithetical to the very
communication that lies at the heart of the informed
consent process.” Id. Thus, the Fourth Circuit
concluded, “[t]his is starkly compelled speech that
impedes on the physician’s First Amendment rights
with no counterbalancing promotion of state
interests.” Id. at 252.
Additionally, and in direct contrast to the
decision below and the Fifth Circuit’s decision in
16

Texas Medical Providers Performing Abortion
Services v. Lakey, 667 F.3d 570 (5th Cir. 2012), the
Fourth Circuit recognized that “[t]hough the
information conveyed may be strictly factual, the
context surrounding the delivery of it promotes the
viewpoint the state wishes to encourage,” not to
mention “the full weight of the state’s moral
condemnation” of the woman’s choice. Stuart, 774
F.3d at 253, 255. As such, the Fourth Circuit held
that forced ultrasound laws are “ideological in intent
and in kind” and “extend well beyond those [means]
states have customarily employed to effectuate their
undeniable interests in ensuring informed consent
and in protecting the sanctity of life in all its phases.”
Id. at 242.
b.
In Lakey, by contrast, the Fifth Circuit
upheld against First Amendment challenge a
display-and-describe ultrasound law much like the
Act here. App. 21a (citing Lakey, 667 F.3d at 574).
The Fifth Circuit reasoned that, under Casey, all
statutes labeled by the state as “informed consent
laws” are permissible under the First Amendment so
long as “they require truthful, nonmisleading, and
relevant disclosures.” Lakey, 667 F.3d at 576; but
see Stuart, 774 F.3d at 249 (expressly rejecting
Lakey’s holding that “laws that ‘require truthful,
nonmisleading, and relevant disclosures’” are exempt
from First Amendment scrutiny (quoting Lakey, 667
F.3d at 576). The Fifth Circuit concluded that
“the required disclosures of a sonogram, the fetal
heartbeat, and their medical descriptions are the
epitome of truthful, non-misleading information,”
and are thus “subject to reasonable licensing and
regulation by the State” under Casey. Id. at 575, 57778 (quotation omitted). The Fifth Circuit thus held
17

that “the most reasonable conclusion is to uphold
the” challenged Texas law. Id. at 577.
c.
The Sixth Circuit below adopted
precisely the same rule as the Fifth Circuit in Lakey,
holding that “even though an abortion-informedconsent law compels a doctor’s disclosure of certain
information, it should be upheld so long as the
disclosure is truthful, non-misleading, and relevant
to an abortion.” App. 3a (citing Casey, 505 U.S. at
882; Lakey, 667 F.3d at 576; and Planned Parenthood
Minn., N.D., S.D. v. Rounds, 530 F.3d 724, 734-35
(8th Cir. 2008) (en banc)). The Sixth Circuit also
followed the Fifth in holding that “the disclosures of
the heartbeat, sonogram, and its description ‘are the
epitome of truthful, non-misleading information,’”
and thus not subject to heightened First Amendment
scrutiny. App. 15a (quoting Lakey, 667 F.3d at 57778). Indeed, the Sixth Circuit expressly noted that its
result was “in line with” Lakey.2 App. 21a.
The Sixth Circuit acknowledged that Stuart
addressed a “statute similar to H.B. 2,” but
“decline[d] to follow Stuart … because it gave
insufficient regard to the First Amendment analysis
The Sixth Circuit also noted that its decision was “in line
with” the Eighth Circuit’s decision in Rounds. App. 21a.
Rounds did not involve a display-and-describe ultrasound mandate like the one at issue here and in Stuart and Lakey.
Rather, the challenged provisions in Rounds required physicians to provide patients with a written disclosure. See S.D.
Codified Laws § 34-23A-10.1. As the majority below recognized,
App. 25a-26a, however, Rounds concluded (like Lakey) that any
statute that requires the provision of “truthful, non-misleading
information relevant to a patient’s decision to have an abortion”
is exempt from First Amendment scrutiny. See 530 F.3d at 73435.
2

18

in Casey that the Court clarified and adopted as the
majority view in NIFLA.” App. 27a-28a.
d.
In its opposition to petitioners’ motion
to stay the Sixth Circuit’s mandate, respondent
argued that there is no decisional conflict because
NIFLA is an intervening decision of this Court that
could make the Fourth Circuit rethink its
construction of Casey. That contention is baseless.
As the Sixth Circuit explained, NIFLA simply
“adopted” Casey’s plurality decision “as the majority
view.” App. 28a. And to the extent NIFLA “clarified”
Casey, App. 28a, it did so by making clear that
Stuart’s construction was correct—i.e., that what the
First Amendment generally allows is informedconsent laws that have an incidental effect on
physician speech. See NIFLA, 138 S. Ct. at 2373;
Stuart, 774 F.3d at 252-53. Stuart invalidated the
North Carolina statute at issue precisely because
the Fourth Circuit concluded that it was not
an informed-consent provision exempt from First
Amendment scrutiny, whereas the decision below
upheld a materially identical law because it
concluded that the Act is such a law.
That is a square decisional conflict. The result
of that conflict is that the constitutionality of displayand-describe ultrasound laws (and other compelled
physician speech mandates) is determined entirely
by the jurisdiction in which they are enacted. That
state of affairs is intolerable—physicians are
ethically obligated to do no harm and to obtain
informed consent in a manner that respects patient
autonomy, and their First Amendment rights should
not differ depending on whether they practice in
North Carolina, Kentucky, or any other state. Only
19

this Court can resolve the conflict and restore
uniformity to First Amendment jurisprudence.
II.

THE
QUESTION
PRESENTED
IS
IMPORTANT AND RECURRING, AND
THIS PETITION PROVIDES AN IDEAL
VEHICLE
THROUGH
WHICH
TO
RESOLVE IT.

The
question
presented
is
extremely
important. “Speech is not unprotected merely
because it is uttered by ‘professionals.’” NIFLA, 138
S. Ct. at 2371-72. Regardless of the speaker, contentbased laws that compel speech are generally subject
to heightened First Amendment scrutiny, even if the
speech compelled is factual. Id. at 2371. And, while
there is an exception to this general rule for
regulations of conduct that incidentally burden
professional speech—such as traditional informedconsent requirements—this Court has long “been
reluctant to mark off new categories of speech for
diminished constitutional protection . . . without
persuasive evidence . . . of a long (if heretofore
unrecognized) tradition to that effect.” Id. at 2372.
Thus, this case implicates the core First Amendment
rights of physicians, as well as the states’ ability
to regulate the practice of medicine consistent with
free-speech principles. NIFLA implicated similar
issues, and this Court’s grant of certiorari at the
preliminary injunction stage in that case
demonstrates their importance.
The question presented, moreover, is
recurring, as evidenced by the circuit conflict.
The question directly affects the laws in numerous
states that have enacted statutes similar to H.B. 2.
Compulsory display-and-describe ultrasound man20

dates have been enacted not only in Kentucky but
also in Texas (whose law was upheld in Lakey),
North Carolina (whose law was invalidated in
Stuart), Louisiana (La. Rev. Stat. Ann. § 1061.10),
Oklahoma (Okla. Stat. Tit. 63, §§ 1-738.3d, 1-738.3e,
enjoined on due process grounds, see Nova Health
Sys. v. Pruitt, 292 P.3d 28 (Okla. 2012) (per curiam)),
and Wisconsin (Wis. Stat. § 253.10). More states may
well enact similar laws in light of the decision below.
What is more, the breadth of the Sixth
Circuit’s decision to exempt any compelled factual
speech relating to a medical procedure from First
Amendment scrutiny—no matter how grossly it
deviates from settled principles of informed
consent—extends beyond just compulsory ultrasound
display-and-describe laws. For example, under the
panel’s holding, the First Amendment would not
prevent a state trying to encourage vaginal birth and
decrease the rate of cesarean section delivery from
requiring that a physician show every pregnant
patient a video of significant abdominal surgery.
Nor would it prevent a state seeking to curb health
care spending from requiring physicians to play every
patient choosing between angioplasty and coronary
bypass a recording of a chest-saw, while providing a
simultaneous, graphic description of what is on the
video or recording. To borrow the panel’s words,
such mandates would be exempt from the First
Amendment because they reflect “objective medical
facts” and “inherently provides the patient with more
knowledge about the effect of [a medical] procedure.”
App. 14a, 16a. And, under the decision below, such
speech mandates would be deemed “informed
consent” even if the patient is visibly disturbed and
pleads with her physician to stop, or refuses to look
21

at the images or listen to a single word. Yet this
is precisely the sort of “unfettered” manipulation of
physician-patient speech this Court’s precedent
forecloses. See, e.g., NIFLA, 138 S. Ct. at 2375.
Finally, this petition provides the Court with
an ideal vehicle through which to answer the
question presented and resolve the circuit conflict.
The decision below turned entirely on the question
presented, meaning that answering the question
would both resolve the circuit conflict and determine
the outcome here.
III.

THE DECISION BELOW IS INCORRECT.

This Court’s review is also warranted because
the decision below is wrong. In fact, this Court’s
decades-old compelled speech precedent—applied
in Casey and recently reaffirmed in NIFLA—
underscores that compelling speech of particular
content, even if truthful, is fundamentally
incompatible with the First Amendment. The
decision below is directly contrary to this long line of
precedent.
In particular, this Court has long recognized
two principles directly applicable here: First, contentbased laws that compel speech are generally subject
to heightened First Amendment scrutiny, even if the
speech compelled is factual. Second, while there is
an exception to this general rule for regulations of
conduct that incidentally burden physician speech—
such as the exception recognized in Casey for
traditional informed-consent requirements—such
categories of permissible compelled speech are
narrowly drawn and constrained by tradition. H.B.
2’s compelled speech requirement does not fall within
this exception because it is not a traditional
22

informed-consent regulation, but rather a direct,
content-based regulation of speech that actually
interferes with informed consent by requiring doctors
to disregard their patients’ autonomous choices.
The Act is thus subject to heightened scrutiny, which
it fails.
1.
This Court has long held that contentbased regulations of speech—including regulations
that compel speech—are generally presumed invalid
under the First Amendment. See, e.g., Agency for Int’l
Dev. v. All. for Open Soc’y Int’l, Inc., 570 U.S. 205,
213 (2013); Hurley v. Irish-Am. Gay, Lesbian &
Bisexual Grp. of Bos., 515 U.S. 557, 573 (1995);
NIFLA, 138 S. Ct. at 2371. Moreover, the Court has
also recognized that “[m]andating speech that a
speaker would not otherwise make necessarily alters
the content of the speech.” Riley v. Nat’l Fed’n of the
Blind of N.C., Inc., 487 U.S. 781, 795 (1988).
The Act forces petitioners to say things they
otherwise would not, by requiring them to display
and provide a detailed description of a patient’s
ultrasound even if the patient objects, even if the
patient is actively resisting the information, and
even if doing so harms the patient and undermines
the doctor-patient relationship by requiring the
doctor to disregard the patient’s clearly expressed
autonomous wishes. This compulsion is contrary to
not only providers’ First Amendment rights, but also
their ethical obligations.3 “By requiring [providers] to
See, e.g., App. 112a-113a (“The American Medical Association
has stressed the importance of patient autonomy in the informed-consent process, stating that physicians must ‘[p]resent
relevant information accurately and sensitively, in keeping with
the patient’s preference for receiving medical information.’”);
App. 114a (finding that “H.B. 2 causes patients distress”);
3

23

inform [patients]” of the details of their ultrasounds
over the patients’ objections and against their will at
the same time that providers seek to fulfill their
professional and ethical obligations to respect their
patient’s autonomy and refrain from causing harm,
H.B. 2 “plainly ‘alters the content’ of petitioners’
speech.” NIFLA, 138 S. Ct. at 2371 (quoting Riley,
487 U.S. at 795).
It may be that the speech Kentucky seeks
to compel is factual and non-misleading. But the
established precedent described above “cannot be
distinguished simply because they involved
compelled statements of opinion while here we deal
with compelled statements of ‘fact’: either form
of compulsion burdens protected speech.” Riley, 487
U.S. at 797-98. Such a mandate to speak particular
content against one’s will and professional judgment
is presumptively invalid, and can stand only if it
survives heightened scrutiny—which the Act plainly
does not, see infra pp. 29-31.
2.
a.
Despite these clear principles, the
court of appeals concluded that the Act is exempt
from First Amendment scrutiny because the speech
it compels (i) “relate[s] to a medical procedure,”
(ii) is “truthful and not misleading,” and (iii) is
“relevant to the patient’s decision whether to
undertake the procedure.” App. 12a-13a. Yet as just
explained, this Court expressly held in Riley that
compelling speech that is truthful and relevant to
the listener is still a content-based regulation of
speech subject to heightened First Amendment
Dkt. No. 3-2 (Joffe Decl.) (describing “the fundamental ethical
requirement that the physician must not inflict unnecessary
harm on a patient”).

24

scrutiny. Riley, 487 U.S. at 797-98 (invalidating law
requiring professional fundraisers to disclose to
potential donors the average percentage of gross
receipts actually turned over to charities by the
fundraiser in the previous 12 months). Nor does
it matter that the speech relates to a medical
procedure: this Court confirmed in NIFLA that there
is no exception for speech by physicians or other
professionals, whether in the abortion context or
elsewhere. NIFLA, 138 S. Ct. at 2371-72. The legal
standard adopted below flatly contradicts this
Court’s established precedent.
b.
To be sure, NIFLA also confirmed what
Casey had already held: “under [the Court’s]
precedents, States may regulate professional
conduct, even though that conduct incidentally
involves speech.” Id. at 2372.4 Particularly relevant
here, NIFLA ratified the plurality opinion in Casey,
which “upheld a law requiring physicians to obtain
informed consent before they could perform an
abortion.” Id. at 2373. This Court explained that the
informed-consent provision at issue in Casey was
lawful because it “regulated speech only ‘as part of
the practice of medicine, subject to reasonable
licensing and regulation by the State.’” Id. (quoting
Casey, 505 U.S. at 884). And such regulation was
consistent with the First Amendment because
“the requirement that a doctor obtain informed
consent to perform an operation is firmly entrenched
In NIFLA, this Court also noted that “[the Court’s] precedents
have applied more deferential review to some laws that require
professionals to disclose factual, noncontroversial information
in their ‘commercial speech.’” Id. at 2372. Neither the district
court nor the court of appeals suggested that the speech here is
commercial. See App. 7a n.4; 104a n.5.
4

25

in American tort law.” Id. (quotation omitted); see
also United States v. Alvarez, 567 U.S. 709, 717
(2012) (“[C]ontent-based restrictions on speech have
been permitted, as a general matter, only when
confined to the few historic and traditional categories
of expression long familiar to the bar” (quotation
omitted)).
The court below believed that the Act
falls under this Casey exception for traditional
informed consent. App. 3a. It does not. As Stuart
and Judge Donald’s dissent explained, see supra pp.
11, 14-16, compulsory display-and-describe laws have
no
relation
to
traditional
informed-consent
requirements. Most obviously, the Act requires
physicians to display, auscultate, and describe an
ultrasound even to women who have “wall[ed] off”
communication with their physician, Stuart, 774
F.3d at 253, by covering their eyes and ears—and
deems “informed consent” to have been satisfied so
long as the physician has followed the state’s script,
even when the patient has neither heard nor seen it,
see Ky. Rev. Stat. § 311.727(3). A law that forces
a speaker to speak when no one is listening, forces
a doctor to ignore the will of her patient, and deems
consent valid whether or not the speech is heard
is on its face not an informed-consent provision.
As Judge Wilkinson explained for the Fourth Circuit,
such a law is “antithetical to the very communication
that lies at the heart of the informed consent
process.” Stuart, 774 F.3d at 253. In fact, by
requiring the physician to so directly disregard the
patient’s clear wishes and visible suffering, it
actually undermines informed consent. See Stuart,
774 F.3d at 253.

26

H.B. 2 is thus a far cry from the provisions
upheld in Casey. The First Amendment challenge
in Casey was primarily to the requirement that
physicians inform their patients of “the availability
of printed materials published by the State describing
the fetus and providing information about medical
assistance for childbirth.” 505 U.S. at 881 (emphasis
added). Physicians were not compelled to demand
that their patients confront information against their
will, and were certainly not required to do so in
the midst of a medical procedure with the patient
incapacitated, half-naked, with a probe inside her
vagina. On the contrary, physicians were allowed
to exercise their medical judgment to decline to
offer patients the state-created pamphlets when
appropriate. See id. at 883-84.
This is consistent with traditional informed
consent. As Stuart explained, “informed consent
consists of two essential elements: comprehension
and free consent.” Stuart, 774 F.3d at 251. This
means that physicians must “convey adequate
information about the diagnosis, the prognosis,
alternative treatment options (including no treatment), and the risks and likely results of each
option,” and the patient must “be able to exercise her
autonomy free from coercion,” including “at times the
choice not to receive certain pertinent information
and to rely instead on the judgment of the doctor.”
Id. at 251-52. An offer of information to the patient
tempered by physician judgment, as in Casey, is fully
consistent with these principles. A blanket mandate
to provide the same content-specific speech to every
patient even as she is physically resisting the speech
quite clearly is not.

27

This difference, moreover, has substantial
First Amendment significance. In Casey, “the
viewpoint conveyed by the pamphlet is clearly the
state’s—not the physician’s.” Id. at 253. The Act, by
contrast, “compels the physician to speak and display
the very information on a volatile subject that the
state would like to convey.” Id. “The coercive effects
of the speech are magnified when the physician is
compelled to deliver the state’s preferred message in
his or her own voice. [The Act] treads far more
heavily on the physicians’ free speech rights than the
state pamphlet provisions at issue in Casey.” Id.
c.
The fact that the Act requires
physicians to speak while their patients are trying to
avoid their speech demonstrates that the Act is not
just a content-based regulation but a viewpoint-based
speech regulation. See NIFLA, 138 S. Ct. at 2378
(Kennedy, J., concurring). “Though the information
conveyed [by a law like H.B. 2] may be strictly
factual, the context surrounding the delivery of it
promotes the viewpoint the state wishes to
encourage,” not to mention “the full weight of the
state’s moral condemnation” of the woman’s choice.
Stuart, 774 F.3d at 253, 255. Nothing in the tradition
of informed consent requires that physicians force
patients against their will to be confronted in the
way the display-and-describe mandate does. The Act
goes far beyond any reasonable informed consent
requirement and instead seeks to interfere in the
doctor-patient relationship with a state-mandated
message designed not to inform but to deter abortion
through the physician’s own speech.
***

28

The Act, in short, is nothing like the provisions
upheld in Casey. It does not merely regulate the
practice of medicine by requiring physicians to offer
information—it goes far beyond any informed
consent needs and “regulates speech as speech.”
NIFLA, 138 S. Ct. at 2374. The Act is thus subject to
heightened First Amendment scrutiny.
3.
The court of appeals did not apply any
form of heightened scrutiny, and thus did not decide
whether intermediate or strict scrutiny applied.
It would be unnecessary for this Court to decide that
question either, because the Act plainly would fail
even intermediate scrutiny. See NIFLA, 138 S. Ct. at
2375 (declining to decide whether heightened or
intermediate scrutiny applies, but assuming at
least intermediate scrutiny does); see also Riley,
487 U.S. at 798 (subjecting state law compelling
professional fundraisers to disclose to potential
donors the gross percentage of revenues retained in
prior charitable solicitations “to exacting First
Amendment scrutiny”).
To satisfy that standard, “the State must
show at least that the statute directly advances a
substantial government interest and that the
measure is drawn to achieve that interest.” Sorrell
v. IMS Health, Inc., 564 U.S. 552, 572 (2011).
In particular, where (as here) a state defends a
regulation on speech as a means to prevent harm,
“[i]t must demonstrate that the recited harms are
real, not merely conjectural, and that the regulation
will in fact alleviate these harms in a direct and
material way.” Turner Broad. Sys., Inc. v. FCC, 512
U.S. 622, 664 (1994) (citations omitted). The Act
does not advance a substantial governmental
interest, prevents no actual harm, and is not drawn
29

to achieve the government’s interests. It is plainly
unconstitutional.
To begin, there is no evidence that preexisting
law failed to adequately inform women about the
implications of seeking an abortion, and thus there is
no evidence of a “real” harm to be remedied by the
Act. Id. Indeed, the very information the Act compels
the petitioners to force on their patients was already
available to every patient who wanted it before
Kentucky enacted the Act. See supra p. 5. And when
asked in district court whether the existing law was
inadequate, the Commonwealth could not articulate
how or why preexisting law fell short. App. 117a.
Instead, the Commonwealth simply asserted that
it need not make any such showing. App. 117a.
The Sixth Circuit agreed, but only because it
erroneously concluded that the speech mandated by
the Act was exempt from the First Amendment.
App. 20a. Because Kentucky cannot demonstrate
that the Act would alleviate actual harm, it cannot
survive intermediate scrutiny. See Turner Broad.,
512 U.S. at 664.
Moreover, H.B. 2 fails intermediate scrutiny
because it does not alleviate any proven harms
“in a direct and material way.” Id. That is, the law
does not advance, but actually impedes, the
Commonwealth’s purported interest in ensuring that
women provide informed consent. The Act allows a
patient to physically avoid hearing and seeing the
compelled speech. But it does not allow providers to
stop displaying and describing the ultrasound images
if a patient makes clear she does not want to see
or listen. Such a law is “performative rather than
informative.” Stuart v. Loomis, 992 F. Supp. 2d 585,
602 (M.D.N.C. 2014), aff’d sub nom. Stuart v.
30

Camnitz, 774 F.3d 238 (4th Cir. 2014). The law also
forces a physician to act over the objection of a
competent patient, in direct violation of fundamental
medical ethics principles, as well as the principle of
respect for patient autonomy essential to informed
consent. App. 112a-113a; see also supra pp. 3-4.
The Act’s scope is also vastly—and
unconstitutionally—out of proportion with any such
state interest, which is an independent basis to
invalidate it. Under intermediate scrutiny “[t]here
must be a fit between the legislature’s ends and
the means chosen to accomplish those ends.”
Sorrell, 564 U.S. at 572. Because the Act requires
providers to continue delivering information even if
the woman refuses to hear or see it and even if
providers believe information will harm the woman,
the Act self-evidently is not tailored to advance
Kentucky’s purported interest in informed consent.
See Thompson v. W. States Med. Ctr., 535 U.S. 357,
367 (2002) (explaining that, to survive intermediate
scrutiny, law must “not [be] more extensive than is
necessary to serve [the state’s] interest”).
The Act is thus a plainly unconstitutional
content-based regulation of petitioners’ speech. This
Court should grant the petition and reverse the
decision below.

31

CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.
Respectfully submitted,

Anton Metlitsky
Leah Godesky
Jennifer B. Sokoler
Kendall Turner
O’MELVENY & MYERS LLP
7 Times Square
New York, NY 10036

Alexa Kolbi-Molinas
Counsel of Record
Andrew D. Beck
Meagan Burrows
Jennifer Dalven
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
akolbi-molinas@aclu.org

Heather Gatnarek
ACLU OF KENTUCKY
FOUNDATION, INC.
325 W. Main Street,
Suite 2210
Louisville, KY 40202

David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025

Amy D. Cubbage
ACLU OF KENTUCKY
FOUNDATION, INC.
734 W. Main Street,
Suite 200
Louisville, KY 40202
Date: September 26, 2019

32

APPENDIX

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
EMW WOMEN’S SURGICAL
CENTER, P.S.C., on behalf of
itself, its staff, and its patients;
ERNEST MARSHALL, M.D., on
behalf of himself and his
patients; ASHLEY BERGIN, M.D.,
on behalf of herself and her
patients; TANYA FRANKLIN, M.D.,
on behalf of herself and her
patients.

Nos. 17-6151/6183

Plaintiffs-Appellees,
ANDREW G. BESHEAR, Attorney
General (17-6183); ADAM MEIER,
in his capacity as Secretary of the
Cabinet of Health and Family
Services (17-6151),
Defendants-Appellants.
Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
No. 3:17-cv-00016—David J. Hale, District Judge.
Argued: July 25, 2018
Decided and Filed: April 4, 2019
Before: NORRIS, DONALD, and BUSH, Circuit
Judges;

1a

OPINION
JOHN K. BUSH, Circuit Judge. Under Roe v.
Wade, 410 U.S. 113 (1973), a woman has the right to
choose to have an abortion. To inform that choice,
the Commonwealth of Kentucky directs a doctor,
before performing an abortion, to auscultate (or
make audible) the fetal heartbeat, perform an
ultrasound, and display and describe the ultrasound
images to the patient. This appeal principally
concerns whether those requirements violate the
doctor’s First Amendment rights.
“The Ultrasound Informed Consent Act,” also
known as “House Bill 2” or “H.B. 2,”1 is challenged
by Plaintiffs-Appellees EMW Women’s Surgical
Center, P.S.C. and its associated physicians
(collectively, “EMW”) under the First Amendment, as
incorporated against the States by the Fourteenth
Amendment. EMW prevailed in the district court,
which, in granting the complaint’s first claim for
relief under the First Amendment, applied
heightened scrutiny to invalidate the statute and
permanently enjoin enforcement of H.B. 2. See EMW
Women’s Surgical Ctr., P.S.C. v. Beshear, 283 F.
Supp. 3d 629 (W.D. Ky. 2017). Our court then
denied the motion of then-Defendant-Appellant
Vickie Glisson, who was Secretary of the Cabinet
for Health and Family Services, to stay the
injunction pending appeal.
See EMW Women’s
Surgical Ctr., P.S.C. v. Beshear, No. 17-6151 (6th
Cir. Dec. 8, 2017) (order). However, neither our court
Codified at Kentucky Revised Statute (“KRS”) §§ 311.727,
311.990(34).
1

2a

nor the district court had the benefit of the Supreme
Court’s recent decision in National Institute of
Family & Life Advocates v. Becerra, 138 S. Ct. 2361
(2018) (“NIFLA”).
In NIFLA the Court clarified that no
heightened First Amendment scrutiny should apply
to informed-consent statutes like the abortioninformed-consent statute at issue in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992) (plurality opinion).2 See
NIFLA, 138 S. Ct. at 2373. Thus, even though an
abortion-informed-consent law compels a doctor’s
disclosure of certain information, it should be
upheld so long as the disclosure is truthful, nonmisleading, and relevant to an abortion. See Casey,
505 U.S. at 882; Tex. Med. Providers Performing
Abortion Servs. v. Lakey, 667 F.3d 570, 576 (5th
Cir. 2012); Planned Parenthood Minn., N.D., S.D. v.
Rounds, 530 F.3d 724, 734–35 (8th Cir. 2008) (en
banc).
Because H.B. 2, like the statute in Casey,
requires the disclosure of truthful, non- misleading,
and relevant information about an abortion, we
hold that it does not violate a doctor’s right to free
speech under the First Amendment. See NIFLA, 138
S. Ct. at 2373; Casey, 505 U.S. at 882–84. We also
hold that the Attorney General, DefendantAppellant Andrew Beshear, is not a proper party to
this case.

Citations to Casey refer to the joint opinion by Justices
O’Connor, Kennedy, and Souter.
2

3a

I.
H.B. 2 directs a doctor, prior to performing an
abortion, to perform an ultrasound; display the
ultrasound images for the patient; and explain, in
the doctor’s own words, what is being depicted by
the images—for example, pointing out organs and
whether the patient is pregnant with twins. KRS §
311.727. There is no requirement that the patient
view the images or listen to the doctor’s description.
The doctor also must auscultate the fetal heartbeat
but may turn off the volume of the auscultation if
the patient so requests. Id. Failure to comply with
these requirements can result in the doctor being
fined and referred to Kentucky’s medical-licensing
board. KRS § 311.990(34). But H.B. 2 does not
penalize a doctor if the patient requested that the
heartbeat sound be turned off or chose not to
look at the ultrasound images.
KRS §
311.727(3). Nor does H.B. 2 penalize a doctor if
she or he exercises discretion to advise a patient
that she need not listen to or view the disclosures,
or if the doctor makes any other statement,
including advising the patient to have an abortion.
Finally, a doctor need not make any disclosure from
H.B. 2 at all if an abortion is medically necessary or
in the case of a medical emergency.
KRS §
311.727(5).
EMW sued General Beshear, Secretary
Glisson, and Michael S. Rodman, who is Executive
Director of the Kentucky Board of Medical
Licensure. The parties cross-moved for summary
judgment on the complaint’s first claim for relief,
styled “First Amendment Rights of Physicians.” The
district court ruled in favor of EMW and, as
4a

noted, permanently enjoined enforcement of H.B. 2.
Executive Director Rodman does not appeal, but
Secretary Meier, as Secretary Glisson’s successor,
seeks reversal of the judgment. General Beshear
also defends H.B. 2 on appeal but argues that he is
not a proper party to this case. We address first
whether H.B. 2 violates doctors’ First Amendment
rights,
then
whether
General
Beshear
is
appropriately in this suit.
II.
We engage in de novo review of the district
court’s summary judgment. McKay v. Federspiel,
823 F.3d 862, 866 (6th Cir. 2016). “[W]here, as here,
the parties filed cross-motions for summary
judgment, ‘the court must evaluate each party’s
motion on its own merits, taking care in each
instance to draw all reasonable inferences against
the party whose motion is under consideration.’” Id.
at 866 (quoting Taft Broad. Co. v. United States,
929 F.2d 240, 248 (6th Cir. 1991)). A moving party
may obtain summary judgment only if it “shows
that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). A fact is
material if it “might affect the outcome of the suit
under the governing law.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986).
No material facts are in dispute here, so this
matter turns on a pure question of law: does H.B. 2
compel a doctor’s speech in violation of the First
Amendment?
The First Amendment, applicable to the
States through the Fourteenth Amendment, see,
e.g., Gitlow v. New York, 268 U.S. 652 (1925),
5a

provides, in pertinent part, that “Congress shall
make no law . . . abridging the freedom of speech,”
U.S. Const. amend. I.
This constitutional
guarantee, the Supreme Court has held, applies not
only when government restricts speech, see, e.g.,
Reed v. Town of Gilbert, 135 S. Ct. 2218, 2226
(2015), but also when it compels speech, see, e.g.,
NIFLA, 138 S. Ct. at 2371. When laws, whether
restrictive or compulsive, “target speech based on
its communicative content,” they generally “are
presumptively unconstitutional
and may be
justified only if the government proves that they
are narrowly tailored to serve compelling state
interests.” NIFLA, 138 S. Ct. at 2371 (quoting Reed,
135 S. Ct. at 2226). Such content-based restrictions
have been declared unconstitutional in compelledspeech cases such as West Virginia State Board of
Education v. Barnette, 319 U.S. 624 (1943), which
struck down a requirement that students salute the
United States flag; Wooley v. Maynard, 430 U.S. 705
(1977), which invalidated a law requiring a state
motto “Live Free or Die” on license plates; and
Hurley v. Irish-American Gay, Lesbian & Bisexual
Group of Boston, 515 U.S. 557 (1995), which held
that a State could not force parade organizers to
include a group that would convey a message
contrary to the organizers’ views.
Heightened scrutiny generally applies to
content-based regulation of any speaker, including
a physician or other professional. See NIFLA, 138
S. Ct. at 2371–72. But, as the Supreme Court
noted in NIFLA, there is “less protection for
professional speech in two circumstances”: first, for
“some laws that require professionals to disclose
factual, noncontroversial information in their
6a

‘commercial speech’”;3 second, for regulation of
“professional conduct, even though that conduct
incidentally involves speech,” id. at 2372 (citing
Casey, 505 U.S. at 884). The second exception is at
issue here because H.B. 2 regulates doctors’ conduct:
performing abortions.4
We review H.B. 2 against the backdrop of
thirty-five years of evolving Supreme Court
precedent concerning the constitutionality of
abortion-informed-consent statutes. In the 1980s,
the Court invalidated some aspects of these laws. For
example, in City of Akron v. Akron Center for
Reproductive Health, Inc., 462 U.S. 416 (1983)
(“Akron I”), and Thornburgh v. American College of
Obstetricians & Gynecologists, 476 U.S. 747 (1986),
the Court struck down state laws requiring abortion
doctors to provide patients with information about
the development of unborn life5 and alternatives to
abortion. In Akron I, the Court “invalidated an
ordinance which required that a woman seeking an
abortion be provided by her physician with specific
information ‘designed to influence the woman’s
informed choice between abortion or childbirth.’”
Casey, 505 U.S. at 881 (quoting Akron I, 462 U.S.
at 444). The required disclosure included the
NIFLA, 138 S. Ct. at 2372 (citing Zauderer v. Office of
Disciplinary Counsel of Supreme Court of Ohio, 471 U.S. 626,
651 (1985); Milavetz, Gallop & Milavetz, P.A. v. United States,
559 U.S. 229, 250 (2010); Ohralik v. Ohio State Bar Ass’n, 436
U.S. 447, 455–56 (1978)).
3

We do not address whether H.B. 2 falls within the
Zauderer/Milzavetz/Ohralik commercial-speech exception.
4

We use the term unborn life consistent with the Supreme
Court’s reference to “the life of the unborn,” Casey, 505 U.S. at
883. See also Gonzales v. Carhart, 550 U.S. 124, 158 (2007).
5

7a

statement that “the unborn child is a human life
from the moment of conception.” Akron I, 462 U.S.
at 444. That this “information was designed to
dissuade the woman from having an abortion,”
Casey, 505 U.S. at 882, was one of “two purported
flaws in the Akron ordinance.” Id.
(citing
Thornburgh, 476 U.S. at 762). The other purported
flaw was that the Akron I statute mandated “a
rigid requirement that a specific body of information
be given in all cases, irrespective of the particular
needs of the patient, [that] intrude[d] upon the
discretion of the pregnant woman’s physician.”
Thornburgh, 476 U.S. at 762; see also Casey, 505
U.S. at 882. In Thornburgh, the purported flaw in
the Pennsylvania informed-consent statute at issue
was that it was “an outright attempt to wedge the
Commonwealth’s message discouraging abortion
into the privacy of the informed-consent dialogue
between
the
woman
and
her
physician,”
Thornburgh, 476 U.S. at 762—that is, an
interference with the doctor-patient relationship.
In the early 1990s, the Supreme Court
reversed course. In Casey, the Court effectively
abrogated the holdings in Akron I and Thornburgh.
The Casey joint opinion declared:
To the extent Akron I and
Thornburgh find a constitutional
violation
when
the
government
requires, as it does here, the giving of
truthful, nonmisleading information
about the nature of the procedure, the
attendant health risks and those of
childbirth,
and
the
“probable
gestational age” of the fetus, those
cases go too far, are inconsistent with
8a

Roe’s acknowledgment of an important
interest in potential life, and are
overruled.
Casey, 505 U.S. at 882 (emphasis added) (internal
quotation marks omitted).
Casey addressed
informed-consent
provisions
of
another
Pennsylvania statute that required physicians,
among other things, to inform patients orally of
the nature of the abortion procedure; its risks and
alternatives; the probable gestational age of the
unborn life in the patient when the doctors would
perform the abortion; and the availability of
pamphlets (1) describing unborn life in further
detail, including stages of gestational development,
(2) listing agencies offering alternatives to abortion,
and (3) giving information about obtaining child
support from the unborn life’s father. See Casey, 505
U.S. at 881, 902–03 (quoting 18 Pa. Cons. Stat. §
3205(a)); Planned Parenthood of Se. Pa. v. Casey,
744 F. Supp. 1323, 1349 (E.D. Pa. 1990) (noting
that pamphlets described stages of development for
unborn life).
The Casey plurality reasoned that “a
requirement that a doctor give a woman certain
information as part of obtaining her consent to an
abortion is, for constitutional purposes, no different
from a requirement that a doctor give certain
specific information about any medical procedure.”
Casey, 505 U.S. at 884. Though the joint opinion
acknowledged
that
“the
physician’s
First
Amendment rights not to speak” were implicated
by the informed-consent statute, the plurality
applied no heightened scrutiny and upheld the
statute because a doctor’s rights were implicated
“only as part of the practice of medicine, subject to
9a

reasonable licensing and regulation by the State.”
Id. at 884 (citations omitted).
Importantly too, in “depart[ing] from the
holdings of Akron I and Thornburgh,” the Casey
plurality emphasized that a State may “further its
legitimate goal of protecting the life of the unborn
by enacting legislation aimed at ensuring a decision
that is mature and informed, even when in so doing
the State expresses a preference for childbirth over
abortion.” Casey, 505 U.S. at 883 (emphasis added);
see also Mazurek v. Armstrong, 520 U.S. 968, 972–
73 (1997) (per curiam) (affirming Casey and holding
that a statute restricting who could perform
abortions that was drafted by an anti-abortion
group had no improper purpose). The plurality
instructed that informed consent to an abortion
procedure may mandate disclosure of the “full
consequences of” the abortion decision, including “a
requirement that a woman be apprised of the health
risks of abortion and childbirth,” as well as “the
impact on” or “consequences to the fetus, even
when those consequences have no direct relation
to her health.” Casey, 505 U.S. at 882. As the
plurality explained, it cannot “be doubted that most
women considering an abortion would deem the
impact on the fetus relevant, if not dispositive, to the
decision.” Id. (emphasis added). The joint opinion
analogized an informed-consent disclosure of the
effect on unborn life to a requirement that an
organ recipient learn the effect on the donor
before consenting to the transplant: “[w]e would
think it constitutional for the State to require that in
order for there to be informed consent to a kidney
transplant operation the recipient must be supplied
with information about risks to the donor as well as
10a

risks to himself or herself.” Id. at 882–83.
We have long understood Casey as marking
a shift toward greater respect for States’ interests
in informing women and protecting unborn life. For
example, in Women’s Medical Professional Corp. v.
Taft, 353 F.3d 436 (6th Cir. 2003), we affirmed that
“[a]n essential feature of the jointly authored
opinion in Casey is the reaffirmation of the
substantial state interest in
potential life
throughout pregnancy.” Id. at 443 (internal quotation
marks omitted). Likewise, in Memphis Planned
Parenthood v. Sundquist, 175 F.3d 456 (6th Cir.
1999), we explained that Casey establishes that
States may take steps to ensure that a woman’s
choice to abort is informed:
[a] plurality of the justices in Casey
recognized the weighty concerns of the
state in “the protection of potential life”
and reasoned that, although “the
woman has a right to choose to
terminate or continue her pregnancy
before viability, it does not at all follow
that the state is prohibited from taking
steps to ensure that this choice is
thoughtful and informed.”
Id. at 460–61 (quoting Casey, 505 U.S. at 871–72).
In other words, our circuit has recognized that after
Casey there can be no doubt that “a state can require
that a doctor give a woman certain information
before she may have an abortion.” Id. at 465 (citing
Casey, 505 U.S. at 884).
Recently, in NIFLA, a majority of the
Supreme Court adopted the First Amendment
analysis applied in Casey. See NIFLA, 138 S. Ct. at
11a

2373–74. Specifically, the Court explained that
although heightened scrutiny generally applies to
content-based regulations of speech, “regulations of
professional conduct that incidentally burden speech”
receive lower scrutiny. Id. at 2373. The Court
acknowledged that “drawing the line between
speech and conduct can be difficult.” Id. But it held
that statutes that “facilitate informed consent to a
medical procedure,” like the one at issue in Casey,
fall on the conduct side of the line because they
regulate speech “only ‘as part of the practice of
medicine, subject to reasonable licensing and
regulation by the State.’”6 Id. (quoting Casey, 505
U.S. at 884).
In both NIFLA and Casey, then, the Court
clarified that the First Amendment has a limited
role to play in allowing doctors to avoid making
truthful mandated disclosures related to informed
consent. Under the First Amendment, we will not
highly scrutinize an informed- consent statute,
including one involving informed consent to an
abortion, so long as it meets these three
requirements: (1) it must relate to a medical
The Court went on in NIFLA to declare unconstitutional a
California statute requiring crisis pregnancy centers to disclose
that the State offered abortion services, among other things. See
NIFLA, 138 S. Ct. at 2368–70. In so doing, the Court
distinguished the California statute from the Pennsylvania law
upheld in Casey because the notice at issue under the California
statute was not an informed-consent law: it “provide[d] no
information about the risks or benefits of [medical] procedures.”
Id. at 2373. Because the regulation “at issue [in NIFLA] [was]
not an informed-consent requirement [like in Casey] or any
other regulation of professional conduct,” the Court applied
heightened scrutiny and held that the California law likely
violated the First Amendment. Id. at 2373, 2375.
6

12a

procedure; (2) it must be truthful and not
misleading; and (3) it must be relevant to the
patient’s decision whether to undertake the
procedure, which may include, in the abortion
context, information relevant to the woman’s
health risks, as well as the impact on the unborn
life. See NIFLA, 138 S. Ct. at 2373; Casey, 505
U.S. at 882.
Although much of the analysis in Casey
addressed the plaintiffs’ undue-burden claim, the
joint opinion’s First Amendment holding built upon
its conclusion that the mandated informed- consent
disclosures in that case met the criteria of being
truthful, non-misleading, and relevant. Contrary to
the Dissent’s suggestion that we have “focused on
the wrong provision of the Constitution,” Dissent
at 38, indeed we do address the relevant provision—
the First Amendment. Casey and NIFLA recognize
that First Amendment heightened scrutiny does not
apply to incidental regulation of professional speech
that is part of the practice of medicine and that such
incidental regulation includes mandated informedconsent requirements, provided that the disclosures
are truthful, non-misleading, and relevant. See
Casey, 505 U.S. at 882–84; NIFLA, 138 S. Ct at
2373. Casey also recognizes that, as part of
informed consent for an abortion, permissible
mandated disclosures under the First Amendment
may pertain to the effect of the procedure on
unborn life. 505 U.S. at 882. And in NIFLA, the
Court explicitly reaffirmed that
heightened
scrutiny is not appropriate under the First
Amendment for informed-consent requirements of
the nature upheld in Casey. See NIFLA, 138 S. Ct. at

13a

2373, 2375.7 We therefore are applying Casey and
NIFLA as they directly pertain to the First
Amendment claim and not to any undue-burden
claim under the Fourteenth Amendment.
III.
This First Amendment appeal, thus, turns
on whether H.B. 2 shares the same material
attributes as the informed-consent statute in Casey.
If it does, then no heightened First Amendment
scrutiny applies because, as NIFLA instructed, an
informed-consent law like the Casey statute is a
regulation of professional conduct that only
incidentally burdens professional speech. See
NIFLA, 138 S. Ct. at 2373.
Does H.B. 2 relate to a medical procedure?
Yes—abortion. Are the mandated disclosures
truthful and not misleading? Yes—no one argues
that the heartbeat, sonogram, or its description is
false or misleading. We have previously held that
similar information conveys objective medical facts.
For example, in United States v. Paulus, 894 F.3d
267 (6th Cir. 2018), we explained that “it would be
an insult to common sense and the practice of
medicine to say that [the doctor] was not
The dissenters in NIFLA also recognized this key attribute of
Casey’s holding. See 138 S. Ct. at 2385 (Breyer, J., dissenting)
(“Thus, the [Casey] Court considered the State’s statutory
requirements, including that the doctor must inform his patient
about where she could learn how to have the newborn child
adopted (if carried to term) and how she could find related
financial assistance. To repeat the point, [Casey] held that the
State’s requirements did not violate the Constitution’s
protection of free speech or its protection of a woman’s right to
choose to have an abortion.” (citation omitted)).
7

14a

measuring facts (or attempting to do so) when he
conducted the angiograms at issue” in that case. Id.
at 276. Similarly, we explained in Discount Tobacco
City & Lottery, Inc. v. United States, 674 F.3d 509
(6th Cir. 2011), that anatomical pictures convey
facts:
Students in biology, humananatomy, and medical-school courses
look at pictures or drawings in
textbooks
of
both
healthy
and
damaged cells, tissues, organs, organ
systems, and humans because those
pictures convey factual information
about medical conditions and biological
systems. The argument that a picture
of a specific person or part of a person
is opinion because not every person or
part of a person with that condition
would appear the same way is
unpersuasive. . . . People with the same
illness can and often will suffer a
variety of differing symptoms.
But
one wouldn’t say that a list of
symptoms characterizing a particular
medical condition is nonfactual and
opinion-based as a result.
Id. at 559 (footnote omitted). So, “[t]o belabor the
obvious and conceded point,” the disclosures of the
heartbeat, sonogram, and its description “are the
epitome of truthful, non-misleading information.”
Lakey, 667 F.3d at 577–78.
That leaves the final question: are the
mandated disclosures relevant to the patient’s
decision whether to abort unborn life? The Supreme
15a

Court’s abortion precedent answers this question
for us.
“Abortion is a unique act,” Casey, 505 U.S. at
852, that “requires a difficult and painful moral
decision,” Gonzales v. Carhart, 550 U.S. 124,
159 (2007). It is “fraught with consequences . . . for
the woman who must live with the implications of
her decision.” Casey, 505 U.S. at 852. “[I]t seems
unexceptionable to conclude some women come to
regret their choice to abort the infant life they once
created and sustained. Severe depression and loss
of esteem can follow.” Gonzales, 550 U.S. at 159
(citations omitted). Abortion also is “fraught with
consequences . . . for the life or potential life that is
aborted,” Casey, 505 U.S. at 852, in whom the
State may have a significant interest, Gonzales,
550 U.S. at 158, and who cannot consent to the
procedure to terminate her or his life or potential
life. Thus, the Supreme Court has explained that
the effect of an abortion procedure on unborn
life is “relevant, if not dispositive” information for
the patient’s decision. See Casey, 505 U.S. at 882
(emphasis added).
With this background in mind, we hold that
H.B. 2 provides relevant information. The
information conveyed by an ultrasound image, its
description, and the audible beating fetal heart
gives a patient greater knowledge of the unborn life
inside her. This also inherently provides the patient
with more knowledge about the effect of an
abortion procedure: it shows her what, or whom,
she is consenting to terminate. That this information
might persuade a woman to change her mind does
not render it suspect under the First Amendment. It
just means that it is pertinent to her decision16a

making. See Casey, 505 U.S. at 882 (explaining that
information on abortion’s impact on unborn life
“furthers the legitimate purpose of reducing the
risk that a woman may elect an abortion, only to
discover later, with devastating psychological
consequences, that her decision was not fully
informed”).
The
prevalence
of
ultrasound-use
in
pregnancy also underscores the relevance of the
mandated sonogram of H.B. 2 to a woman’s
abortion decision. Ultrasounds are ubiquitous
procedures that are a part of every pregnancy and,
EMW concedes, every abortion. Oral Arg. at 23:53–
24:10; R. 3-3, PageID 111, 112–13. Indeed,
ultrasounds are “routine measures in pregnancy
[and] viewed as ‘medically necessary’ for the mother
and fetus.” Lakey, 667 F.3d at 579. The physical
invasiveness of the sonogram, as noted by the
Dissent, see Dissent at 35, 46 n.9, therefore, is no
reason to characterize the procedure as an
unwarranted invasion of bodily integrity; indeed,
the Dissent cites authority “finding that up to 98%
of U.S. abortion facilities use an ultrasound to date
the pregnancy,” id. at 46. Also, Kentucky is hardly
alone among the States in finding ultrasounds to
be relevant: according to amici, twenty-four other
States have enacted informed-consent laws that
involve ultrasounds.8
Three of them track more closely with H.B. 2 and require
physicians to perform, display, and describe ultrasounds before
an abortion. La. Stat. § 40:1061.10(D), invalidated by June Med.
Servs. LLC v. Kliebert, 250 F. Supp. 3d 27, 30 (M.D. La. 2017)
(holding statute was an undue burden), rev’d sub nom. June
Med. Servs. LLC v. Gee, 905 F.3d 787 (5th Cir. 2018); Tex.
Health & Safety Code § 171.012(a)(4); Wis. Stat. § 253.10.
8

17a

Although Casey did not involve the
displaying of an ultrasound, its facts are not “a
constitutional ceiling for regulation of informed
consent to abortion, [but] a set of principles to be
applied to the states’ legislative decisions.” Lakey,
667 F.3d at 579. The Casey statute required
doctors to inform patients of the unborn life’s
gestational age and offer them materials further
describing unborn life’s development at a given
gestational age. See Casey, 505 U.S. at 881, 902;
Lakey, 667 F.3d at 575 n.2, 578; Casey, 744 F.
Supp. at 1349. The sonogram requirements of H.B.
2 provide “materially identical” information. See A
Woman’s Choice–East Side Women’s Clinic v.
Newman, 305 F.3d 684, 684–85 (7th Cir. 2002)
(holding informed- consent law requiring abortion
doctors to offer pictures, drawings, and dimensions of
the unborn life within patients was “materially
identical” to the Casey statute’s requirements); see
Seven require doctors to perform ultrasounds and offer patients
the chance to view them. Ala. Code § 26-23A-6; Ariz. Rev. Stat.
§ 36-2156; Fla. Stat. § 390.0111; Ind. Code § 16-34-2-1.1; Iowa
Code § 146A.1, invalidated by Planned Parenthood of Heartland
v. Reynolds ex rel. State, 915 N.W.2d 206, 212 (Iowa 2018)
(holding 72-hour waiting period was an undue burden); Miss.
Code § 41-41-34; Va. Code § 18.2-76. Ten require doctors to offer
the patient the chance to view the ultrasound image if they
perform one. Ark. Code § 20-16-602; Ga. Code § 31-9A-3; Idaho
Code § 18-609; Kan. Stat. § 65-6709; Mich. Comp. Laws §
333.17015; Neb. Rev. Stat. § 28-327 (requiring doctors to
display the sonogram “so that the woman may choose to view
[it]”); Ohio Rev. Code § 2317.561; S.C. Code § 44-41-330; Utah
Code § 76-7-305 (requiring doctors to display the sonogram “to
permit the woman . . . to view the images, if she chooses to”); W.
Va. Code § 16-2I-2. Four require doctors to offer women the
chance to view—and thus receive— an ultrasound. Mo. Rev.
Stat. § 188.027; N.D. Cent. Code § 14-02.1-04; S.D. Codified
Laws § 34-23A-52; Wyo. Stat. § 35-6-119.

18a

also Lakey, 667 F.3d at 578 (explaining that
disclosures like those in H.B. 2 “are not different
in kind” than the disclosures in Casey). A
sonogram depicts unborn life in further detail at
the current gestational age—information no less
relevant to the patient’s decision than were the
materials at issue in Casey. In fact, because of its
individualized nature, a sonogram provides even
more relevant information for the patient’s decision
than any of the required materials at issue in
Casey. Whereas the Pennsylvania law provided
information about unborn life generally, H.B. 2
directs that the patient receive specific, real-time
images of herself and the unborn life within her.9
H.B. 2 also allows the doctor to explain, in her or his
own words, the sonogram, as well as the
auscultation, thus further ensuring that the
information is tailored to the patient’s specific
circumstances.
Sonograms of unborn life were uncommon
when Roe was decided. Writing for the Roe Court,
Justice Blackmun was limited by words on
paper—sometimes using medieval descriptions such
as “quickening” or “infused with a ‘soul’ or
‘animated’”—to explain when life
had been
understood to come into being. Roe, 410 U.S. at 133.

Contrary to EMW’s assertion at oral argument, the
information’s pictorial medium fails to take H.B. 2 out of the
realm of informed consent. See A Woman’s Choice–East Side
Women’s Clinic, 305 F.3d at 684–85; see also F. Rozovsky,
Consent to Treatment: A Practical Guide 2-82 (5th ed. 2018)
(discussing the use of videos, pictures, and slides to obtain
informed consent). This means of sharing information simply is
more scientifically up to date. Lakey, 667 F.3d at 578.
9

19a

But in the Cyber Age,10 words tell only part of a
story. For today’s Posterity11—the Gen-X, Millennial,
and Gen-Z generations, whose first picture of
themselves commonly comes from a sonogram, and
who increasingly turn to photos and videos to share
information12—one can hardly dispute the relevance
of sonogram
images for twenty-first-century
informed consent.
Under the lower level of scrutiny mandated
by Casey and NIFLA, there is no burden placed on
the State to justify that its prior regulation “was
defective in facilitating informed consent” or that
“H.B. 2 filled any gaps in existing informed-consent
legislation,” as the Dissent apparently believes the
State must show, see Dissent at 48, 52. No such
requirements were imposed on Pennsylvania to
justify its statute in Casey. But even if the
Commonwealth bore such a burden, it would easily
meet it here. It is not difficult to conclude that the
particularized visual and audible disclosures
mandated by H.B. 2 provide more relevant
information for informed consent than was provided
See Packingham v. North Carolina, 137 S. Ct. 1730, 1736
(2017) (explaining “that the Cyber Age is a revolution of historic
proportions [and that] we cannot appreciate yet its full
dimensions and vast potential to alter how we think, express
ourselves, and define who we want to be” (emphasis added)); see
also South Dakota v. Wayfair, Inc., 138 S. Ct. 2080, 2097 (2018)
(discussing the Cyber Age).
10

11

U.S. Const. pmbl.

See, e.g., Farhad Manjoo, While We Weren’t Looking,
Snapchat Revolutionized Social Networks, N.Y. Times (Nov. 30,
2016), https://www nytimes.com/2016/11/30/technology/whilewe-werent-looking-snapchat-revolutionized-social-networks.
html.
12

20a

by the less patient-specific, verbal and written
disclosures of the earlier Kentucky abortioninformed-consent statute, KRS § 311.725.
In sum, H.B. 2, like the Pennsylvania statute
in Casey, provides truthful, non-misleading, and
relevant information aimed at informing a patient
about her decision to abort unborn life. Therefore,
although the statute requires doctors to disclose
certain truthful and non-misleading information
relevant to the abortion procedure, it does not
violate their First Amendment rights because the
required disclosures are incidental to the
Commonwealth’s regulation of doctors’ professional
conduct.
IV.
This result is in line with two other circuits
that have faced First Amendment challenges to
similar abortion-informed-consent statutes. The
Fifth and Eighth Circuits read Casey, as well as
Gonzales, to establish the same First Amendment
test for truthful, non-misleading, and relevant
informed-consent disclosures that we apply here.
In Lakey, the Fifth Circuit addressed a
Texas informed-consent statute requiring the
performance, display, and description of an
ultrasound as well as the auscultation of the unborn
life’s heartbeat. Tex. Med. Providers Performing
Abortion Servs. v. Lakey, 667 F.3d 570, 574 (5th
Cir. 2012). The Fifth Circuit rejected a First
Amendment challenge to the statute, explaining
that Casey upheld the constitutionality of informedconsent laws that require disclosure of truthful,
non-misleading, and relevant information, including
facts about the unborn life, with no heightened
21a

scrutiny applying to such laws:
First, informed consent laws that do not
impose an undue burden on the
woman’s right to have an abortion are
permissible if they require truthful,
non-misleading,
and
relevant
disclosures. Second, such laws are part
of the state’s reasonable regulation of
medical practice and do not fall under
the rubric of compelling “ideological”
speech that triggers First Amendment
strict
scrutiny. Third,
“relevant”
informed consent may entail not only
the physical and psychological risks to
the expectant mother facing this
“difficult moral decision,” but also the
state’s legitimate interests in “protecting
the potential life within her.”
Lakey, 667 F.3d at 576 (footnote omitted) (quoting
Casey, 505 U.S. at 871).
Applying this understanding of Casey, the
Fifth Circuit held that requirements that doctors
perform, display, and describe the ultrasound and
auscultate
the
heartbeat—though
more
technologically advanced than the mandated
disclosure that Casey allowed—were the “epitome”
of
truthful,
non-misleading,
and
relevant
information that Casey permits:
To belabor the obvious and conceded
point, the required disclosures of a
sonogram, the fetal heartbeat, and
their medical descriptions are the
epitome of truthful, non-misleading
information. They are not different in
22a

kind, although more graphic and
scientifically up-to-date, than the
disclosures
discussed
in
Casey—
probable gestational age of the fetus
and printed material showing a baby’s
general prenatal development stages.
Likewise, the relevance of these
disclosures
to
securing
informed
consent is sustained by Casey and
Gonzales, because both cases allow the
state to regulate medical practice by
deciding that information about fetal
development is “relevant” to a woman’s
decision-making.
Id. at 577–78 (emphasis added).
Because the Texas statute at issue in Lakey
satisfied the criteria for an abortion-informedconsent statute (that is, the statute mandated
only truthful, non-misleading, and relevant
disclosures related to an abortion), the Fifth Circuit
determined that no heightened scrutiny of the
statute was warranted under Casey and reversed
the district court’s determination otherwise:
The [Casey] plurality response
to the compelled speech claim is
clearly not a strict scrutiny analysis.
It inquires into neither compelling
interests nor narrow tailoring. The
three sentences with which the Court
disposed of the First Amendment
claims are, if anything, the antithesis
of strict scrutiny. Indeed, the
plurality references Whalen v. Roe, in
23a

which the Court had upheld a
regulation of medical practice against
a right to privacy challenge. The only
reasonable
reading
of
Casey’s
passage is that physicians’ rights not
to speak are, when part of the
practice of medicine, subject to
reasonable licensing and regulation
by the State. This applies to
information
that
is
truthful,
nonmisleading, and relevant . . . to the
decision to undergo an abortion.
....
Applying to [the statute] the
principles of Casey’s plurality, the
most reasonable conclusion is to
uphold the provisions declared as
unconstitutional compelled speech by
the district court.
Id. at 575, 577 (cleaned up).
When faced with an analogous issue, the
Eighth Circuit read the Supreme Court’s precedent
similarly. The Eighth Circuit’s decision in Rounds
involved a South Dakota informed- consent statute.
Planned Parenthood Minn., N.D., S.D. v. Rounds,
530 F.3d 724, 726 (8th Cir. 2008) (en banc). The
statute required physicians to give patients a
written statement providing, among other things,
“[t]hat the abortion will terminate the life of a
whole, separate, unique, living human being,”
“[t]hat the pregnant woman has an existing
relationship with that unborn human being and
that the relationship enjoys protection under the
United States Constitution and the laws of South
24a

Dakota,” “[t]hat by having an abortion, her
existing
relationship
and
her
existing
constitutional
rights
with regards to
that
relationship will be terminated,” and “[a]
description of all known medical risks of the
procedure . . . including . . . [d]epression and related
psychological distress [and] [i]ncreased risk of
suicide ideation and suicide.” Id. The statute
defined “Human being” as “an individual living
member of the species of Homo sapiens, including
the unborn human being during the entire
embryonic and fetal ages from fertilization to full
gestation.” Id. at 727. The statute further required
physicians to certify in writing that they provided
all this information to the patients. Id. Also, the
patients had to sign a written statement showing
that the abortion doctors had complied with the
statute’s disclosure requirements and provided them
with the required information. Id.
Sitting en banc, the Eighth Circuit explained
that Supreme Court precedent likely allowed the
statute to stand because it mandated the doctor
provide only “truthful, non-misleading information
relevant to a patient’s decision to have an abortion”:
Casey and Gonzales establish
that, while the State cannot compel an
i ndividual simply to speak the State’s
ideological message, it can use its
regulatory authority to require a
physician to provide truthful, nonmisleading information relevant to a
patient’s decision to have an abortion,
even if that information might also
encourage the patient to choose
childbirth over abortion. Therefore,
25a

Planned Parenthood cannot succeed on
the merits of its claim that [the
statute] violates a physician’s right not
to speak unless it can show that the
disclosure
is
either
untruthful,
misleading or not relevant to the
patient’s decision to have an abortion.
Id. at 734–35. Because Planned Parenthood’s
evidence did not establish a likelihood of proving
that the statute required “anything but truthful,
non-misleading and relevant [information] to the
patient’s decision to have an abortion,” the Eighth
Circuit vacated the district court’s preliminary
injunction. Id. at 738.
The Fifth and Eighth Circuits’ interpretations
of Casey support our holding today. Like the
statutes in those circuits’ cases, H.B. 2 provides
truthful, non-misleading, and relevant information
for a decision whether to abort unborn life. Like
these other circuits, we find no First Amendment
infirmity.
V.
In challenging H.B. 2, EMW echoes Planned
Parenthood’s unsuccessful arguments in Casey.
EMW contends that H.B. 2 warrants heightened
scrutiny because it (1) compels ideological speech,
(2) interferes with the doctor-patient relationship,
and (3) emotionally affects patients.
Ideological Speech. Casey forecloses EMW’s
attempt to invoke heightened scrutiny by claiming
that H.B. 2 requires the doctors to engage in
ideological speech. The statute in Casey required
doctors to disclose facts about the abortion
26a

procedure, the unborn life within a patient, and
options available to a patient if she carried that life
to term. Planned Parenthood argued that the
statute mandated ideological speech that warranted
heighted scrutiny. Brief of Petitioners and CrossRespondents, Casey, 505 U.S. 833 (1992) (No. 91744), 1992 WL 12006398 at *54 (“Casey Br.”). The
Casey plurality acknowledged that the disclosure
requirements were targeted at causing patients to
“choose childbirth over abortion.” Casey, 505 U.S.
at 878. Yet, the plurality applied no heightened
scrutiny to Pennsylvania’s statute because of the
alleged ideological nature of the required disclosures.
So Casey rejected EMW’s rationale for applying
heightened scrutiny.13
The Fourth Circuit, however, disagreed that
Casey forecloses the ideological argument. In Stuart
v. Camnitz, 774 F.3d 238 (4th Cir. 2014), decided
before NIFLA, the Fourth Circuit struck down as
compelled ideological speech a North Carolina
statute similar to H.B. 2. Id. at 246, 255–56. We
decline to follow Stuart, however, because it gave
insufficient regard to the First Amendment analysis
Contrary to what the Dissent maintains, a State is entitled to
regulate informed consent with respect to the abortion even
when it has a political “goal” to protect unborn life. See Dissent
at 53. The Casey joint opinion made that point clear when it
allowed for mandated disclosures intended by the State to
further its “profound interest in potential life” and “to persuade
the woman to choose childbirth over abortion.” See 505 U.S. at
878 (“To promote the State’s profound interest in potential life,
throughout pregnancy the State may take measures to ensure
that the woman’s choice is informed, and measures designed to
advance this interest will not be invalidated as long as their
purpose is to persuade the woman to choose childbirth over
abortion.”).
13

27a

in Casey that the Court clarified and adopted as the
majority view in NIFLA.
Stuart’s basis for applying heightened
scrutiny is called into question by Supreme Court
precedent. Stuart applied heightened scrutiny
because the facts disclosed by a sonogram have
“moral or ideological implications.” Id. at 246.
However, the “moral or ideological” label has not
been used by the Supreme Court as a reason to apply
heightened scrutiny to mandated factual disclosures
in the informed-consent context. Nor has the
Supreme Court considered on what “side of the
abortion debate” required factual disclosures fall in
deciding the level of scrutiny to apply to abortioninformed-consent laws, as did the Fourth Circuit,
see id.14 And unlike the Fourth Circuit, the
Supreme Court has not been concerned that facts
might “convey[] a particular
opinion” like
It is not at all clear that the facts mandated to be disclosed by
an H.B. 2 sonogram fall on only one side of the abortion debate.
For example, abortions are increasingly sought to terminate
lives likely to be born with disabilities. See Preterm-Cleveland v.
Himes, 294 F. Supp. 3d 746 (S.D. Ohio 2018) (granting a
preliminary injunction against an Ohio law criminalizing
abortions performed because of fetal indication of Down
Syndrome), appeal docketed, No. 18-3329 (6th Cir. Apr. 12,
2018); Planned Parenthood of Ind. & Ky., Inc. v. Comm’r, Ind.
State Dep’t of Health, 265 F. Supp. 3d 859 (S.D. Ind. 2017)
(granting a permanent injunction against a similar law), aff’d,
888 F.3d 300 (7th Cir. 2018), petition for cert. filed, 87 U.S.L.W.
3172 (Oct. 12, 2018) (No. 18-483); Julian Quinones & Arijeta
Lajka, “What Kind of Society Do You Want to Live In?”: Inside
the Country Where Down Syndrome is Disappearing, CBS News
(Aug. 14, 2007, 4:00 PM), https://www.cbsnews.com/news/downsyndrome-iceland/?linkId=40953194. An ultrasound showing
the likelihood of a disability could be interpreted by some
people, but not all, as a reason to have an abortion.
14

28a

“convinc[ing] women seeking abortions to change
their minds.” Id.
Instead, under Casey, what matters for First
Amendment purposes is whether the disclosed facts
are truthful, non-misleading, and relevant to the
procedure, not whether they fall on one side of the
debate, and not whether they influence a woman to
keep the child. Casey, 505 U.S. at 882–84; see also
Lakey, 667 F.3d at 575–77; Rounds, 530 F.3d at
734–35. In Stuart the Fourth Circuit tried to
distinguish Casey by reasoning that the Casey
statute was not ideological: “[i]nforming a patient
that there are state-issued materials available is
not ideological, because the viewpoint conveyed by
the pamphlet is clearly the state’s—not the
physician’s.” Stuart, 774 F.3d at 253. But the same
is true here. H.B. 2 allows doctors to tell patients
that the Commonwealth requires this information.
The record shows that’s exactly what they do. R. 55,
PageID 699. Thus, the doctors are just as free as
those subject to the statute in Casey to clarify that
the mandated disclosures come from the State not
the doctors themselves.
After holding that the North Carolina
statute compelled ideological speech, the Fourth
Circuit in Stuart adopted a “sliding-scale” test first
applied by the Ninth Circuit in Pickup v. Brown,
740 F.3d 1208, 1227–29 (9th Cir. 2013) (holding
professional speech is viewed “along a continuum”).
The Fourth Circuit then asserted the statute
“reside[d] somewhere in the middle on that sliding
scale” because it regulated medical treatment but
also regulated speech, Stuart, 774 F.3d at 248, thus
justifying intermediate scrutiny, id. at 249. This
“sliding scale” test based on ideological speech,
29a

however, appeared nowhere in Casey.
Nor did this test appear in NIFLA. In fact, the
NIFLA Court, after citing the Ninth Circuit in
Pickup as an example of “[s]ome Courts of
Appeals” that “have recognized ‘professional
speech’ as a separate category of speech that is
subject to different rules,” NIFLA, 138 S. Ct. at
2371, did not adopt any of the “different rules”
applied in Pickup. Instead, the Court explained
that, generally, it is the compulsion of a message—
not whether the compulsion is of an ideological
nature—that alters the content of speech and
therefore dictates a single heightened- scrutiny
standard, with no sliding scale. NIFLA, 138 S. Ct. at
2371–72. However, as discussed, the Supreme Court
explicitly carved out two exceptions to that general
test that do not call for heightened scrutiny. As also
already explained, H.B. 2 falls into at least one of
those exceptions.
We therefore find that Stuart is unpersuasive
in light of NIFLA, and we decline to follow the
Fourth Circuit.15 If at least one of the two
exceptions noted in NIFLA applies, there is no
Supreme Court authority for looking to whether
The district court also relied largely on Wollschlaeger v.
Governor of Fla., 848 F.3d 1293 (11th Cir. 2017) (en banc),
which invalidated a Florida law restricting doctors from asking
patients about gun ownership in part because of concerns over
interrupting the flow of information between doctor and patient.
Id. at 1313. Those concerns are not present here: H.B. 2 serves
to increase the flow of information between doctor and patient.
Also, unlike the statute in Wollschlaeger, H.B. 2 restricts no
speech that the doctor wishes to impart to the patient. More
important, however, Wollschlaeger did not involve patients’
informed consent.
15

30a

the speech has ideological implications and
applying a “sliding scale” that may result in
intermediate scrutiny.
Doctor-Patient Relationship. As for EMW’s
second argument, H.B. 2 does not interfere with the
doctor-patient relationship any more than other
informed-consent laws. “[I]nformed consent is
generally required for medical treatment,” Cruzan
v. Director, Missouri Department of Health, 497 U.S.
261, 269 (1990), and this requirement “is firmly
entrenched in American tort law,” NIFLA, 138 S.
Ct. at 2373 (citations and internal quotation
marks omitted). “[T]he common-law doctrine of
informed
consent
is
viewed
as
generally
encompassing the right of a competent individual
to refuse medical treatment.” Cruzan, 497 U.S. at
277. This right, grounded in principles of selfdetermination, may “demand[] a standard set by law
for physicians rather than one which physicians
may or may not impose upon themselves.”
Canterbury v. Spence, 464 F.2d 772, 784 (D.C. Cir.
1972) (emphasis added); see F. Rozovsky, Consent
to Treatment: A Practical Guide 2-8 (5th ed. 2018)
(explaining that informed-consent standards are set
by “state legislation, regulations, and case law” in
addition to standards among professional groups).16
“[T]o safeguard the patient’s interest in achieving
[her or] his own determination on treatment, the
law must itself set the standard for adequate
disclosure.” Canterbury, 464 F.2d at 787.
The
principle
that
informed-consent
requirements may be created by law, as opposed to
The Supreme Court has cited earlier editions of this treatise.
See, e.g., Cruzan, 497 U.S. at 269.
16

31a

merely medical-profession custom, applies to all
medical procedures, including abortion. As the
Supreme Court has instructed, “an informed-consent
requirement in the abortion context [is] ‘no different
from a requirement that a doctor give certain
specific information about any medical procedure.’”
Gonzales v. Carhart, 550 U.S. 124, 163 (2007)
(quoting Casey, 505 U.S. at 884). “The law need not
give abortion doctors unfettered choice in the course
of their medical practice, nor should it elevate their
status above other physicians in the medical
community.” Id. As part of States’ regulation of the
medical profession, they may require doctors to
provide information to their patients to ensure
patients can give their informed consent for an
abortion, like for any other medical procedure. See
Casey, 505 U.S. at 884.
The district court cited testimony that the
mandated disclosures of H.B. 2 are inconsistent with
medical standards because (1) their mandatory
nature—that is, the Commonwealth’s requiring
their actual disclosure rather than requiring their
being offered to be disclosed—makes them contrary
to the customary standard of care for informed
consent, and (2) they provide information that the
American
College
of
Obstetricians
and
Gynecologists (“ACOG”) and the National Abortion
Federation do not consider to be necessary for
informed consent. See EMW Women’s Surgical Ctr.,
283 F. Supp. 3d at 644.
As for the first point, most legally enacted
informed-consent disclosures could be subject to the
same criticism because they require the doctor to
disclose, rather than simply offer to disclose,
32a

information.17 The Casey plurality explained that
States can require doctors to give information to
patients about abortion just like it can require
doctors to give information to an organ donor about
that procedure. Casey, 505 U.S. at 882–83. Also,
the very reason that the required disclosure in
NIFLA did “not facilitate informed consent” was
because it provided no information about the risks
or benefits of a medical procedure. NIFLA, 138 S.
Ct. at 2373. In other words, the doctrine of
informed consent does not stop at offering the
opportunity for the information. It applies equally
when a doctor must actually disclose the
information. True, for some information, the Casey
statute required doctors to inform patients that it
was available. See Casey, 505 U.S. at 881. But it
also mandated information actually be given to
patients. Id. H.B. 2 is no different.18
For example, other Kentucky informed-consent and
physician-disclosure requirements require information actually
to be given when (1) diagnosing and treating breast cancer,
KRS § 311.935; (2) performing acupuncture, KRS § 311.678; (3)
testing for HIV infection, KRS § 214.625; and (4) performing
mammograms, KRS § 214.555. An example of this at the federal
level is 42 C.F.R. §§ 441.257–.258, which requires medical
providers actually disclose—not just offer to disclose—the risks,
benefits, and alternatives of sterilization procedures to ensure a
patient’s informed consent to be sterilized.
17

The district court’s first point also overlooks that H.B. 2
allows patients to decline to receive the information, by not
viewing the sonogram or listening to the verbal disclosures, and
asking the doctors to turn off the heartbeat. In fact, that H.B. 2
provides patients with the choice not to receive the information
is the very reason the district court held that H.B. 2 does not go
far enough to meet Kentucky’s goal of informing the patients.
EMW Women’s Surgical Ctr., 283 F. Supp. 3d at 645–46. In
other words, according to the district court, if the Kentucky
18

33a

The second point considered significant by
the district court—certain medical groups’ views
regarding whether a particular mandated truthful
disclosure is necessary for informed consent—is
not the type of evidence deemed material by the
Supreme Court in reviewing abortion-informedconsent statutes. Indeed, the Supreme Court has
upheld abortion regulations that were directly
contrary to alleged medical-profession custom and
that certain medical groups did not consider to be
necessary—laws that those groups asserted were
inconsistent with accepted standards of care for
informed consent. For example, in Casey, the district
court found
that
“[t]he
informed
consent
requirements of the [Pennsylvania law] represent
a substantial departure from the ordinary medical
requirements of informed consent,” Casey, 744 F.
Supp. at 1351; that “[c]ontent-based informed
consent is contrary to the standard medical
practice that informed consent be specifically
tailored to the needs of the specific patient,” id. at
1353; and that various provisions of the
Pennsylvania law conflicted with official positions of
legislature wished to better inform patients about their abortion
procedure, it should have required the patients receive the
information, rather than allowing them to choose not to do so.
We disagree with this conclusion. That H.B. 2 allows women to
avoid receiving the disclosures does not detract from the
statute’s purpose to better inform; it merely reflects the
Commonwealth’s recognition that, ultimately, it is the woman’s
choice as to whether to consider those disclosures in making her
decision. And even if the disclosures do not change many minds,
either because some patients are not persuaded by them or
because some patients ignore them, the Commonwealth still is
entitled under Casey to require doctors to provide them. See
Casey, 505 U.S. at 882–84; Lakey, 667 F.3d at 575–77; Rounds,
530 F.3d at 734–35.

34a

ACOG
and
the
American
Public
Health
Association, see id. at 1351–52, 1355, 1360. Still,
the Supreme Court in Casey upheld the law’s
informed-consent requirements. See Casey, 505 U.S.
at 884.
Similarly, in Gonzales, the Court upheld a
statute prohibiting a form of partial-birth
abortions, despite the district court’s factual findings
that the law was contrary to certain medicalprofession views, including that ACOG “told
Congress several times that the procedure should not
be banned,” Carhart v. Ashcroft, 331 F. Supp. 2d 805,
1011 (D. Neb. 2004), and “that Congress’[s]
Finding—that a medical consensus supports the ban
because partial-birth abortions are unnecessary—is
both unreasonable and not supported by substantial
evidence,” id. at 1015.
If the validity of an informed-consent law
depended on whether doctors agreed with the law—
or whether the law required disclosures that, with
no law, the doctor would disclose anyway—there
would be no need for the law to supplement custom.
See Canterbury, 464 F.2d at 784 (“[T]o bind the
disclosure obligation to medical usage is to
arrogate the decision on revelation to the physician
alone.”). As Casey and Gonzales establish, the
constitutionality of an abortion regulation is based
on the relevant legal standard as interpreted by the
Supreme Court— here, whether the mandated
disclosures are truthful, non-misleading, and
relevant to the medical
procedure—and not
necessarily whether the law is consistent with
medical-profession custom or views of certain
medical groups.
35a

The Dissent, therefore, is mistaken to argue
that we “must naturally turn to the medical
community” to ascertain the “contours of informed
consent” to determine whether a regulation is in
accord with “medical practice” or “medical purpose.”
Dissent at 37. Following that approach would
require us, in effect, to hold that a State must
surrender its authority to regulate informed consent
to private parties. This method, however, would
conflict with the Court’s recognition in Gonzales
that the State may regulate informed consent in the
abortion context in the same way that it regulates
informed consent in other medical contexts. See 550
U.S. at 163. The validity of this regulation does not
turn on what any private party claims is the norm
for the practice of medicine. See Canterbury, 464
F.2d at 784, 787. Instead, we defer to the
legislature’s determination of which informedconsent disclosures are required, provided that they
are relevant, truthful, and non-misleading. This
deference does not make our court a player in policy
making, as the Dissent contends, see Dissent at 44,
but rather preserves our role as umpires who apply
the rules enacted by the People’s representatives.
If the medical groups cited by the Dissent want
the legislated rules of informed consent to change,
they should address their arguments to those
elected
representatives. Casey
makes
clear,
however, that the Dissent is incorrect to contend
that opposition by medical groups to informedconsent rules necessarily renders those rules invalid
under the First Amendment.
The reasoning in Casey also shows that H.B. 2
does not impermissibly infringe on abortion doctors’
autonomy. Indeed, as noted, the Casey plurality
36a

overruled the Court’s earlier holdings that requiring
doctors to give certain information to all patients
impermissibly intruded upon doctors’ discretion. See
Casey, 505 U.S. at 881; Thornburgh v. American
Coll. of Obstetricians & Gynecologists, 476 U.S. 747,
762 (1986).
To be sure, H.B. 2 does require the disclosure
of truthful, non-misleading, and relevant facts that
otherwise the doctor might not disclose. However, to
the extent that it matters to the First Amendment
analysis,19 nothing prevents the doctor from
informing the patient that the factual disclosures
of H.B.2 are required by the Commonwealth rather
than made by the doctor’s choice. See generally
Rust v. Sullivan, 500 U.S. 173, 200 (1991)
(rejecting argument that regulations abridged freespeech rights of the grantee’s staff and noting that
“[n]othing in [the regulations] requires a doctor to
represent as [her or] his own any opinion that [she
or] he does not in fact hold”); Fargo Women’s
Health Org. v. Schafer, 18 F.3d 526, 534 (8th Cir.
1994) (upholding abortion-informed-consent statute
and observing that it allowed doctors to
“disassociate themselves” from the required
information).
It is also true that H.B. 2 differs from the
Pennsylvania statute in Casey in that H.B. 2 does
not have an express provision, as did the Casey
statute, excusing a doctor from providing the
mandated disclosure “if he or she can demonstrate
See Rounds, 530 F.3d at 737 (concluding doctor’s ability
to disassociate herself or himself from disclosures is
irrelevant to the compelled-speech analysis if disclosures are
truthful and non-misleading).
19

37a

by a preponderance of the evidence, that he or she
reasonably believed that furnishing the information
would have resulted in a severely adverse effect on
the physical or mental health of the patient.”
Casey, 505 U.S. at 883–84. Although the Casey
joint opinion noted this statutory provision in the
context of discussing “a constitutional right of
privacy between a pregnant woman and her
physician,” id. at 883, there is no indication that the
plurality considered the provision to be significant
for its First Amendment review. To the extent that it
was, we also must consider that a doctor need not
comply with H.B. 2 if an abortion is medically
necessary or in the case of a medical emergency, KRS
§ 311.727(5), and H.B. 2 has other provisions not
contained in the Casey statute that effectively give
the doctor the same discretion afforded to doctors
under the Casey statute. For example, unlike the
Casey statute, H.B. 2 imposes no obligation that
the patient certify in writing that she has received
certain mandated disclosures, see id. at 881, or even
requires that the patient pay attention to the
disclosures, and it imposes no penalty on the
doctor if the patient ignores the disclosures the
doctor is making, see KRS § 311.727(3). These
provisions operate to allow a doctor who
reasonably believes that the disclosures would result
in a severely adverse effect on the patient, to inform
the patient in the doctor’s discretion that she need
not listen to or view the disclosures.
Furthermore, H.B. 2 restricts no doctor from
advising the patient to keep or abort the unborn
life displayed or from providing any other opinion,
medical or otherwise, that the doctor wishes to
convey. See generally Wollschlaeger v. Governor of
38a

Fla., 848 F.3d 1293, 1309 (11th Cir. 2017) (en banc)
(“Importantly, however, the law [at issue in other
cases] did not restrict what the practitioner could
say or recommend to a patient or client.” (emphasis
added)). Indeed, the statute contains nothing that
would prevent a doctor in her or his discretion from
advocating to the patient in favor of an abortion.
Given these considerations, the requirements
of H.B. 2 are no more of a regulation that departed
from a medical group’s definition of medical
practice than the abortion-informed- consent law
upheld in Casey and no more of a regulation of
professional speech than many informed-consent
and
physician-disclosure
laws
enacted
by
Kentucky,
other
States,
and
the
federal
government.20
Emotional Effect on Patients. As for EMW’s
third argument—that the emotional effect of H.B. 2
on patients warrants heightened scrutiny—Casey
again is instructive. In that case, the district court
accepted Planned Parenthood’s similar argument
and held that the Pennsylvania informed-consent
statute did not survive heightened scrutiny because
the mandated information “will create the
impression in women that the Commonwealth
disapproves of the woman’s decision” and “will
create undesirable and unnecessary anxiety,
anguish and fear.” Casey, 744 F. Supp. at 1354. In
this regard, the district court’s factual finding in
See supra note 17. Other examples of Kentucky mandating
speech in the health-care context occur when (1) reporting
tuberculosis, KRS § 215.590; (2) reporting abuse of adults and
dependents, KRS §§ 209.030, 620.030; (3) displaying licenses,
KRS § 311.470; and, of course, (4) performing an abortion, KRS
§§ 311.725, 311.727.
20

39a

Casey was like the district court’s finding here,
based on evidence cited by the Dissent, see Dissent
at 49–50, that “H.B. 2 causes patients distress.”
EMW Women’s Surgical Ctr., 283 F. Supp. 3d at
645. We recognize the significance of the district
court’s finding regarding the negative emotional
effect on certain patients, as well as its
acknowledgment of declarations from several women
who had undergone abortions and who stated that
the mandated disclosures of H.B. 2 would have had
a positive impact on their emotional health by
persuading them not to have an abortion. R. 32-3,
PageID 406–08; R. 32-4, PageID 410; R. 32-5,
PageID 412–14. However, for purposes of this
summary judgment determination, we need not and
should not weigh the competing evidence of
emotional effect, as the district court and Dissent
appear to do.21 Instead, the Casey plurality did not
The Dissent states that “the Commonwealth did not
controvert” testimony from a Texas resident against H.B. 2
based upon the emotional impact on her from disclosures
required by a Texas informed-consent statute. Dissent at 35, 47.
True, the Commonwealth did not dispute that particular
patient’s experience, but it is not accurate to conclude that the
evidence of the emotional effect of the H.B. 2 disclosures is
uncontroverted based on that testimony. To the contrary,
several Kentucky residents submitted declarations attesting to
beneficial emotional effects they would have experienced from
disclosures mandated by H.B. 2 had they received them. R. 323, PageID 406–08; R. 32-4, PageID 410; R. 32-5, PageID 412–14.
For example, one patient stated that if she had received the
information required by H.B. 2, she “would never have gone
through with the procedure” and that having not received that
information makes her regret of the abortion “even more
painful.” R. 32-3, PageID 407. The Dissent’s and district court’s
discounting of this testimony and other evidence submitted by
the Commonwealth regarding emotional effect appears to
involve the weighing of proof and credibility determinations not
21

40a

view any finding regarding emotional effect as
material to the level of First Amendment scrutiny
of an informed-consent statute. Although the Casey
district court’s finding as to emotional effect was
quoted by Planned Parenthood in its brief to the
Supreme Court, see Casey Br. at *52, the controlling
opinion in Casey did not make any note of this
finding in its analysis of the doctors’ First
Amendment challenge. Instead, without mentioning
emotional effect on patients at all, the Casey
plurality reversed the district court’s judgment that
struck down the informed-consent statute.
Casey thus implicitly recognized that
discomfort to the patient from the mandated
disclosure of truthful, non-misleading, and relevant
appropriate for summary judgment. Dissent at 50; see Alspaugh
v. McConnell, 643 F.3d 162, 168 (6th Cir. 2011) (“When
reviewing a summary judgment motion, credibility judgments
and weighing of the evidence are prohibited.” (quotation
omitted)); Ingram v. City of Columbus, 185 F.3d 579, 586 (6th
Cir. 1999) (“[O]n summary judgment, neither the district court
nor this Court may make credibility determinations or weigh
the evidence.” (citation omitted)). Unlike in Casey, where the
district court made its findings of fact after a bench trial, Casey,
505 U.S. at 845; Casey, 744 F. Supp. at 1325–26, the district
court here was ruling on summary judgment, see EMW Women’s
Surgical Center, 283 F. Supp. 3d at 648, and therefore was not
permitted to make findings of fact based on the disputed
evidence. And we further note that on cross-motions for
summary judgment this court must review the issues of
material fact in the light most favorable to the party whose
motion did not prevail in the district court. See B.F. Goodrich
Co. v. U.S. Filter Corp., 245 F.3d 587, 598 (6th Cir. 2001).
However, as explained above, ultimately fact issues regarding
emotional effect on patients are not material to resolution of the
relevant First Amendment issue of whether the disclosures of
H.B. 2 are truthful, non-misleading, and relevant to an
abortion.

41a

information does not make an informed- consent
law invalid under the First Amendment. Indeed,
discomfort may be a byproduct of informed consent
itself. See generally Gonzales, 550 U.S. at 159
(“Any number of patients facing imminent surgical
procedures would prefer not to hear all details, lest
the usual anxiety preceding invasive medical
procedures become the more intense.”). This may be
especially true in the abortion context. For, as the
Supreme Court has explained, “[a]bortion is
inherently different from other medical procedures,
because no other procedure involves the purposeful
termination of a potential life.” Harris v. McRae, 448
U.S. 297, 325 (1980).
Providing sonogram and auscultation results
to the patient furthers the State’s legitimate
interest, recognized in Casey, of ensuring that the
patient understands the full implications of her
decision, including the impact on unborn life. Under
Casey, the State may decide that its interest in
having the unborn life actually be seen and heard
before being aborted, and potential negative
emotional consequences to the patient from not
having received that disclosure, justify the
incidental regulation of professional speech and
outweigh the risk of negative emotional impact on
the patient from the disclosure (even assuming the
latter consideration is relevant to the First
Amendment analysis and was a permissible finding
for summary judgment given the disputed factual
record). This conclusion follows from Casey’s
reasoning that the State has “an important interest
in potential life,” Casey, 505 U.S. at 882,22 and that
See also Gonzales, 550 U.S. at 157 (emphasizing that a
State “may use its voice and its regulatory authority to show
22

42a

there is the risk to the patient’s psychological
health from having made such a profound decision
without adequate disclosure of its consequences,
including the impact on unborn life, beforehand:
It
cannot
be
questioned
that
psychological well-being is a facet of
health. Nor can it be doubted that most
women considering an abortion would
deem the impact on the fetus relevant,
if not dispositive, to the decision. In
attempting to ensure that a woman
apprehend the full consequences of her
decision, the State furthers the
legitimate purpose of reducing the risk
that a woman may elect an abortion,
only to discover later, with devastating
psychological consequences, that her
decision was not fully informed.
Casey, 505 U.S. at 882.
EMW has offered no Supreme Court
authority to contradict Casey’s teaching. At oral
argument, EMW cited only Hill v. Colorado, 530 U.S.
703 (2000), as support for our considering the impact
of H.B. 2 on the listening patients as part of the
First Amendment analysis. Hill explained that the
effect of certain speech on unwilling listeners can be
a factor when determining whether restricting
speech is constitutional. See 530 U.S. at 716 (“[T]he
protection afforded to offensive messages does not
its profound respect for the life within the woman”); id. at 158
(“[T]he State may use its regulatory power to bar certain
procedures and substitute others, all in furtherance of its
legitimate interests in regulating the medical profession in
order to promote respect for life, including life of the unborn.”).

43a

always embrace offensive speech that is so intrusive
that the unwilling audience cannot avoid it.”). Hill,
however, did not involve a situation where, as here,
no speech—fact or opinion—is restricted. The only
issue here is whether the government may compel
more disclosures of a strictly truthful, nonmisleading, and relevant nature.23
More
fundamentally,
though,
Hill
is
distinguishable because it did not involve informed
consent to a medical procedure. Hill concerned
speech to people on public streets and sidewalks
within 100 feet of health-care facilities. 530 U.S. at
707. The informed-consent exception to heightened
Hill also explained that a reason we allow protestors to
display vulgar language is because viewers can avert their
eyes to avoid more offense. 530 U.S. at 716 (citation omitted).
The information provided by H.B. 2 is not vulgar speech, but
still, if the patient desires not to receive the information
mandated by H.B. 2, she may avert her eyes from the
ultrasound image, not listen to the doctor’s description of the
image, and ask the doctor to turn off the heartbeat. See
Summit Med. Ctr. of Ala., Inc. v. Riley, 274 F. Supp. 2d 1262,
1272 (M.D. Ala. 2003) (rejecting unwilling-listener challenge to
abortion-informed-consent statute because the statute did not
require the patient to listen). Unlike in Casey and Rounds, this
appeal involves no challenge to H.B. 2 as an undue burden on a
woman’s substantive due process right to choose an abortion.
The only challenge here is alleged unconstitutional compelled
speech of the abortion doctors. We must be careful, therefore,
not to upset Casey’s balance between States’ ability to regulate
the medical profession and women’s rights. See Lakey, 667 F.3d
at 577 (“If the disclosures are truthful and non-misleading, and
if they would not violate the woman’s privacy right under the
Casey plurality opinion, then Appellees would, by means of
their First Amendment claim, essentially trump the balance
Casey struck between women’s rights and the states’
prerogatives. Casey, however, rejected any such clash of rights
in the informed consent context.”).
23

44a

scrutiny simply did not apply, as NIFLA confirms.
Because H.B. 2, like the Casey statute, provides
truthful, non-misleading, and relevant information
about an abortion, it helps ensure informed consent
to that procedure. It therefore is not subject to
heightened scrutiny and complies with the First
Amendment under NIFLA and Casey.
VI.
Finally, a few words in response to the
Dissent’s conclusion, based on physician testimony
that is disputed by other physician testimony,24 that
In Iaddressing standard-of-care issues, such as whether H.B.
2 “cause[s] patient harm,” whether it has a “medical purpose,”
and whether it “facilitates informed consent as part of the
practice of medicine,” Dissent at 35, the Dissent and district
court again appear to make credibility determinations and to
weigh the evidence in a manner that is contrary to the
summary judgment standard. It is not undisputed that H.B. 2
is “at odds with the prevailing standard of care,” as the
Dissent contends. See Dissent at 35. To the contrary, the
Commonwealth’s experts (John W. Seeds, M.D., FACOG, the
retired chair of the Department of Obstetrics and Gynecology
at Virginia Commonwealth University, and W. David Hager,
M.D., FACOG, an obstetrician and gynecologist who practices in
Lexington, Kentucky) submitted declarations that H.B. 2
complies with existing standards of medical care. See
generally R. 32-1; R. 32-2. For example, Dr. Seeds stated: “Far
from impairing the physician-patient relationship, the Act
simply conforms the law to the existing national standards of
care for the diagnosis of pregnancy and the obtaining of a
knowing and voluntary consent of the patient before the
pregnancy is surgically or medically terminated through
elective abortion.” R. 32-1, PageID 363. We also note that Dr.
Seeds offered this expert opinion with the understanding that
the disclosures required by H.B. 2 are mandatory. Id. at 349.
The district court acknowledged Dr. Seeds’s (and Dr. Hager’s)
opinion “that H.B. 2 conforms to existing national standards of
care,” EMW Women’s Surgical Center, 283 F. Supp. 3d at 643,
24

45a

H.B. 2 “would require physicians to harm their
patients with ‘no medical purpose,’” id. at 37, and the
Dissent’s statement that “[i]t is transparent that
furthering informed consent was not the aim of the
Commonwealth—nor will it be achieved by H.B. 2,”
id. at 52.
First, in order to make the claim that
informed consent is a pretextual and not the actual
reason for H.B. 2, the Dissent engages in a
methodology that we respectfully submit is
inconsistent with Casey. The Dissent argues that
“H.B. 2 is not coterminous with the medical
practice of informed consent. It should not receive
deferential review because it regulates the content
of physician speech, not the practice of medicine.”
Dissent at 44.
The Dissent’s approach departs from with
how the Casey joint opinion reviewed the
informed-consent statute in that case. The
plurality considered mandated informed-consent
disclosures regarding unborn life to be an incidental
regulation of professional speech that wasengaged in
as “part of the practice of medicine.” NIFLA, 138 S.
Ct. at 2373. In Casey, as here, certain private
medical organizations argued, and the district
but then dismissed that testimony as “undermined by the
testimony given at the hearing” by EMW’s witnesses, id. Such
weighing of evidence regarding national standards of care
appears inappropriate at summary judgment, but ultimately a
factual finding in this area is not material to the relevant legal
issue. As explained above, the First Amendment analysis of
an informed-consent statute turns on whether the mandated
disclosure is truthful, non-misleading, and relevant, not
whether the disclosure is, or is not, currently embodied in the
customary standard of medical care.

46a

court found, that the mandated disclosures were
inconsistent with informed-consent custom. But that
argument and lower court finding did not cause the
Casey plurality to conclude that the disclosures were
somehow not part of the practice of medicine and
therefore subject to heightened scrutiny. Nor did
Casey question the motives of the legislature.
Instead, the plurality accepted as “legitimate” that
the legislature may have the motive of “protecting
the life of the unborn” in fashioning informedconsent requirements for the abortion procedure.
See Casey, 505 U.S. at 882–83. This motive did not
call for heightened scrutiny in Casey. Nor should it
in this case.
Furthermore, the reasoning in Casey
establishes that H.B. 2 does indeed legitimately
facilitate informed consent and serve a medical
purpose that does not harm the patient. To give the
patient more information that is truthful, nonmisleading, and relevant to a medical procedure is
the epitome of ensuring informed consent. See
Casey, 505 U.S. at 882; Lakey, 667 F.3d at 579;
Rounds, 530 F.3d at 735. A sonogram and heartbeat
auscultation of the unborn life inside the patient are
disclosures directly pertinent to whether to obtain a
procedure to abort that unborn life. If we were to
hold that a State may not require such disclosures,
we would essentially be concluding that women
must be shielded and protected from this up-to-date
medical information, that women are unable to or
should not be required to process it. This conclusion
is incompatible with the concept of personal choice
under Casey. See Casey, 505 U.S. at 883–84; Lakey,
667 F.3d at 579 (“Denying [a woman] up to date
medical information is more of an abuse to her
47a

ability to decide than providing the information.”).
Casey recognized that a State may require a
physician to inform the patient of the impact on
unborn life and that facts relating to this impact are
among the disclosures that may be part of informed
consent for an abortion.
VII.
Shifting from the First Amendment to the
Eleventh, General Beshear argues that he is not a
proper party to this matter. “[A] suit against state
officials that is in fact a suit against a State is
barred regardless of whether it seeks damages or
injunctive relief.” Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 102 (1984) (citation
omitted). That said, one “important exception”
exists for suits “challenging the constitutionality of
a state official’s action.”
Id. (citing Ex parte
Young, 209 U.S. 123 (1908)) (emphasis added). The
district court held that General Beshear falls into
this exception because he has the “necessary
authority” to enforce H.B. 2. EMW Women’s
Surgical Ctr., 283 F. Supp. 3d at 647–48. But
General Beshear argues that “an attorney general’s
status as the chief law enforcement officer of the
state is not a sufficient connection” to fall into this
exception. We agree with him.
State officials who are “clothed with some
duty in regard to the enforcement of the laws of the
state, and who threaten and are about to commence
proceedings . . . to enforce against parties affected
an unconstitutional act, violating the Federal
Constitution, may be enjoined by a Federal court of
equity from such action.” Ex parte Young, 209 U.S.
at 156 (emphasis added). However, this exception to
48a

sovereign immunity created in Ex parte Young has
been read narrowly. Children’s Healthcare is a
Legal Duty, Inc. v. Deters, 92 F.3d 1412, 1415 (6th
Cir. 1996). We have held that it “does not apply
when a defendant state official has neither enforced
nor
threatened
to
enforce
the
allegedly
unconstitutional state statute.” Id. (citations
omitted). There must be “a realistic possibility the
official will take legal or administrative actions
against the plaintiff’s interests.” Russell v.
Lundergan-Grimes, 784 F.3d 1037, 1048 (6th Cir.
2015) (citing Deters, 92 F.3d at 1415). General
enforcement authority is insufficient. Id. (citation
omitted).
H.B. 2 and its penalty provision, in contrast
with other statutes, do not delegate specific
enforcement power to any single state actor. KRS
§§
311.727,
311.990(33).
Multiple
local
prosecutors—the Commonwealth’s and county
attorneys—have the duty to enforce H.B. 2.
True, the Attorney General is “the chief
law officer of the Commonwealth” with a
responsibility to “exercise all common law duties
and authority pertaining to the office of the
Attorney General under the common law, except
when modified by statutory enactment.” KRS §
15.020. Kentucky law permits the Attorney General
to defend a statute’s constitutional validity, but it
also gives her or him discretion. KRS § 418.075(1);
Commonwealth v. Hamilton, 411 S.W.3d 741, 751
(Ky. 2013). However, Kentucky law does not
require the Attorney General to represent the
Commonwealth “where it is made the duty of the
Commonwealth’s attorney or county attorney”
instead. KRS § 15.020. That is what we have here.
49a

Each Commonwealth’s attorney must “attend
to all civil cases and proceedings in which the
Commonwealth is interested in the Circuit Courts
of [her or] his judicial circuit.” KRS § 69.010(1).
The county attorneys must do the same within their
counties. KRS § 69.210(4)(a). Both must investigate
the condition of unsatisfied judgments in their
districts or counties. KRS §§ 69.040, 69.240. They
also must “take all necessary steps, by motion,
action, or otherwise to collect [them] and cause
them to be paid into the State Treasury.” KRS §
69.240; accord KRS § 69.040. When these attorneys
fail to meet this mandate, and if the Department of
Revenue submits a written request, then the
Attorney General must bring an action to collect any
unsatisfied judgments. See KRS § 15.060(3). The
duty to enforce H.B. 2 therefore lies not with the
Attorney General but with the Commonwealth’s
attorneys and the county attorneys.
To support their interpretation of Ex parte
Young,
EMW
cites
McNeilus
Truck
&
Manufacturing, Inc. v. Ohio ex rel. Montgomery,
226 F.3d 429 (6th Cir. 2000). That case, however,
affirms the holding of Deters, which we rely on
here. See McNeilus Truck & Mfg., 226 F.3d at 438
(citing Deters for the proposition that Young “does
not apply when the defendant official has neither
enforced nor threatened to enforce” the challenged
statute). McNeilus also held that the Attorney
General is a proper defendant “[w]here there is an
imminent threat of enforcement.” Id. at 437.
There, the Attorney General helped enforce portions
of the statute, and the other defendant had
threatened to withdraw the plaintiff’s license. So, we
held both the Attorney General and the other
50a

defendant could be sued. McNeilus, however, does
not help EMW because there is no evidence of a
similar “imminent threat” of prosecution by the
Attorney General in the present case. Any
imminent threat comes from the Commonwealth’s
and county attorneys, not the Attorney General.
General Beshear has not enforced or even
threatened to enforce H.B. 2. Rather, the Kentucky
legislature has charged local prosecutors with its
enforcement. We therefore hold that the Attorney
General is not a proper party to this action.25
VIII.
H.B. 2—The Ultrasound Informed Consent
Act—is an informed-consent statute like the statute
in Casey because it provides truthful, nonmisleading, and relevant information related to an
abortion. The statute incidentally burdens speech
only as part of Kentucky’s regulation of
professional conduct. Therefore, H.B. 2 is not subject
to any heightened scrutiny with respect to the
doctors’ First Amendment rights, and it does not
violate those rights, based on NIFLA and Casey.
See NIFLA, 138 S. Ct. at 2373; Casey, 505 U.S. at
884. Also, because local prosecutors would handle
the enforcement of fines under H.B. 2, the Attorney
General is not a proper party to this action.
With due respect for the views of the Dissent,
we adopt instead the position of the Fifth and
Eighth Circuits on the First Amendment issue. Our
Because it is uncontested that the Secretary Meier is a proper
party, no concern exists that EMW “would be unable to
vindicate the alleged infringement of their constitutional rights
without first violating [H.B. 2].” See Allied Artists Picture
Corp. v. Rhodes, 679 F.2d 656, 665 n.5 (6th Cir. 1982).
25

51a

responsibility here is to apply the level of scrutiny
mandated by the plurality opinion in Casey and
reaffirmed by a majority of the Supreme Court in
NIFLA. Under Casey, “protecting the life of the
unborn” is a “legitimate goal” that may be pursued
by a State as part of informed consent. See Casey,
505 U.S. at 882–83. As a First Amendment matter,
there is nothing suspect with a State’s requiring a
doctor, before performing an abortion, to make
truthful,
non-misleading
factual
disclosures,
relevant to informed consent, even if those
disclosures relate to unborn life and have the effect of
persuading the patient not to have an abortion.
Accordingly, we REVERSE the district
court’s contrary decision and VACATE the
injunction. We also remand with instructions for
General Beshear to be dismissed from the case, for
summary judgment to be entered in favor of
Secretary Meier on the first claim for relief stated
in the complaint, and for further proceedings
consistent with this opinion.

52a

DISSENT
BERNICE BOUIE DONALD, Circuit Judge,
dissenting.1
This is a First Amendment case. Although
the challenged statute affects abortion, the
question before this Court is not whether the statute
unduly burdens a woman’s right to choose. The
question is how the statute—which compels specific
speech and actions by physicians— impacts a
physician’s First Amendment rights. The majority
misses this critical distinction. They incorrectly
apply Fourteenth Amendment precedent to resolve
this case, as succinctly depicted by their opening
line: “Under Roe v. Wade, 410 U.S. 113 (1973), a
woman has the right to choose to have an abortion.”
Majority Opn. at 1. The categorical test the
majority conjures today may be applicable to an
undue burden challenge, but it does not reflect the
protections the First Amendment affords private
citizens.
Pursuant to the First Amendment, a
regulation that compels physician speech is subject to
heightened scrutiny unless it regulates speech “as
part of the practice of medicine,” Nat’l Inst. of
Family & Life Advocates v. Becerra, 138 S. Ct. 2361,
2373 (2018) (“NIFLA”) (quoting Planned Parenthood
of Se. Pennsylvania v. Casey, 505 U.S. 833, 884
(1992)),2 such as when it “facilitate[s] informed
1I

agree with the majority that Attorney General Beshear is not
a proper party to this action.
All citations to Casey are to the plurality opinion, unless
otherwise noted.
2

53a

consent to a medical procedure,” id. The driving term
here is “practice of medicine.” A regulation that
affects physician speech receives deferential review
only when that speech is auxiliary to a medical
practice. Id. at 2372 (“The Court has afforded less
protection for professional speech . . . where States
regulate professional conduct, even though that
conduct incidentally regulates speech.” (emphasis
added)). In other words, when the state regulates
the content of physician speech in a manner that is
inconsistent with the practice of medicine, we must
apply heightened scrutiny, full stop. Id.
At issue in this case is H.B. 2, a law that has
no basis in the practice of medicine. Prior to
performing an abortion, H.B. 2 requires physicians
in the Commonwealth of Kentucky to conduct an
ultrasound (oftentimes using a transvaginal probe)
while simultaneously describing the fetus with
particularity, displaying the sonogram images, and
playing aloud the fetus’ heartbeat to the patient.
Ky. Rev. Stat. § 311.727(2)(a)–(f). Moreover, the
physician is not permitted to exercise his or her
medical judgment in deciding whether the
procedure is appropriate or ethical. Id. The
Commonwealth argues that H.B. 2 facilitates
informed consent as part of the practice of
medicine. Prevailing standards of care and the
undisputed evidence, however, contradict this
contention.
H.B. 2 does not facilitate informed consent.
Under the prevailing standard of care, informed
consent requires respect for the patient’s
autonomy and sensitivity to the patient’s
condition. Physician discretion is vital, but H.B. 2
eviscerates physician discretion. H.B. 2 is thus at
54a

odds with the prevailing standard of care. The
undisputed evidence shows the same. Plaintiffs
introduced 1) physician testimony stating that H.B.
2’s mandatory provisions would cause patient harm
but “serve no medical purpose,” and 2) a grim
account from a woman who had an abortion under
a “display and describe” regulation that caused her
serious harm without facilitating her informed
consent. The Commonwealth did not controvert that
evidence, and the majority ignores these significant
points (indeed, the majority goes so far as to hold
that “customary standard[s] of medical care” play no
role in determining whether a regulation conforms to
the practice of medicine, Majority Opn. at n. 24).
Rather than look to the standard of care and
the evidence, the majority relies on undue burden
jurisprudence to fashion a test that they believe
comprehensively captures informed consent. The
result is erroneous. If a regulation requires the
provision of truthful, non- misleading, and relevant
information, the majority has decided that the
regulation per se facilitates informed consent. The
three elements the majority identifies—truthful,
non- misleading, and relevant—were drawn from
Casey, a controlling case that considered both an
undue burden and a First Amendment challenge.
These three elements, however, were central only
to Casey’s undue burden analysis. Casey, 505 U.S.
at 883 (holding that a regulation that requires
provision
of
truthful
and
non-misleading
information “cannot be considered a substantial
obstacle to obtaining an abortion, and, it follows,
there is no undue burden.”). Nowhere are these
elements even mentioned in Casey’s discussion of the
First Amendment. See id. at 884. It is a mistake to
55a

transpose Casey’s holding on undue burden to the
First Amendment challenge here. Stuart v. Camnitz,
774 F.3d 238, 249 (4th Cir. 2014) (“The fact that a
regulation does not impose an undue burden on a
woman under the due process clause does not
answer the question of whether it imposes an
impermissible burden on the physician under the
First Amendment.”). To illustrate further, imagine if
a state passed a law requiring all gun owners to
turn in their guns for just compensation, and this
Court upheld the law under the Second
Amendment, but relied only on facts from Takings
Clause jurisprudence. The outcome would be flawed
because the issues are distinct. The same is true in
this case.
The ultimate question in this First
Amendment case is whether H.B. 2 regulates the
practice of medicine, with physician speech being an
“incidental” victim. NIFLA, 138 S. Ct. at 2372. The
two authorities upon which the majority relies to
answer this question do not canvass the medical
practice of informed consent (nor do they profess to
do so); the majority thus takes Casey and NIFLA
too far by extrapolating from them a categorical
test on informed consent. Casey established the
general principle that regulation of physician
speech must be reasonable and regulate speech “as
part of the practice of medicine.” Casey, 505 U.S. at
884. Applying that principle, the Court upheld a
law that permitted a physician to exercise his or
her medical judgment in deciding whether to
provide truthful, non-misleading information to
patients. Id. Then, in NIFLA, the Court applied the
same principle to a regulation that required
unlicensed medical clinics to disseminate certain
56a

information in all of their advertising materials.
NIFLA, 138 S. Ct. at 2373. Because that regulation
extended to non-patients, the Court found that it did
not facilitate informed consent, so it was nothing
more than a prohibited regulation of “speech as
speech.” Id. at 2374. Casey and NIFLA do the
following two things for our First Amendment
inquiry: they provide a guiding principle and two
factual comparators.
Despite what the majority avers, these cases
do not set out elements that comprehensively define
the medical practice of informed consent.3 Because
we do not have legal authority reciting the
contours of informed consent, we must naturally
turn to the medical community for that definition.
The prevailing standard of care and the undisputed
evidence from below make this clear: H.B. 2 does
not facilitate informed consent. H.B. 2 does not
permit physician discretion—a central tenet of
informed consent—and it would require physicians
to harm their patients with “no medical purpose.”
Accordingly, it does not regulate speech as part of
the practice of medicine; it regulates “speech as
speech.” See id. at 2374. For that reason, H.B. 2
should be subjected to heightened scrutiny and
deemed an unconstitutional infringement of the
physicians’ right to free speech.
I respectfully
dissent.

Nor do these cases propose that the state’s intention in
regulating physician speech is immaterial to a First
Amendment challenge. To the contrary, NIFLA explicitly
condemned California’s attempt to further its ideological
message by regulating the content of physician speech outside
the practice of medicine. 138 S. Ct. at 2374–76.
3

57a

A.

Informed Consent and First
Amendment Jurisprudence

The controlling First Amendment cases in
this context are Casey and NIFLA (and only a
limited portion of Casey is germane). These cases do
two things. First, they create the guiding principle
that reasonable regulations that facilitate informed
consent to a medical procedure are excepted from
heightened scrutiny. Second, they illustrate that
guiding principle by applying it to a Pennsylvania
statute (in Casey) and a California statute (in
NIFLA). What these cases do not do, however, is
provide a simple equation with which to calculate
whether a regulation facilitates informed consent.
They do not support the majority’s categorical test.
1.

Under Casey, a Regulation
Compelling Physician Speech
is Subject to Deferential
Review Only When It is
Reasonable and Conforms to
the Practice of Medicine

In Casey, several abortion clinics and
physicians challenged a Pennsylvania statute that
required a woman seeking an abortion to receive
certain information at least 24 hours before the
abortion was performed. Casey, 505 U.S. at 844–45.
The Pennsylvania statute also permitted the
physician to exercise his or her medical judgment
(e.g., discretion) to decide whether to provide the
information at all.
Id.
Though the primary
challenge in Casey centered on the woman’s right to
choose, the physicians also challenged the statute as
a violation of their right to free speech. See id. at
844–853, 884. The Court disposed of that First
58a

Amendment challenge with a single paragraph,
reproduced in its entirety below:
All that is left of petitioners’ argument
is an asserted First Amendment right
of a
physician not to provide
information about the risks of abortion,
and childbirth, in a manner mandated
by the State. To be sure, the
physician’s First Amendment rights not
to speak are implicated, but only as
part of the practice of medicine, subject
to reasonable licensing and regulation
by the State. We see no constitutional
infirmity in the requirement that the
physician provide the information
mandated by the State here.
Casey, 505 U.S. at 884 (emphasis added) (internal
citations omitted). This paragraph “did not hold
sweepingly that all regulation of speech in the
medical context merely receives rational basis
review.” Wollschlaeger v. Gov. Florida, 848 F.3d
1293, 1311 (11th Cir. 2017) (quoting Stuart, 774
F.3d at 249). Indeed, Casey’s First Amendment reach
is limited. The Court held that the Pennsylvania
statute—with all of its specific features—was a
“reasonable . . . regulation by the State” “as part of
the practice of medicine,” and thus did not run afoul
of the physicians’ First Amendment rights. Casey,
505 U.S. at 884.
The majority interprets Casey very differently.
First, the majority recites language from several
passages in Casey detailing why the provision of
truthful, non-misleading, and relevant information
is constitutionally appropriate. They have focused
59a

on the wrong provision of the Constitution. The
following summation, which immediately follows
the specific passages the majority cites from Casey,
makes clear that the pertinent language is specific to
the undue burden challenge in that case:
In short, requiring that the woman be
informed of the availability of information
relating to fetal development and the
assistance available should she decide to
carry the pregnancy to full term is a
reasonable measure to ensure an informed
choice, one which might cause the woman to
choose childbirth over abortion.
This
requirement
cannot
be
considered
a
substantial
obstacle
to
obtaining
an
abortion, and, it follows, there is no undue
burden.
Casey, 505 U.S. at 883 (emphasis added). Only
after the discussion of those enumerated elements
and the summation above did the Court begin to
analyze the plaintiffs’ First Amendment claims.
See id. The analysis in Casey that the majority
relies upon applies to an undue burden challenge,
not a First Amendment challenge. We are not at
liberty to transpose undue burden principles to the
First Amendment.
More egregiously, the majority announces
that “the First Amendment analysis of an
informed-consent statute turns on whether the
mandated disclosure is truthful, non-misleading,
and relevant, not whether the disclosure is, or is
not, currently embodied in the customary
standard of medical care.” Majority Opn. at n. 24.
This proclamation contravenes Casey’s explicit
60a

holding on the First Amendment. In Casey, the
Court addressed the First Amendment challenge
within a single paragraph, and within that single
paragraph, only a single sentence provided the
germane, guiding principle: “To be sure, the
physician’s First Amendment rights not to speak
are implicated, but only as part of the practice of
medicine, subject to reasonable licensing and
regulation by the State.” Casey, 505 U.S. at 884
(emphasis added). The majority now reads this
sentence completely out of Casey, and instead
dictates that what truly matters to our inquiry is
whether a subsequent statute shares some material
features of the Casey statute. This is the proverbial
tail that wags the dog.
Second, the majority highlights that Casey
explicitly overruled City of Akron v. Akron Ctr. for
Reprod. Health, Inc., 462 U.S. 416 (1983) (“Akron I”)
and Thornburgh v. Am. Coll. of Obstetricians &
Gynecologists, 476 U.S. 747 (1986), cases the
majority argues might have lent credence to the
position that H.B. 2 does not facilitate informed
consent. This argument attacks a straw man. The
legal challenges in Akron I and Thornburgh were
based on undue burden, not the First Amendment.
Akron I, 462 U.S. at n.16 (“This is not to say that
the informed consent provisions may not violate
the First Amendment rights of the physician . . .
.”), Thornburgh, 476 U.S. at 830–31 (O’Connor, J.,
dissenting) (“Since the Court of Appeals did not
reach appellees’ First Amendment claim, and since
appellees do not raise it here, I need not decide
whether this potential problem would be sufficiently
serious to warrant issuance of a preliminary
injunction.”). Casey even explained that overruling
61a

Akron I and Thornburgh was premised entirely on
“the undue burden standard adopted in this
opinion.” Casey, 505 U.S. at 881 (emphasis added).
The majority’s attempt to bolster their own
analysis by pointing out that Akron I and
Thornburgh are no longer good law unnecessarily
confuses the issues.
Last, the majority avers that any statute that
is “of the nature upheld in Casey” should not be
subjected to heightened scrutiny. This point is
uncontroversial. If the Court has considered a
materially identical statute and treated it in one
way, we are bound to do the same (given the same
challenge).4 The issue here, however, is how we
define the material elements of the Pennsylvania
statute in Casey. As the majority frequently
repeats, the Pennsylvania statute required the
provision of truthful, non-misleading, and relevant
information. That is not the whole story, though.
The statute also permitted the physician to
“exercis[e] his or her medical judgment” in deciding
whether to provide the information at all. Casey,
505 U.S. at 884–85 (“[I]t is worth noting that the
statute now before us does not require a physician to
comply with the informed consent provisions ‘if he or
she can demonstrate by a preponderance of the
Casey guides us to apply a deferential standard of review to a
regulation on physician speech only when it regulates speech
“as part of the practice of medicine.” 505 U.S. at 884. It must be
said that the practice of medicine is always subject to change
given advancements in research and treatment. If such change
occurs, it could render the facts of a previous First Amendment
case no longer useful as a comparator. At which point, the Court
must rely on the parties to apprise it of the prevailing
standards of care.
4

62a

evidence, that he or she reasonably believed that
furnishing the information would have resulted in a
severely adverse effect on the physical or mental
health of the patient.’” (quoting 18 Pa. Cons. Stat.
§ 3205 (1990)). This fact the majority decides not to
repeat as a material feature of the statute.
To the extent that we use the facts of Casey to
guide our decision-making in this case, we cannot
cherry-pick those that align with H.B. 2 and ignore
those that do not. The Pennsylvania statute in
Casey required the provision of truthful, nonmisleading, and relevant information, and it
provided the physician the opportunity to exercise
his or her medical judgment to decide not to provide
that information. Those are the material facts. If we
encounter a statute with those same material
elements, it should be deemed constitutionally
sound, just as the Pennsylvania statute in Casey
was—but H.B. 2 does not share those same
material elements because H.B. 2 does not allow
for the physician to exercise his or her medical
judgment. H.B. 2 cannot be treated as equivalent to
the Pennsylvania statute in Casey. It is not “of the
nature upheld in Casey.”
Although they try, the majority cannot
explain this stubborn fact away.5 First, the majority
concludes that “there is no indication that the
[Casey]
plurality
considered
the
[physician
discretion] provision to be significant for its First
The majority also makes clear that they do not find
physician discretion to be material to their First Amendment
analysis. Majority Opn. at n. 24 (“[U]ltimately a factual
finding in this area is not material to the relevant legal
issue.”). Their discussion on the matter thus amounts to
surplusage.
5

63a

Amendment review.” Majority Opn. at 27. This
principle is of no help to the majority. The Casey
plurality never mentioned the provision of nonmisleading or truthful information in its brief
discussion of the First Amendment, yet the
majority bases its entire analytical approach on
those elements.
See 505 U.S. at 884. Equal
application of the principle, then, would undermine
the majority’s entire opinion. Second, the majority
attempts to frame H.B. 2 as “effectively” providing
the same physician discretion as the Pennsylvania
statute did, pointing out that H.B. 2 permits the
physician to tell his or her patient not to listen to the
heartbeat and not to watch the images from the
sonogram. Majority Opn. at 27. This fact may be so,
but under H.B. 2, the patient must still be probed,
the doctor must still describe the fetus with
mandated
particularity
and
auscultate
the
heartbeat, and the procedure must proceed to
completion. There is no discretion to avoid these
acts, regardless of their impact on the health of the
patient. H.B. 2 thus does not afford the same
discretion as the Pennsylvania statute did and is
therefore not “of the nature upheld in Casey.”
2.

NIFLA Requires the
Provision of Information to
Actual Patients, and Warns
of the Dangers of Abridging
Speech

Moving on from Casey, the next case shaping
the informed-consent exception is NIFLA. In
NIFLA, California passed a regulation that
required
unlicensed
facilities
to
display
government-drafted notices on all advertising
materials and within on-site locations. NIFLA, 138
64a

Ct. at 2369–70. The government there argued that
the regulation facilitated informed consent, but the
Court was not convinced. Id. at 2373–74. The reason
why: the provision of information was “not tied to a
procedure at all . . . [and] applie[d] to all
interactions between a covered facility and its
clients, regardless of whether a medical procedure
[was] ever sought, offered, or performed.” Id. at
2373. Because the regulation did not facilitate
informed consent, it did not regulate speech as part
of the practice of medicine—it “regulate[d] speech
as speech.” Id. at 2374. Therefore, the Court
applied heightened scrutiny and deemed it an
unconstitutional infringement of the physicians’
right to free speech. Id. at 2376. Other than
requiring the provision of information to actual
patients seeking a specific medical procedure, NIFLA
does not say anything else about what constitutes
informed consent. Indeed, the words “truthful,” “not
misleading,” and “relevant” are wholly absent from
NIFLA, except in the dissent. Id. at 2385, 88
(Breyer, J., dissenting).
The second and arguably most important
point in NIFLA is that the First Amendment is
necessary to maintain a free and democratic
society. Id. at 2374 (“[W]hen the government
polices the content of professional speech, it can fail
to preserve an uninhibited marketplace of ideas in
which truth will ultimately prevail.” (quotation
marks omitted)). The Court emphatically rebuked
California’s attempt to restrict physician speech
under the guise of facilitating informed consent. See
id. at 2375 (“[the regulation] cannot survive even
intermediate scrutiny”). Of the 5,945 words in the
majority and concurring opinions, approximately
65a

2,485 (41.8%) of them were dedicated to explicating
the dangers of abridging speech. Word count is, of
course, a crude measure of importance; but the
substance of those words underscored the same
point. The Court emphasized “the fundamental
principle that governments ‘have no power to
restrict expression because of its message, its ideas,
its subject matter, or its content.’” Id. at 2371
(citation omitted). More specific to physician speech,
the Court warned that “regulating the content of
professionals’ speech ‘pose[s] the inherent risk that
the Government seeks not to advance a legitimate
regulatory goal, but to suppress unpopular ideas or
information.’” Id. at 2374 (citation omitted).
To illuminate that risk, the Court recounted
a laundry list of despotic regimes that had
“manipulated
the
content
of
doctor-patient
discourse” to advance their own iniquitous interests,
such as China during the Cultural Revolution, the
Soviet Government in the 1930’s, and Nazi
Germany. Id. (quotation marks omitted). The
results were, respectively, to suppress child
rearing in peasant communities; to place injured
railroad workers in significant danger; and to exact
an unprecedented campaign of genocide. Id. It is
unsettling to think that this country could follow in
those ignominious footsteps. Yet, the majority
cavalierly dismisses this concern, stating that “what
matters for First Amendment purposes is whether
the disclosed facts are truthful, non-misleading,
and relevant to the procedure, not whether they fall
on one side of the debate, and not whether they
influence a woman to abort or keep the child.”
Majority Opn. at 19. This account is at odds with
the principles of the First Amendment, particularly
66a

as described in NIFLA.
To avoid this foundational consideration, the
majority relies on (and emphasizes) the following
holding in Casey: “a State may ‘further its legitimate
goal of protecting the life of the unborn by enacting
legislation aimed at ensuring a decision that is
mature and informed, even when in so doing the
State expresses a preference for childbirth over
abortion.’” Majority Opn. at 7 (quoting Casey, 505
U.S. at 883). This sentiment makes sense in an
undue
burden challenge. The state has a
legitimate interest in protecting the life of unborn
children, Roe v. Wade, 410 U.S. at 153, and, when
challenged under the due process clause, is free to
convey that message itself so long as the woman’s
right to choose is not unduly burdened, Casey, 505
U.S. at 876 (“In our view, the undue burden
standard is the appropriate means of reconciling the
State’s interest with the woman’s constitutionally
protected liberty.”).
However, we apply a different, more
inquisitive standard when the state forces private
individuals to voice that preference. Riley v. Nat’l
Fed. of the Blind of N. Carolina, Inc., 487 U.S.
781, 790 (1988) (content-based restrictions on
speech must pass strict scrutiny). As made clear in
NIFLA, the state “cannot co-opt [physicians] to
deliver its message for it. ‘[T]he First Amendment
does not permit the State to sacrifice speech for
efficiency.’” NIFLA, 138 S. Ct. at 2376 (quoting
Riley, 487 U.S. at 795); see also Stuart, 774 F.3d at
253 (holding that the state “cannot commandeer the
doctor-patient relationship to compel a physician to
express its preference to the patient[]”). As a First
Amendment challenge, we must consider whether
67a

the state is regulating the content of speech and for
what reason. Riley, 487 U.S. at 790. Here, the
Commonwealth is regulating the content of physician
speech, not the practice of medicine, and is doing so
to promote the Commonwealth’s chosen message.
The First Amendment protects physicians—who
are private citizens—from such regulations.
In sum, Casey and NIFLA are useful in the
underlying First Amendment case in the following
ways: they establish the guiding principle that
reasonable regulations that facilitate informed
consent to a medical procedure are excepted from
heightened scrutiny, and
they provide
two
comparator statutes.
These cases do not,
however, provide comprehensive instructions on
what informed consent is or what it means to
facilitate informed consent. To discern those
definitions, we must turn to the medical community,
because, after all, the primary question here is
whether H.B. 2 regulates speech “only as part of
the practice of medicine.” Casey, 505 U.S. at 884
(emphasis added).
B.

The Medical Definition of Informed
Consent

Before delving into the prevailing standard of
medical care, I must address the majority’s
contention that the Court, and not “private
part[ies],”6 should determine on its own what
constitutes a medical practice. Majority Opn. at
23–25. What the majority describes is not
consistent with jurisprudential tenets. As the Chief
This is the majority’s reference to the plaintiffs in the
underlying case who provided evidence to support their
arguments.
6

68a

Justice of the Supreme Court aptly noted, it is our
job to call balls and strikes and not to pitch or bat.7
We are not medical experts, and even if we were, we
would not be permitted to divine from our own
personal beliefs what a medical practice is and what
it is not. This foundational rule is particularly
important when confronted with an ever-evolving
practice such as medicine. Indeed, what once was an
acceptable medical practice—like easing children’s
nerves with “soothing syrups” containing heroin in
the early 20th century—is no longer acceptable
based upon modern standards of practice and
research.8 Unlike the majority, and pursuant to
jurisprudential tenets, I rely on the evidence
submitted by the parties (and the materials
submitted by the amici) to determine whether H.B.
2 facilitates informed consent.
As a medical practice, informed consent
requires a physician to be able to exercise his or her
judgment in deciding how to provide relevant
information to the patient. H.B. 2 does not allow
for any physician discretion. Therefore, very simply,
H.B. 2 is not coterminous with the medical practice
of informed consent. It should not receive deferential
review because it regulates the content of physician
speech, not the practice of medicine.

Hearing Before the Senate Judiciary Comm. on the
Nomination of The Honorable John G. Roberts to be the Chief
Justice of the United States, 109th Cong. (Sept. 12, 2005),
https://www.uscourts.gov/educationalresources/educationalactivities/chief-justice-roberts-statement-nomination-process.
7

Soothing
Syrups,
https://timesmachine
0/105088995.pdf.
8

N.Y. Times
(Aug. 30, 1910)
nytimes.com/timesmachine/1910/08/3

69a

The ethical doctrine of informed consent is
“rooted in the concept of self-determination and the
fundamental understanding that patients have the
right to make their own decisions regarding their
own bodies.” Am. Coll. of Obstetricians &
Gynecologists (“ACOG”) & the Am. Med. Ass’n
(“AMA”) Br. at 6 (citing ACOG Comm. on Ethics,
Comm. Op. No. 439 (2009, reaffirmed 2015)).
Facilitating informed consent involves two major
elements: comprehension and free consent. ACOG
Comm. on Ethics, Comm. Op. No. 439; ACOG &
AMA Br. at 7. “Comprehension . . . includes the
patient’s awareness and understanding of her
situation and the possibilities. It implies that she
has been given adequate information about her
diagnosis, prognosis, and alternative treatment
choices, including the option of no treatment.”
ACOG Comm. Op. No. 439 at 3. “Free consent is
an intentional and voluntary choice that authorizes
someone else to act in certain ways.” Id. Informed
consent is not attained when a patient is “deceived
[or] coerced.” Id.
The purpose of informed consent is to permit
a patient’s “self-determination,” or, “the taking hold
of her own life and action, determining the
meaning and possibility of what she undergoes as
well as what she does.” Id. at 2. The AMA code of
ethics requires physicians to:
(a)

Assess the patient’s ability to
understand
relevant
medical
information and the implications of
treatment alternatives and to make an
independent, voluntary decision.

70a

(b)
Present
relevant
information
accurately and sensitively, in keeping
with the
patient’s
preferences
for
receiving
medical
information.
The
physician should include information about:

(c)

1.

The diagnosis (when known)

2.

The
nature
and
purpose
recommended interventions

3.

The burdens, risks, and expected
benefits of all options, including
forgoing treatment

of

Document the informed consent conversation
and the patient’s (or surrogate’s) decision in
the medical record in some manner. When
the patient/surrogate has provided specific
written consent, the consent form should be
included in the record.

AMA Code of Ethics, Opinion 2.1.1(a)-(c) – Informed
Consent (2016) (emphasis added). As a general
practice, informed consent requires the physician to
be able to assess the situation and present
information in a way that helps the patient make
a voluntary, informed, and personal decision.
Specific to the procedure at issue here, the
National Abortion Federation informed- consent
standard of care states that: “The practitioner
must ensure that appropriate personnel have a
discussion with the patient in which accurate
information is provided about the abortion process
and its alternatives, and the potential risks and
benefits.
The
patient
must
have the
opportunity to have any questions answered to
her satisfaction prior to intervention.” Nat’l
71a

Abortion Fed’n, Clinical Policy Guidelines for
Abortion Care (2018), https://5aa1b2xfmfh2e2mk03
kk8rsx-wpengine.netdna-ssl.com/wp-content/uploads/
2018_CPGs.pdf. There is no requirement that the
patient undergo an ultrasound to provide informed
consent to an abortion. See id. (“The use of
ultrasound is not a requirement for the provision of
first-trimester abortion care.”), cf. K. White, H.
Jones, E.S. Lichtenberg & M. Paul, First-Trimester
Surgical Abortion Practices in the United States,
92 Contraception 368 (2015) (finding that up to
98% of U.S. abortion facilities use an ultrasound to
date the pregnancy).
When an ultrasound is
conducted, the standard of care requires an
evaluation of the uterus and the embryo or fetus
for specific features. Nat’l Abortion Fed’n, Clinical
Policy Guidelines for Abortion Care (2018). Further,
the patient must affirm that she understands the
risks of the procedure. Id.
Unlike H.B. 2, this standard of care does not
require the physician to conduct an ultrasound and
to simultaneously describe specific parts of the fetus,
display those images to the patient, and play aloud
any audible heartbeat. (Summary Judgment
Hearing Tr., Mar. 23, 2017, Testimony of Dr. Joffe,
R. 55, PageID # 751–53 (explaining in detail the
National Abortion Federation standard of care).)
Nor does the standard of care require physicians to
abandon their ethical and professional obligation to
present information sensitively. (Id. at 753–54.)
H.B. 2 diverges from the national standard of care
in a dispositive way: physicians have no ability to
respond to their patients’ conditions, histories, and
needs in performing the mandated procedure. By
proscribing physician discretion, H.B. 2 is hostile to
72a

the medical practice of informed
consent.9
Accordingly, H.B. 2 is not a regulation of speech as
part of the practice of medicine, it is a regulation of
“speech as speech.” NIFLA, 138 S. Ct. at 2374.
C.

The Undisputed Evidence

The undisputed evidence introduced below
demonstrates that H.B. 2 would require physicians
to violate their professional and ethical obligations.
Three physicians testified that H.B. 2’s one-size-fitsall approach would cause them to harm their
patients in direct violation of the prevailing
standard of care. Further, a woman who underwent
an abortion under a similar regulation described
the horrifying pain she suffered as a result, all
while not receiving any helpful information. The
Commonwealth did not controvert these facts. Nor
did
the
Commonwealth
introduce
evidence
demonstrating that the mandatory nature of H.B. 2
is consistent with informed consent. Therefore, the
undisputed evidence shows that H.B. 2 does not
facilitate informed consent as a medical practice.

According to the majority, H.B. 2 does permit physician
discretion because it allows the physician to tell his or her
patient that she may avoid listening to the heartbeat or
watching the images displayed. This is not the type of
discretion that informed consent requires. Under H.B. 2, the
physician must still probe his or her patient and perform the
mandated procedure. In Casey, on the other hand, the physician
could exercise his or her discretion not to perform the mandated
practice at all based on the potential effect it would have on the
patient. There is no similar discretion under H.B. 2. The
majority’s attempt to frame H.B. 2 as permitting physician
discretion fails because it glosses over this fact.
9

73a

1.

Informed-Consent Regulation
Preceding H.B. 2

Originally enacted in 1998, Kentucky Revised
Statute § 311.725 is the abortion informed-consent
statute
that
preceded
H.B.
2
in
the
Commonwealth. It contains a list of required
information physicians must provide to a woman at
least 24 hours prior to the procedure, including:
1.

The nature and purpose of the
particular
abortion
procedure
or
treatment to be performed and of those
medical risks and alternatives to the
procedure
or treatment
that a
reasonable patient would consider
material to the decision of whether or
not to undergo the abortion;

2.

The probable gestational age of the
embryo or fetus at the time the
abortion is to be performed;

3.

The medical risks associated with the
pregnant
woman
carrying
her
pregnancy to term;

4.

That published materials produced by
the state are available to her which
she has a right to, free of charge;

5.

That there may be medical assistance
benefits available to her for prenatal
care, childbirth, and neonatal care; and

6.

That the father of the fetus is liable
to assist in the support of her child,
even in instances where he has offered
to pay for the abortion.
74a

Ky. Rev. Stat. § 311.725(1)(a)–(b) (1998). For almost
twenty years, these regulations governed the
information that the Commonwealth mandated be
disclosed to patients seeking an abortion. In the
underlying proceedings, the Commonwealth failed
to, and then refused to, describe how this regulation
was defective in facilitating informed consent. EMW
Women’s Surgical Ctr., 283 F. Supp. 3d 629, 646
(W.D. Ky. 2017).
2.

Physician Testimony on
H.B. 2

On the other hand, the undisputed evidence
shows that that regulation’s successor—H.B. 2—is
defective in facilitating informed consent. The
testimony offered in affidavits and at the summary
judgment hearing clarified that H.B. 2 would
require physicians to inflict unnecessary harm upon
their patients in direct contravention of the practice
of medicine.
As an initial matter, Dr. Franklin testified
that offering, rather than requiring, an ultrasound
is the national standard of care pursuant to the
National Abortion Federation practice guidelines.
H.B. 2’s mandatory provisions are not consistent
with that standard of care. For example, Dr. Joffe
testified that “[t]o continue to speak to a patient, to
continue to share that information with a patient
who’s clearly signaling that she doesn’t want that
information to me is the definition of insensitivity.”
Dr. Nichols similarly testified that simultaneously
displaying and describing the fetus “clearly violates
basic principles of medical ethics and informed
consent and serves no medical purpose.” Indeed, in
his decades of experience, Dr. Nichols has “never
75a

heard of an institution that—absent a law
compelling them to do so—forces an ultrasound
image and description and any fetal heart tones on a
woman before she can have an abortion.”
As a practical matter, the undisputed
evidence also demonstrates that, regardless of her
stated preferences, the woman will likely still hear
the auscultation of the heartbeat and her
physician’s description of the fetus. Dr. Franklin
explained that a physician “can’t auscultate [the
fetus’ heartbeat] in the room with [the patient] and
she not hear it too.” Yet H.B. 2 requires
auscultation. Accordingly, even when a patient asks
not to hear the heartbeat, “the sound can not
necessarily be drowned out unless they have their
ears covered and they’re yelling or they’re making
noises or humming. So there’s no true way to not
hear the heartbeat, even though we think they
have a choice about it.”
Dr. Joffe similarly
testified that even when a patient is permitted to
cover her ears or avert her eyes, the physician
must still audibly describe and visually display the
fetus as the Commonwealth mandates:
[I]f you just imagine for a moment being
in that exam room with a patient who is
-- the doctor is talking, the doctor is
talking on because she’s mandated to
be talking on by H.B. 2, and the
patient is doing everything in her
power to avoid that experience, and
that interaction, and those sounds, that
looks nothing like any informed
consent that I am familiar with, any
standard of informed consent. That’s
in complete violation of it.
76a

These physicians each emphatically agreed that
H.B. 2 bears no resemblance to the medical
practice of informed consent.
3.

Patient Testimony on Displayand-Describe Regulations

The procedure—and its impact—was not solely
described by physicians. The affidavit of a woman
who was forced to undergo a “display-and-describe”
procedure offered a grim scene, one in which the
professional and ethical practice of medicine was
absent. This pregnant woman and her husband,
already parents of a two-year-old girl, went to the
doctor’s office for a routine ultrasound. Horrific
news and a traumatic experience followed. The
doctor informed the couple that the “baby was
profoundly ill,” and sent them to a specialist for
further consultation. After speaking with two more
medical professionals that same day, the couple
was left with the following options: “abortion or
continue the pregnancy and subject our child to a
life of pain.” They had to make a “very difficult
decision,” but they did so with full comprehension
and free consent. As a medical question, the mother
provided informed consent to have an abortion (and
to spare her unborn child a life of pain). However,
because she was having the procedure in Texas,
and pursuant to Tex. Health & Safety Code §
171.012(a)(4), she was required to undergo an
additional “display-and-describe” procedure, just
like H.B. 2 requires. Her account of that
experience—which was mandated by her state
government, not her doctor—is tragic:
While the staff at the abortion clinic did
all they could for me, this experience
77a

was nothing short of torture. I had to
lie on an examination table, with my
feet in stirrups. My belly was exposed
with the ultrasound gel and abdominal
probe on it while we saw images of our
sick child forming on the screen for the
third time that day. Before the doctor
even started the description, I began
to sob until I could barely breathe. My
husband had to calm me down and the
doctor had to wait for me to find my
breath.
The description the doctor provided was
perhaps the most devastating part
because although our baby was
profoundly ill, he had healthy organs
too. So, the doctor was forced to
describe – and I to hear – that he
had a well-developed diaphragm and
four healthy chambers of the heart.
His words were unwelcome and I felt
completely trapped. I closed my eyes. I
twisted away from the screen. The
doctor and staff repeatedly apologized
for making us go through this, but
their compassion could not ameliorate
my pain.10
Dr. Franklin testified at the summary judgment hearing to a
similar experience:
10

A. And I actually had a patient in the first month who
had a fetal anomaly who was -- had five or six
ultrasounds, went to that specialist, to that
specialist to try to determine whether or not they
were going to proceed on. This was a wanted
pregnancy, a very desired pregnancy. And her

78a

She explained that she “learned nothing as a
result of [her] experience.” Moreover, “the doctor and
staff at the abortion clinic were clear that they were
doing this, even though [she] was so upset, because
the Texas law required it – not because they
thought it provided any medical benefit.” In her
words, the “Texas law did nothing other than
cause me additional pain and distress on a day
that was already the worst of my life.” H.B. 2
mandates the same process, which will incur the
same results. This is not the practice of medicine.
husband did come back with her because they
were very, very upset and were making a very
difficult decision. And so when I told them about the
state laws changing and this is what I had to do,
she immediately started sobbing. Like you could
not console this woman. Her husband was visibly
furious and saying, “Why do they have to force
her to do this? She has gone through enough. We
have gone through enough.” And I had to
auscultate the heartbeat and I had to describe in
detail what I saw on the screen.
Q.

And did you believe that that woman was
competent to make a decision as to whether she
should look at the screen or not?

A. I absolutely do think that. She had already been
informed multiple times by multiple physicians
with multiple ultrasounds already, and I felt like
this was just adding no additional piece to the
care that she and her husband ultimately decided
needed to happen for them.
Q. Do you think she understood what the result of an
abortion would be?
A. Yes. And I’m sure that she had multiple
conversations with all those different physicians
along the way because there was a problem with the
pregnancy.

79a

The Commonwealth has offered no evidence showing
otherwise.11
4.

The Commonwealth’s
Limited Evidence

Last, the Commonwealth produced no evidence
that H.B. 2 was either aimed at furthering informed
consent or will achieve that ostensible goal. When
presented the opportunity to offer evidence at the
summary judgment hearing, the Commonwealth
decided instead to rely on the affidavits it
submitted with its briefing, despite the extensive
testimony presented by the plaintiffs’ witnesses
describing precisely how H.B. 2 is adverse to
informed consent. Specific to the issues in this
appeal, the Commonwealth produced no evidence
demonstrating that mandating the procedure set
forth in H.B. 2, rather than offering it, is the
medically-accepted standard of care.
As part of its briefing, the Commonwealth
submitted four affidavits from women who had
obtained abortions they later came to regret; but
these undated affidavits have no information as to
The patient also has no input in the process. She must subject
herself to this invasive procedure. Ky. Rev. Stat. § 311.727(2).
The majority makes much of the fact that the woman may
cover her ears and look away as the doctor goes on with the
procedure. This cannot be the saving grace of an informedconsent statute. As described, the purpose of informed consent
is to ensure that the patient makes an informed, autonomous,
and rational decision. Emotion should be subdued, not
inflamed. Forcing a woman to undergo the invasive
procedure—which adds approximately three to five minutes to
a standard ultrasound—while permitting her to avoid all of the
information, does nothing to facilitate her comprehension or
free consent. See ACOG Comm. on Ethics, Comm. Op. No. 439.
11

80a

when or with what information the women
obtained abortions. It is even unclear whether
they were before or after the passage of the
informed-consent statute that predated H.B. 2.
Without such information, these affidavits do not
create a genuine issue of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 324 (1986). More
importantly, simply because H.B. 2’s provisions
might have assisted some women in their
autonomous decision- making does not mean that
H.B. 2’s provisions will assist all women in their
autonomous decision-making. No number of
affidavits can negate the grim experience described
by the woman in Texas or the absence of the
“practice of medicine” in that setting.
The Commonwealth also submitted two
affidavits from physicians opining that an
ultrasound, a description of the fetus, and an
auscultation of the heartbeat are consistent with the
national standard of care. Those affidavits are
deficient, however, because neither physician
discusses the impact of offering these procedures
versus requiring them—even against patient
wishes.12 Requiring these procedures is the
primary flaw with H.B. 2. Failing to directly
address that flaw means the Commonwealth failed
to establish that H.B. 2 regulates speech as part of
the practice of medicine.13
As the district court noted, both physicians misunderstood
EMW’s previous practice.
12

The majority contends that the dissent “appears” to be
weighing the evidence and making credibility determinations
in violation of the principles of summary judgment. Majority
Opn. at n. 21. The majority is incorrect. If the evidence a
party submits does not actually dispute the opposing evidence,
13

81a

There is also no evidence that H.B. 2 filled
any gaps in existing informed-consent legislation.
Although the Commonwealth submitted affidavits
from state legislators explaining why they passed
H.B. 2 (including to “protect the lives of unborn
infants”), those affidavits are silent on any
deficiencies with the earlier law. In contrast, EMW
(the sole abortion-provider in the Commonwealth)
produced evidence, undisputed at summary
judgment, that “prior to H.B. 2, EMW patients
made informed decisions about abortion and that
the informed-consent process followed by EMW
physicians ensured this.” EMW Women’s Surgical
Ctr., 283 F. Supp. 3d at 646 (citing the testimony of
Dr. Franklin). It is transparent that furthering
informed consent was not the aim of the
Commonwealth—nor will it be achieved by H.B. 2—
and thus, H.B. 2 is an impermissible regulation of
the content of speech.
D.

Conclusion

I am gravely concerned with the precedent the
majority creates today. Its decision opens the
floodgates to states in this Circuit to manipulate
doctor-patient discourse solely for ideological
there is no weighing necessary because no genuine issue has
been made. See Celotex Corp. v. Catrett, 477 U.S. 317, 324
(1986) (when the moving party submits a summary judgment
motion, “Rule 56(e) . . . requires the nonmoving party to go
beyond the pleadings and . . . designate ‘specific facts showing
that there is a genuine issue for trial.’” (emphasis added)).
Such is the case here. The plaintiffs submitted evidence
showing that the mandatory provisions of H.B. 2 conflict with
the medical practice of informed consent. No other evidence
refutes that fact. Therefore, there is no genuine issue as to
whether H.B. 2 facilitates informed consent—it does not.

82a

reasons. So long as the state’s legislators wisely use
the words “informed consent” in the title of a
regulation, the majority instructs us to “defer to the
legislature’s determination of which informedconsent disclosures are required,” despite what the
evidence or standards of care say. Majority Opn. at
23; but see NIFLA, 138 S. Ct. at 2375 (“[S]tate labels
cannot be dispositive of [the] degree of First
Amendment protection.” (quoting Riley, 487 U.S. at
796)). Even further, the majority contends that “[i]f
the [plaintiffs] want the legislated rules of informed
consent to change, they should address their
arguments to [their] elected officials” and not the
Court. Majority Opn. at 23. This instruction
amounts to an improper abdication of judicial
oversight. NIFLA, 138 S. Ct. at 2374 (striking
down as unconstitutional a law the state
said promoted informed consent). In reviewing
whether a regulation facilitates informed consent, we
do not give deference to the state simply because it is
a governmental body; rather, we must rely on
the evidence submitted by the parties and look
to the prevailing standard of care. See id.
Employing that practice here clarifies that
H.B. 2 has the singular goal to “completely end
abortion” in the Commonwealth. See Robert Post,
Informed Consent to Abortion: A First Amendment
Analysis of Compelled Physician Speech, 2007 U. Ill.
L. Rev. 939, 940 (2007); see also Audrey Carlsen,
Ash Ngu & Sara Simon, What it Takes to Get an
Abortion in the Most Restrictive U.S. State,
N.Y. Times (July 20, 2018), https://www.nytimes.com
/interactive/2018/07/20/us/mississippi-abortionrestrictions.html?action=click&module=Top%
20Stories&pgtype=Homepage (highlighting the ways
legal abortion is made increasingly less accessible).
83a

That goal is driven by politics, which explains why
H.B. 2 was not drafted to be coextensive with the
practice of medicine.14
As a final analogy more closely related to the
business of the Court, consider if the state
legislature passed a law mandating that attorneys
inform their clients of certain truthful, nonmisleading, and relevant information in specific
types of cases. More precisely, what if the state
required an attorney, prior to filing a complaint, to
inform each medical-malpractice plaintiff that
pursuing her claim would burden the state’s
resources, incur reputational harm for the physician,
and make healthcare less accessible to the
community? Any attorney would find this to be a
repugnant
invasion
of
the
attorney-client
relationship. Yet, pursuant to the deferential
standard adopted by the majority today, the state
is the sole and final arbiter of what constitutes
the practice of any profession, including the law.
This hypothetical legislation amounts to client
counseling, which is part of the practice of law, so
would say the state; further, it does not infringe
The majority tries to lessen the impropriety of H.B. 2 by
noting that the physician is permitted to distance himself or
herself from the procedure’s anti-abortion message after the
procedure is completed. Majority Opn. At 25. This fact has no
legal significance. Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm’n, 138 S. Ct. 1719, 1740 (2018) (Thomas, J.,
concurring) (“[The Circuit Court] reasoned that an outside
observer would think that Phillips was merely complying with
Colorado’s public-accommodations law, not expressing a
message, and that Phillips could post a disclaimer to that
effect. This reasoning flouts bedrock principles of our freespeech jurisprudence and would justify virtually any law that
compels individuals to speak.”).
14

84a

on the attorneys’ First Amendment rights, so would
say the majority. On balance, this two-step registers
more Orwellian than it does a “reasonable
regulation” of speech “as part of the practice” of a
profession. I trust that a panel of this Court would
treat that claim much differently than the majority
treats the underlying one.
The Commonwealth has coopted physicians’
examining tables, their probing instruments, and
their voices in order to espouse a political
message, without regard to the health of the
patient or the judgment of the physician. Armed
with the title “informed consent,” the majority
affirms this practice as constitutional. In so doing,
the majority 1) conflates the undue burden and
First Amendment standards, while misreading the
explicit language of Casey; 2) ignores the national
standards of medical care; and 3) disregards the
evidence showing that H.B. 2 is not consistent with
the medical practice of informed consent. Benjamin
Franklin warned that “[f]reedom of speech is a
principal pillar of a free government; when this
support is taken away, the constitution of a free
society is dissolved, and tyranny is erected on its
ruins.” H.B. 2 is a restriction on speech that has
no basis in the practice of medicine. It should be
subjected to heightened scrutiny and deemed
unconstitutional, lest our constitution dissolve, and
tyranny be erected on its ruins. I dissent!

85a

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
EMW WOMEN’S
SURGICAL CENTER,

Plaintiffs,

P.S.C., et al.,
Civil Action No.
3:17-cv-16-DJH

v.
ANDREW G. BESHEAR,
et al.,

Defendants.

*****
MEMORANDUM OPINION AND ORDER
In January 2017, the Kentucky General
Assembly hastily passed the Ultrasound Informed
Consent Act, referred to as House Bill 2 (H.B. 2).1
(Docket No. 1-1) Although Kentucky already had
a comprehensive informed-consent law pertaining
to abortions, Ky. Rev. Stat. § 311.725, H.B. 2
amended the existing law to require physicians to
perform an ultrasound prior to an abortion
procedure; display and describe the ultrasound
images; and auscultate, or make audible, the fetal
heartbeat. Physicians must comply with these
requirements even if a woman does not want to
receive the information and chooses to avert her eyes
and cover her ears.
H.B. 2 has since been codified at Ky. Rev. Stat. §§ 311.727,
.990(32).
1

86a

Plaintiffs are the only licensed abortion
clinic in Kentucky and its three doctors, who
provide abortions and other health services.
Defendants are various state government officials.
Plaintiffs challenge the constitutionality of H.B. 2,
primarily arguing that the law violates their rights
under the First Amendment by compelling
ideological speech. The Commonwealth argues that
the law is within the Commonwealth’s authority to
regulate the practice of medicine.
Three similar “speech-and-display” ultrasound
laws have been challenged in states outside the
Sixth Circuit. The Fifth Circuit upheld Texas’s
speech-and-display ultrasound law in Texas Medical
Providers Performing Abortion Services v. Lakey, 667
F.3d 570 (5th Cir. 2012). Within a year of Lakey,
the Supreme Court of Oklahoma concluded that
Oklahoma’s speech- and-display ultrasound law
was facially unconstitutional. See Nova Health Sys.
v. Pruitt, 292 P.3d 28 (Okla. 2012) (per curiam). In
Stuart v. Camnitz, 774 F.3d 238 (4th Cir. 2014),
the Fourth Circuit explicitly disagreed with Lakey,
holding that North Carolina’s speech-and-display
ultrasound law violated the First Amendment. The
main reason for these differing outcomes rests on
how the various courts interpreted a single
paragraph in Planned Parenthood of Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992).
Finding the Fourth Circuit’s reasoning
persuasive, the Court concludes that H.B. 2 violates
the First Amendment. Like the Fourth Circuit, the
Court recognizes that states have substantial
interests in protecting fetal life and ensuring the
psychological well-being and informed decisionmaking of pregnant women. See Stuart, 774 F.3d at
87a

250. However, H.B. 2 does not advance those
interests and impermissibly interferes with
physicians’ First Amendment rights. The Court will
therefore enjoin enforcement of H.B. 2.
I.

BACKGROUND

Prior to H.B. 2, the informed-consent process
for abortion in Kentucky was governed by Ky. Rev.
Stat. § 311.725. This statute required that, at least
twenty-four hours before an abortion was performed,
a woman receiving an abortion must be informed of
the following:


the nature and purpose of the abortion
procedure to be performed as well as the
medical risks and alternatives to the
procedure that a reasonable patient would
consider material to the decision of
whether or not to undergo the abortion;



the probable gestational age of the fetus;



the medical risks associated with carrying
the pregnancy to term;



the availability of printed materials
published by the Cabinet for Health and
Family Services that she has a right to
view free of charge if she so chooses;



the potential availability of medical
assistance benefits for prenatal care,
childbirth, and neonatal care; and



the liability of the father of the fetus to
assist in the support of her child.

Ky. Rev. Stat. § 311.725(1)(a)–(b).

88a

The Cabinet materials referred to in § 311.725
contain two general types of information. The first
concerns alternatives to abortion, such as adoption.
Ky. Rev. Stat. § 311.725(2)(a). A list of various
agencies and the services those agencies offer is
provided. Id. These materials
also contain
information on medical assistance benefits for
prenatal care, childbirth, and neonatal care, as well
as information on the father’s child-support
obligations. Id. The second type of information is
“objective and nonjudgmental” scientific and
medical information about fetal development. §
311.725(2)(b). The materials inform the reader of the
“probable
anatomical
and
physiological
characteristics” of the embryo or fetus at two-week
gestational increments for the first sixteen weeks
and at four-week gestational increments thereafter.
Id. For each stage, the materials must contain a
pictorial representation and some other image for
scale to reflect the actual size of the fetus. Id.
Abortion
providers
challenged
these
regulations in Eubanks v. Schmidt, 126 F. Supp. 2d
451 (W.D. Ky. 2000). The plaintiffs in Eubanks
sought to enjoin enforcement of § 311.725 on behalf
of themselves and their patients. Id. at 453. The
plaintiffs first argued that the requirements placed
an undue burden on a woman’s right to an
abortion, particularly for those “who must travel
long distances, who have few financial resources,
and who have difficulty explaining their absence to
employers, spouses, or others.” Id. at 454. This Court
concluded that the statute did not place an undue
burden on women seeking an abortion in Kentucky.
See id. at 453–57.

89a

The plaintiffs in Eubanks also challenged the
law on First Amendment grounds, arguing that it
“compel[led] them to pay for and distribute
ideological speech with which they disagree[d].” Id.
at 457. Recognizing the brevity of the Supreme
Court’s disposition of the First Amendment claims in
Casey,2 Judge Heyburn reasoned that “[i]f
Kentucky’s
pamphlets
and
the
resulting
infringement
on
speech
are
legally
indistinguishable from those presented in Casey,
then Casey controls.” Id. at 459. Judge Heyburn
found that the information provided in Kentucky’s
pamphlets was “quite similar” to the information
provided in Casey. Id. He
concluded that
“distributing these pamphlets is a reasonable
measure to insure adequate informed consent in all
cases of abortion.” Id. at 460 (citing Casey, 505 U.S.
at 882–83). Because the content of the Kentucky
pamphlet was similar to that in Casey, it fell within
“the constitutional limits for which Casey stands.”
Id.
Unlike Kentucky’s existing informed-consent
laws, H.B. 2 was not accompanied by any legislative
Of the petitioners’ First Amendment arguments in Casey, the
plurality said:
2

[T]he physician’s First Amendment rights not to speak
are implicated, see Wooley v. Maynard, 430 U.S. 705,
97 S. Ct. 1428, 51 L. Ed. 2d 752 (1977), but only as
part of the practice of medicine, subject to reasonable
licensing and regulation by the state, cf. Whalen v.
Roe, 429 U.S. 589, 603, 97 S. Ct. 869, 878, 51 L. Ed.
2d 64 (1977). We see no constitutional infirmity in the
requirement that the physician provide the information
mandated by the State here.
Casey, 505 U.S. at 884.

90a

findings. See Ky. Rev. Stat. Ann. § 311.710
(containing the General Assembly’s legislative
findings in support of § 311.725). H.B. 2 imposes
additional requirements upon abortion providers
and women seeking abortions. Prior to a woman
giving informed consent to an abortion, H.B. 2
requires a physician to


perform an obstetric ultrasound on the
woman;



give a simultaneous explanation of what
the ultrasound depicts;



display the ultrasound images so that the
woman may view them;



auscultate the fetal heartbeat so that the
woman may hear it;



provide a medical description of the
ultrasound images; and



retain signed certification from the woman
that the above information was given.

H.R. 2, 2017 Gen. Assemb., Reg. Sess. (Ky.
2017). The only exception to these requirements is
for medical emergencies. Id. H.B. 2 further states
that “nothing in this section shall be construed to
prevent the pregnant woman from averting her eyes
from the ultrasound images or requesting the
volume of the heartbeat be reduced or turned off.” Id.
No penalty is imposed on a woman who refuses to
look at the ultrasound images or listen to the
heartbeat. Id. However, physicians who violate
the requirements are subject to penalties
including fines of up to $100,000 for the first
offense and $250,000 for each subsequent offense. Id.
Further, courts are to report any violation to the
91a

Kentucky Board of Medical Licensure for whatever
action or discipline the Board deems appropriate.
Id.
Because H.B. 2 contained an emergency
clause, it became effective immediately once signed
by the governor. Plaintiffs filed this action (D.N. 1)
and moved for a temporary restraining order to
temporarily block enforcement of H.B. 2.3 (D.N. 3)
The Court held an evidentiary hearing on March
23, 2017, on Plaintiffs’ motion for temporary
restraining order.4 The parties agreed to advance the
trial on the merits and consolidate it with the March
23, 2017 hearing pursuant to Rule 65(a)(2) of the
Although Plaintiffs’ complaint asserted six claims for relief
(see D.N. 1, PageID # 13-15), the parties’ arguments have
focused exclusively on the first of those claims, which alleges
that H.B. 2 violates the First Amendment rights of
physicians. (Id., PageID # 13; see, e.g., D.N. 55, PageID #
838 (agreeing that “[t]his is a First Amendment case and the
claim is about a physician’s fundamental First Amendment
right not to be compelled to speak by the State”)).
Accordingly, the Court’s discussion herein will be limited to that
claim.
3

Prior to the hearing, General Assembly members Robert
Stivers, Jeff Hoover, Whitney Westerfield, and Joseph M.
Fischer filed a motion requesting leave to file a brief as amici
curiae. (D.N. 18) “[P]articipation as an amicus to brief and
argue as a friend of the court was, and continues to be, a
privilege within the sound discretion of the courts, depending
upon a finding that the proffered information of amicus is
timely, useful, or otherwise necessary to the administration of
justice.” United States v. Michigan, 940 F.2d 143, 165 (6th Cir.
1991) (internal citations and quotations omitted). The historical
purpose of an amicus “was to provide impartial information on
matters of law about which there was doubt, especially in
matters of public interest.” Id. at 164. Because Plaintiffs here do
not object (see D.N. 31, PageID # 324), the motion for leave to
file an amicus brief will be granted.
4

92a

Federal Rules of Civil Procedure. (D.N. 53) The
parties then filed cross-motions for summary
judgment, which are now before the Court. (D.N.
58; D.N. 59; D.N. 60; D.N. 62)
II.

STANDARD

In order to grant a motion for summary
judgment, the Court must find that there is no
genuine dispute as to any material fact and that
the moving party is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a). The moving
party bears the initial burden of identifying the basis
for its motion and the parts of the record that
demonstrate an absence of any genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986). If the moving party satisfies this
burden, the non-moving party must point to specific
facts demonstrating a genuine issue of fact for trial.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250
(1986); see Fed. R. Civ. P. 56(c)(1). “[O]n crossmotions for summary judgment, ‘the court must
evaluate each party’s motion on its own merits,
taking care in each instance to draw all reasonable
inferences against the party whose motion is under
consideration.’” B.F. Goodrich Co. v. U.S. Filter
Corp., 245 F.3d 587, 592 (6th Cir. 2001) (quoting
Taft Broad. Co. v. United States, 929 F.2d 240, 248
(6th Cir. 1991)). The Court concludes that there is
no genuine dispute of material fact in this case.
III.

DISCUSSION

Plaintiffs argue that H.B. 2 violates their
First Amendment rights because it compels them
to deliver the state’s ideological, anti-abortion
message to their patients. (D.N. 60-1, PageID #
93a

903) But for H.B. 2, Plaintiffs would not force
ultrasound images, detailed descriptions of the
fetuses, or the sounds of the fetal heartbeat on
abortion patients who do not wish to hear the
descriptions or heartbeat or see the images. (Id.,
PageID # 904) Plaintiffs assert that because H.B. 2
compels ideological, content-based speech, it
necessarily triggers at least intermediate scrutiny,
which it cannot survive. (Id., PageID # 903, 910)
Intermediate scrutiny requires the state to prove
that “the statute directly advances a substantial
governmental interest and that the measure is
drawn to achieve that interest.” Sorrell v. IMS
Health, Inc., 564 U.S. 552, 572 (2011) (citing Bd. of
Trs. of the State Univ. of N.Y. v. Fox, 492 U.S. 469,
480-81 (1989); Central Hudson Gas & Elec. Corp. v.
Pub. Serv. Comm’n of N.Y., 447 U.S. 557, 566 (1980)).
The Commonwealth maintains that H.B. 2 is
constitutional because states have the right to
regulate the practice of medicine. (D.N. 62-1, PageID
# 1820) It argues that H.B. 2 is subject to rational
basis review, which requires only that the statute
“bear some rational relation to a legitimate state
interest.” Craigmiles v. Giles, 312 F.3d 220, 223 (6th
Cir. 2002) (citing Romer v. Evans, 517 U.S. 620, 632
(1996)). But the Commonwealth adds that H.B. 2
could survive even intermediate scrutiny, as the law
merely requires physicians to disclose truthful, nonmisleading, and relevant information. (D.N. 62-1,
PageID # 1825, 1835)
The Court’s analysis will begin with a
discussion of relevant authority, including those
cases forming the circuit split over the
constitutionality of speech-and-display ultrasound
laws. Next, the Court will explain that the Fourth
94a

Circuit’s
intermediate-scrutiny
approach
is
appropriate because H.B. 2 compels ideological
speech. The Court will then apply intermediate
scrutiny to the facts of this case, ultimately finding
that H.B. 2 is unconstitutional.
A.
The First Amendment protects an individual’s
right to refrain from speaking just as much as it
protects the right to speak freely. Wooley v.
Maynard, 430 U.S. 705, 714 (1977) (citing Bd. of
Educ. v. Barnette, 319 U.S. 624, 633-34 (1943)
(Murphy, J., concurring)); see also Hurley v. IrishAm. Gay, Lesbian & Bisexual Grp. of Bos., 515
U.S. 557, 573 (1995) (“[A]ll speech inherently
involves choices of what to say and what to leave
unsaid.” (emphasis removed) (quoting Pac. Gas &
Elec. Co. v. Pub. Utils. Comm’n of Cal., 475 U.S. 1,
11 (1986) (plurality opinion))); Riley v. Nat’l Fed’n of
the Blind of N.C., Inc., 487 U.S. 781, 796–97 (1988)
(“[T]he First Amendment guarantees ‘freedom of speech,’
a term necessarily comprising the decision of both what
to say and what not to say.”). At issue here is compelled
speech, which “is particularly suspect because it can
directly affect listeners as well as speakers. Listeners
may have difficulty discerning that the message is the
state’s, not the speaker’s, especially where the ‘speaker
[is] intimately connected with the communication
advanced.’” Stuart, 774 F.3d at 246 (alteration in
original) (quoting Hurley, 515 U.S. at 576). Statutes
that compel speech are considered content-based
regulations of speech, as “[m]andating speech that a
speaker would not otherwise make necessarily alters the
content of speech.” Riley, 487 U.S. at 795. This is true
whether the compelled speech involves statements of
opinion or statements of fact. Id. at 797–98.

95a

Content-based regulations are generally
subject to strict scrutiny. Reed v. Town of Gilbert,
Ariz., 135 S. Ct. 2218, 2231 (2015). Such regulations
can only survive if the government proves that the
regulation “furthers a compelling interest and is
narrowly tailored to achieve that interest.” Id.
(quoting Ariz. Free Enter. Club’s Freedom Club PAC
v. Bennett, 564 U.S. 721, 734 (2011)). Because H.B. 2
mandates speech Plaintiffs would not otherwise make, its
requirements are “quintessential compelled speech.”
Stuart, 774 F.3d at 246. But courts reviewing speechand-display ultrasound laws like H.B. 2 have not applied
strict scrutiny. Nor have these courts reached a
consensus on which level of scrutiny applies. The Sixth
Circuit has not yet addressed the issue. Looking to
other circuits for persuasive authority, the Court finds
that the circuit courts of appeals are split. Thus, the
Court must first determine whether First Amendment
scrutiny is triggered here and, if so, which level of
scrutiny applies.

The
Fifth
Circuit
reviewed
the
constitutionality of Texas’s speech-and-display
ultrasound law in Lakey, holding that the law
was within the state’s right to regulate the
practice of medicine. See 667 F.3d at 580. The court
did not believe the law triggered First Amendment
scrutiny. Id. at 576. In reaching this conclusion, the
court relied heavily on the Eighth Circuit’s decision
in Planned Parenthood Minnesota, North Dakota,
South Dakota v. Rounds, 530 F.3d 724 (8th Cir.
2008) (en banc), which upheld a South Dakota
statute regulating informed consent to abortion.
Though not a speech-and-display ultrasound law,
the law at issue in Rounds required physicians to
provide abortion patients with certain information
prior to the procedure. Id. at 726-27. Planned
96a

Parenthood argued that the law compelled
ideological speech because it required specific
disclosures such as “[t]hat the abortion would
terminate the life of a whole, separate, unique,
living human being.” Id. at 726; see id. at 727.
Relying on Casey and Gonzales v. Carhart, 550
U.S. 124 (2007), the Eighth Circuit concluded that
“while the State cannot compel an individual
simply to speak the State’s ideological message, it
can use its regulatory authority to require a
physician to provide truthful, non-misleading
information relevant to a patient’s decision to have
an abortion, even if that information might also
encourage the patient to choose childbirth over
abortion.” Id. at 734–35.
The Fifth Circuit agreed with the Eighth
Circuit that both Casey and Gonzales acknowledge
the state’s significant role in regulating the medical
profession. Lakey, 667 F.3d at 575–76. In particular,
the Lakey court noted that Casey clearly did not
apply strict scrutiny to the First Amendment claims
in that case. Id. at 575 (“The three sentences with
which the Court disposed of the First Amendment
claims are, if anything, the antithesis of strict
scrutiny.”). Instead, the Fifth Circuit read Casey to
hold “that physicians’ rights not to speak are, when
‘part of the practice of medicine, subject to
reasonable licensing and regulation by the State.’”
Id. (quoting Casey, 505 U.S. at 884). The court
thus concluded that the speech-and-display
requirements did not trigger First Amendment
strict scrutiny as compelled, ideological speech. Id.
at 576.

97a

Not all courts interpret Casey this way.
Although its brief opinion provides little analysis of
Casey, the Supreme Court of Oklahoma found
Oklahoma’s speech-and-display law to be “facially
unconstitutional pursuant to Casey.” Pruitt, 292
P.3d at 28. More significantly, the Fourth Circuit
explicitly disagreed with the Fifth and Eighth
Circuits, stating that those courts “read too much
into Casey and Gonzales.” Stuart, 774 F.3d at 249.
The Fourth Circuit concluded that “[Casey] did not
hold sweepingly that all regulation of speech in the
medical context merely receives rational basis
review.” Id. Further, the court interpreted the
Gonzales decision to be limited to the state’s role
in regulating the informed-consent process because
Gonzales is silent on which level of scrutiny to apply
when reviewing a compelled-speech claim in the
abortion context. Id.
Recognizing that there are “many dimensions”
to professional speech, the Fourth Circuit concluded
that it was necessary to analyze the North Carolina
speech-and-display law for First
Amendment
purposes. Id. at 247 (quoting Fla. Bar v. Went For
It, Inc., 515 U.S. 618, 634 (1995)). Of course, the
court recognized that states have the power to
regulate the medical profession, including imposing
licensing requirements, requiring payment of dues to
professional organizations, setting standards of
conduct, and requiring certain disclosures for
informed consent. Id. at 247 (citing Keller v. State
Bar of Cal., 496 U.S. 1, 16 (1990); Dent v. West
Virginia, 129 U.S. 114, 122 (1889); King v. Governor
of N.J., 767 F.3d 216, 232 (3d Cir. 2014); Canterbury
v. Spence, 464 F.2d 772, 781 (D.C. Cir. 1972)).
However, the court explained, “[w]hen the First
98a

Amendment rights of a professional are at stake, the
stringency of review . . . slides ‘along a continuum’
from ‘public dialogue’ on one end to ‘regulation of
the professional conduct’ on the other.” Id. at 248
(quoting Pickup v. Brown, 740 F.3d 1208, 1227, 1229
(9th Cir. 2013)). Finding speech-and-display
requirements to fall in the middle of that sliding
scale, the court chose to apply intermediate scrutiny.
Id. The court concluded: “A heightened intermediate
level of scrutiny is . . . consistent with Supreme Court
precedent
and
appropriately recognizes
the
intersection here of regulation of speech and
regulation of the medical profession in the context
of an abortion procedure.” Id. at 249.
Applying intermediate scrutiny, the Fourth
Circuit held that North Carolina’s speech-anddisplay law was unconstitutional. Id. at 250. The
state’s interests in protecting fetal life and
protecting the pregnant woman’s welfare and
informed
decision-making
were
obviously
important. Id. at 250-51. But the requirements of
North Carolina’s speech-and-display law were “farreaching—almost unprecedentedly so—in a number
of respects and far outstrip[ped] the provision at
issue in Casey.” Id. at 250. The law interfered with
physicians’ First Amendment rights “beyond the
extent permitted for reasonable regulation of the
medical
profession,
while
simultaneously
threatening harm to the patient’s psychological
health, interfering with the physician’s professional
judgment, and compromising the doctor-patient
relationship.” Id.
Recently, the Eleventh Circuit sitting en banc
expressed approval of the Fourth Circuit’s
interpretation of Casey when it decided that certain
99a

provisions of Florida’s Firearms Owners’ Privacy
Act (FOPA) violated the First Amendment rights
of doctors. See Wollschlaeger v. Governor, Fla., 848
F.3d 1293 (11th Cir. 2017) (en banc). The four FOPA
provisions at issue in Wollschlaeger were contentbased regulations of speech that restricted speech by
physicians and other medical professionals on the
subject of firearm ownership. Id. at 1300.
Physicians routinely ask their patients about
potential health and safety risks, and many
leading medical associations believe that unsecured
firearms increase the risk of injury, especially for
minors and those suffering from depression or
dementia. Id. at 1301. The Florida Legislature
enacted FOPA after learning of six incidents
where patients complained that physicians asked
them questions regarding firearm ownership. Id. at
1302.
The “record-keeping” provision of FOPA
states that a physician may not enter any
information concerning firearm ownership into a
patient’s medical record if such information is not
relevant to the patient’s medical care, the patient’s
safety, or the safety of others. Id. (citing Fla. Stat. §
790.338(1)). The “inquiry” provision states that a
physician should refrain from making a written
inquiry or asking questions concerning firearm
ownership unless he or she believes in good faith
that such information is relevant to the patient’s
medical care, the patient’s safety, or the safety of
others. Id. at 1302-03 (citing Fla. Stat. §
790.338(2)). The “anti- discrimination” provision
states that a physician may not discriminate
against a patient based
solely on firearm
ownership or possession. Id. at 1303 (citing Fla.
100a

Stat. § 790.338(5)). The “anti-harassment” provision
states that a physician “should refrain from
unnecessarily harassing a patient about firearm
ownership during an examination.” Id. (quoting Fla.
Stat. § 790.338(6)). FOPA violations are punishable
by fines and discipline by the Florida Board of
Medicine. Id.
According to the Eleventh Circuit, the recordkeeping, inquiry, and anti-harassment provisions of
FOPA “constitute speaker-focused and content-based
restrictions on speech.” Id. at 1307. The recordkeeping and inquiry provisions “expressly limit the
ability of certain speakers—doctors and medical
professionals—to write and speak about a certain
topic—the ownership of firearms—and thereby
restrict their ability to communicate and/or convey a
message.” Id. The anti-harassment provision is also
a speaker-focused and content-based restriction. Id.
The Eleventh Circuit believed that it referred to
“questions or advice to patients concerning the
subject of firearm ownership.”
Id.
The court
recognized that content-based restrictions normally
trigger strict scrutiny. Id. at 1308 (citations
omitted). However, because it found that the FOPA
provisions failed under intermediate scrutiny, the
court did not determine whether strict scrutiny
applied. Id.
Florida argued that the First Amendment
was not implicated because “any effect on speech
[was] merely incidental to the regulation of
professional conduct.” Id. But the state’s argument
relied on Justice White’s framework for evaluating
professional speech, which was espoused in a
concurrence. Id. (citing Lowe v. S.E.C., 472 U.S.
181, 232 (1985) (White, J., concurring). Justice
101a

White concluded that the speech of an individual
“‘engaging in the practice of a profession’ . . . is
‘incidental to the conduct of the profession,’ such
that [the individual’s] First Amendment interests
are diminished.” Id. (quoting Lowe, 472 U.S. at
232 (White, J., concurring)). In a later dissent,
Justice White advocated for rational basis review of
professional speech. Id. (citing Thornburgh v. Am.
Coll. of Obstetricians & Gynecologists, 476 U.S. 747,
802 (1986) (White, J., dissenting)). However, “[t]he
Supreme Court has never adopted or applied
Justice White’s rational basis standard to
regulations which limit the speech of professionals
to clients based on content.” Id. at 1310 (citations
omitted). Instead, on at least two other occasions,
the Supreme Court has applied heightened scrutiny
to regulations that restricted the speech of
professionals. Id. (citing Legal Servs. Corp. v.
Velazquez, 531 U.S. 533, 542–48 (2001); N.A.A.C.P.
v. Button, 371 U.S. 415, 438–44 (1963)).
In Velazquez, the Supreme Court applied
heightened scrutiny to a federal law that prohibited
attorneys employed by entities that receive funds
from the Legal Services Corporation
from
challenging existing welfare laws and from advising
their clients about such challenges. See 531 U.S. at
536–37, 542-48. The Supreme Court concluded that
the law violated the First Amendment because it
limited constitutionally protected expression and
altered the traditional role of the attorneys. Id. at
544–48. Button concerned a Virginia law that
prohibited organizations like the N.A.A.C.P. from
finding or retaining lawyers for individual litigants
and paying those lawyers a per diem fee for their
services. 371 U.S. at 423. The Supreme Court
102a

concluded that this law violated the First
Amendment because the state failed to advance
any substantial regulatory interest justifying the
prohibition. Id. at 444. In Wollschlaeger, the
Eleventh Circuit reasoned that because the Supreme
Court
cited and discussed Button with
approval recently in Reed, 135 S. Ct. at
2229, the
state officials cannot
successfully rely on a single paragraph
in the plurality opinion of three
Justices in Planned Parenthood of
Southeastern Pennsylvania v. Casey . . .
to support the use of rational basis
review here. In any event, as Judge
Wilkinson correctly explained for the
Fourth Circuit, the Casey “plurality did
not hold sweepingly that all regulation
of speech in the medical context merely
receives rational basis review.”
848 F.3d at 1310–11 (quoting Stuart, 774 F.3d at
249).
The Eleventh Circuit not only expressly
agreed with the Fourth Circuit’s view that Casey
fails to set a broad standard, but it also showed
why Justice White’s rational basis standard is
unpersuasive. See id. Plaintiffs urge the Court to
follow the Fourth Circuit and the Eleventh Circuit.
They contend that the above excerpt from
Wollschlaeger indicates that the Eleventh Circuit
rejected the very same arguments made by the
Commonwealth here. (D.N. 37, PageID # 536-37)
Indeed, the Commonwealth argues that Casey and
Justice White’s concurrence in Lowe require the
103a

Court to apply rational basis review.5 (D.N. 62-1,
PageID # 1835) It further contends that
Wollschlaeger fails to support Plaintiffs’ case
because the statute at issue in Wollschlaeger
prohibited speech rather than compelling it. (D.N.
38, PageID # 540; D.N. 67, PageID # 1901)
However, the Commonwealth addresses neither the
Eleventh Circuit’s approval of the Fourth Circuit’s
The Commonwealth also relies on Zauderer v. Office of
Disciplinary Counsel of Supreme Court of Ohio, 471 U.S. 626
(1985), in support of this argument. This reliance appears
misplaced. Zauderer concerned certain restrictions on attorney
advertisements. See id. at 629. The Supreme Court held that
“an advertiser’s rights are adequately protected as long as
disclosure requirements are reasonably related to the State’s
interest in preventing deception of consumers.” Id. at 651. In
so holding, the Supreme Court permitted regulations that
required “purely factual and uncontroversial information” to be
disclosed in advertisements. Id.
5

The Commonwealth argues that Zauderer requires
application of rational basis review “to disclosures that
professionals are required to give to clients.” (D.N. 62-1,
PageID # 1831) But the fact that attorneys and physicians are
both regulated professionals does not make Zauderer applicable
here. Zauderer is confined to commercial speech in the
advertising context. Nat’l Ass’n of Mfrs. v. S.E.C., 800 F.3d
518, 522 (D.C. Cir. 2015) (“[T]he Supreme Court’s opinion in
Zauderer is confined to advertising, emphatically, and, one may
infer, intentionally.”); see also Disc. Tobacco City & Lottery,
Inc. v. United States, 674 F.3d 509, 524 (6th Cir. 2012)
(stating that Zauderer applies in the context of “misleading or
potentially misleading commercial speech”). Contrary to the
Commonwealth’s assertion, the speech at issue here does not
propose a commercial transaction and thus is not commercial
speech. See Va. State Bd. of Pharmacy v. Va. Citizens
Consumer Council, Inc., 425 U.S. 748, 762 (1976) (holding that
commercial speech, which does no more than propose a
commercial
transaction,
is
protected
by
the
First
Amendment). Thus, Zauderer is unpersuasive in this context.

104a

decision in Stuart nor its assessment of Justice
White’s concurrence.
B.
At the heart of the circuit split outlined above
is the question of whether Casey requires rational
basis review of all speech restrictions in the
physician-patient context. The Court finds the
decisions of the Fourth and Eleventh Circuits more
persuasive and agrees that Casey did not set a
broad standard. The Fourth Circuit recognized the
differences between the required disclosures in
Casey and the required disclosures of speech-anddisplay ultrasound laws like H.B. 2. In the context
of abortion, laws like H.B. 2 are designed to convey
the state’s ideological, anti-abortion message. Such
laws go well beyond the basic disclosures necessary
for informed consent to a medical procedure. That
the disclosures mandated by H.B. 2 may be
truthful, non-misleading, and relevant to a woman’s
decision to have an abortion is not dispositive. See
Stuart, 774 F.3d at 246. “Although the State may at
times prescribe what shall be orthodox in
commercial
advertising
by
requiring
the
dissemination
of
purely
factual
and
uncontroversial information, outside that context it
may not compel affirmance of a belief with which
the speaker disagrees.” Hurley, 515 U.S. at 573
(internal citations and quotations omitted). “[T]he
speaker has the right to tailor the speech,” and
this “applies not only to expressions of value,
opinion, or endorsement, but equally to statements
of fact the speaker would rather avoid.” Id. (citing
McIntyre v. Ohio Elections Comm’n, 514 U.S. 334,
341-42 (1995); Riley, 487 U.S. at 797–98).
105a

It is misguided to assert, as does the
Commonwealth, that the requirements of H.B. 2 “are
no different in essence” than the requirements
upheld by Eubanks or Casey. (D.N. 62-1, PageID #
1819) The requirements at issue in Eubanks were
nearly indistinguishable from those of Casey,
which was Judge Heyburn’s primary reason for
upholding them. See Eubanks, 126 F. Supp. 2d at
459 (“Irrespective of the Supreme Court’s limited
discussion [of the First Amendment in Casey], one
must recognize an overriding imperative: If
Kentucky’s
pamphlets
and
the
resulting
infringement on speech are legally indistinguishable
from those presented in Casey, then Casey
controls.”). Although Judge Heyburn considered the
disclosures in Casey and Eubanks to be “compelled
speech,” he carefully distinguished them from
compelled ideological speech. See id. at 458-59.
This distinction is what warrants greater
protection of the First Amendment rights of
Plaintiffs here. Speech-and-display laws like H.B. 2
compel ideological speech. See Stuart, 774 F.3d at
242, 246. Casey contained no discussion of
ideological speech. In Eubanks, Judge Heyburn
noted that if the compelled speech in Casey had
been ideological, Justice O’Connor would have said
so. Eubanks, 126 F. Supp. 2d at 458. This is
because, prior to the Casey plurality, Justice
O’Connor dissented in City of Akron v. Akron Center
for Reproductive Health, noting that informedconsent provisions may “violate the First
Amendment rights of the physician if the State
requires him or her to communicate its ideology.”
462 U.S. 416, 472 n.16 (1983) (O’Connor, J.,
dissenting) (citing Wooley, 430 U.S. 705), overruled
106a

by Casey, 505 U.S. at 882; see also Eubanks, 126 F.
Supp. 2d at 458 n.11. The Court thus views this
Opinion as consistent with and, at minimum, not in
conflict with Judge Heyburn’s holding in Eubanks.
The declaration of Kentucky State Senator
Robert Stivers denies that H.B. 2 is intended to
convey an ideological message. (D.N. 32-7, PageID #
420) But the Commonwealth argues that the state
has an interest in reducing abortions and a right to
enact legislation to that effect. (D.N. 21, PageID #
230; D.N. 55, PageID # 671–72; D.N. 62-1, PageID
# 1836)
H.B. 2 is intended to advance that
interest. And as the Fourth Circuit stated, “[c]ontext
matters.” Stuart, 774 F.3d at 246 (quoting Greater
Balt. Ctr. for Pregnancy Concerns, Inc. v. Mayor of
Balt., 721 F.3d 264, 286 (4th Cir. 2013) (en banc)).
This is especially true when evaluating compelled
speech. See id. at 247; see also Riley, 487 U.S. at 796.
(“Our lodestars in deciding what level of scrutiny to
apply to a compelled statement must be the nature of
the speech taken as a whole and the effect of the
compelled statement thereon.”). H.B. 2 is intended
to dissuade women from choosing abortion by
forcing ultrasound images, detailed descriptions of
the fetus, and the sounds of the fetal heartbeat on
them, against their will, at a time when they are
most vulnerable. Cf. Stuart, 774 F.3d at 245 (“The
clear import of displaying the sonogram in this
context—while the woman who has requested an
abortion is partially disrobed on an examination
table—is to use the visual imagery of the fetus to
dissuade the patient from continuing with the
planned procedure.”).
Of the requirements at issue in Eubanks,
Judge Heyburn stated that “[t]hough the legislature
107a

passed this Statute to further its preference for birth
over abortion[,] the pamphlets do not overtly
trumpet that preference. They provide information
from which a woman might naturally select the
choice favored by the legislature.” Eubanks, 126 F.
Supp. 2d at 458 n.11. By contrast, H.B. 2 is designed
to persuade a woman to choose the option favored by
the legislature by imposing certain information,
imagery, and sounds upon her in a vulnerable state
and time. H.B. 2 thus “overtly trumpet[s]” the antiabortion preference of the legislature and is
ideological in nature. Id.; see also Stuart, 774 F.3d
at 242, 246, 255.
“[W]here the State’s interest is to disseminate
an ideology, no matter how acceptable to some,
such interest cannot outweigh an individual’s First
Amendment right to avoid becoming the courier
for such message.” Wooley, 430 U.S. at 717. Both
Stuart and Wollschlaeger concluded that, despite
the state’s power to regulate certain professions,
members of those professions are still entitled to
speech protection. Simply “[b]eing a member of a
regulated profession does not . . . result in a
surrender of First Amendment rights.” Conant v.
Walters, 309 F.3d 629, 637 (9th Cir. 2002) (citing
Thomas v. Collins, 323 U.S. 516, 531 (1945)).
Even Eubanks recognized that “[t]he Supreme Court
has consistently invalidated schemes which compel
ideological speech.” Eubanks, 126 F. Supp. 2d at 458
(emphasis added) (citing Keller, 496 U.S. at 14;
Abood v. Detroit Bd. of Educ., 431 U.S. 209, 235
(1977)). The conclusion reached here is thus
consistent with Eubanks.
In sum, the Court finds the Fourth Circuit’s
application of intermediate scrutiny and its
108a

rationale in Stuart to be persuasive, particularly
because of the key differences between H.B. 2 and
the informed-consent laws at issue in Casey and
Eubanks. The Eleventh Circuit’s recent approval of
the Fourth Circuit’s decision underscores the
soundness of Stuart’s rationale. Therefore, the
Court concludes that application of at least
intermediate scrutiny is necessary here, as
rational basis review would fail to acknowledge
the severity of the burden H.B. 2 imposes upon
the First Amendment rights of physicians.
C.
Having adopted the Fourth Circuit’s approach,
the Court will apply intermediate scrutiny. As the
North Carolina law reviewed by the Fourth Circuit
is nearly identical to Kentucky’s law, the result is
the same—H.B. 2 is unconstitutional. But before
the Court conducts its constitutional analysis of
H.B. 2, a statement of the relevant facts is necessary.
1.
At the March 23, 2017 evidentiary hearing,
the Court heard testimony from Dr. Tanya
Franklin (one of the plaintiffs) as well as Plaintiffs’
expert witnesses, Dr. Steven Joffe and Dr. Mark
Nichols.
Dr. Franklin is a board-certified
obstetrician/gynecologist and provides a variety of
healthcare services in addition to abortion. (D.N.
55, PageID # 682-83) Dr. Joffe is an associate
professor of medical ethics and health policy and an
associate professor of pediatrics at the University of
Pennsylvania Perelman School of Medicine. (Id.,
PageID # 734) He practices medicine in the field of
pediatric hematology/oncology, but the bulk of his
work, including research, teaching, and consulting,
109a

concerns medical ethics. (Id.) Dr. Nichols is a
board- certified obstetrician/gynecologist and a
professor at the Oregon Health and Science
University. (Id., PageID # 800) Dr. Nichols
practices medicine at OHSU and Planned
Parenthood. (Id., PageID # 800, 802) For twenty
years, he served as the medical director of Planned
Parenthood in Portland, Oregon, where he wrote
protocols on patient care. (Id., PageID # 802)
The Commonwealth called no witnesses at the
hearing, but it submitted declarations from two
board-certified obstetrician/gynecologists, Dr. John
Seeds and Dr. W. David Hager, in opposition to
Plaintiffs’ motion for temporary restraining order.
(D.N. 32-1; D.N. 32-2) These declarations do little to
refute the testimony proffered at the hearing.
Dr. Hager practices in Lexington, Kentucky.
(D.N. 32-2, PageID # 399) He
has counseled
patients who were considering abortion, but he does
not state that he has any experience performing
elective abortions. (Id., PageID # 402) He explains
that in his practice,
he shows patients
“photographs, pamphlets and videos of the proposed
gynecologic procedures and the organs that will be
involved.” (Id., PageID # 401) For pregnancy, he
states that “an ultrasound is a necessary means of
visualizing the infant in order to make an accurate
diagnosis and to plan appropriate management in
pregnancy.” (Id.) He describes these steps as the
“proper standard of care.” (Id.) Notably, the
requirements of H.B. 2—auscultating the fetal
heartbeat and displaying and describing the
ultrasound images against an abortion patient’s
wishes—are not included in his description of the
“proper standard of care.” Nevertheless, Dr. Hager
110a

opines that the requirements of H.B. 2 are necessary
to fully inform patients. (Id., PageID # 405)
This opinion, however, appears to stem from
a fundamental misunderstanding of Plaintiffs’
practice. Dr. Hager states, “I understand the
Plaintiff physicians to say that, absent HB 2, they
would not show an ultrasound to women patients,
not tell them what is depicted on the ultrasound,
and not make available the unborn child’s heartbeat
for the expectant mother to hear, should she desire
to do so.” (Id., PageID # 404-05) This is an
inaccurate summary of Plaintiffs’ practice. Plaintiffs
offer such information to a patient and will provide
the information if the patient wants it. (D.N. 55,
PageID # 694, 703–04) But absent H.B. 2, Plaintiffs
would not force that information on a patient.
Similar to Dr. Hager, Dr. Seeds opines that
H.B. 2 conforms to existing national standards of
care. (D.N. 32-1, PageID # 366) But many of his
assertions are undermined by the testimony given
at the hearing. Critically, Dr. Seeds’s opinion never
addresses the standard of care for abortion set by
the National Abortion Federation (NAF), which is
the standard of care followed by the EMW clinic.
(D.N. 55, PageID # 704–05, 813) Nor does Dr.
Seeds clearly indicate whether he has ever
performed elective abortions. (See D.N. 32-1,
PageID # 352) Further, his opinion is premised
on the assumption that viewing the ultrasound
image and listening to the ultrasound description
and fetal heartbeat are voluntary for the patient.
(Id., PageID # 349) Dr. Franklin’s testimony
revealed that it is impossible for a patient to
entirely ignore the information being forced upon
her. (See D.N. 55, PageID # 699–700, 722)
111a

Additionally, Dr. Seeds states that the mandated
disclosures strengthen, rather than impair, the
physician-patient relationship. (D.N. 32-1, PageID #
363) However, as mentioned, Dr. Seeds does not
perform elective abortions (id., PageID # 352, 363),
and Dr. Franklin’s hearing testimony—which is
based on firsthand observation of the effects of H.B.
2—directly refutes this assertion. (D.N. 55, PageID
# 706–07)
Ultimately, any discrepancy between the
hearing testimony and the doctors’ declarations is
immaterial. The following unrebutted facts were
established at the hearing.
Patient autonomy—the patient’s ability to
make informed decisions about her own medical
care—is at the heart of the informed-consent process.
(Id., PageID # 743–44, 808, 829) The informedconsent process consists of five core elements or
types of information that the physician will
disclose to the patient: the nature of the procedure,
the purpose of the procedure, the potential risks of
the procedure, the potential benefits of the
procedure, and the major alternatives to the
procedure. (Id., PageID # 688–89, 744–45, 807–09;
see also D.N. 32-1, PageID # 344–46) The
information mandated by H.B. 2 falls outside of
these core elements. (See D.N. 55, PageID # 744–45)
Offering the mandated information is acceptable and
consistent with principles of patient autonomy, as it
respects the patient’s ability to decide whether or
not she wants more information beyond the five core
elements listed above. (Id., PageID # 744–45) The
American Medical Association has stressed the
importance of patient autonomy in the informedconsent process, stating that physicians must
112a

“[p]resent relevant information accurately and
sensitively, in keeping with the patient’s preference
for receiving medical information.” (Id., PageID #
748)
EMW clinic is accredited by NAF and follows
its standard of care. (Id., PageID # 683) H.B. 2 is
inconsistent with that standard. (See id., PageID #
704–05, 813) Guidelines written by the American
Congress of Obstetricians and Gynecologists (ACOG)
also inform the practice of medicine in this field and
the informed-consent process. (See id., PageID # 75556, 758-59; see also D.N. 32-1, PageID # 352–53)
But Dr. Franklin and Dr. Nichols were unaware of
any ACOG guidance that recommends or requires a
physician to simultaneously display and describe an
ultrasound or auscultate the fetal heartbeat prior
to performing an abortion. (See D.N. 55, PageID #
708, 813, 817, 819–20) The witnesses were similarly
unaware of any medical procedure for which it is
required that a patient view diagnostic images in
order to give informed consent. (Id., PageID # 707,
746, 810)
The NAF standard of care requires
physicians to perform an ultrasound to date the
pregnancy, look for any abnormalities, and
determine if a fetal demise has occurred. (Id.,
PageID # 693-94, 705) ACOG guidelines also require
that an obstetric ultrasound be performed, for the
same reasons. (See D.N. 32-1, PageID # 355) But it
is not the standard of care to force the patient to
view the ultrasound or listen to a detailed
description of the internal and external organs of
the fetus, as well as the fetal heartbeat. (See D.N.
55, PageID # 705, 708, 813, 817, 819–20) Despite
this, physicians at EMW clinic have been complying
113a

with H.B. 2. (Id., PageID # 726) Notably,
testimony at the hearing established that
requirements of H.B. 2 had not dissuaded
women from undergoing an abortion. (See
PageID # 726-27, 728-29)

the
the
any
id.,

The testimony further revealed that H.B. 2
causes patients distress. Most patients choose to
look away from the ultrasound image. (Id., PageID #
699) But although they may attempt to avoid
listening to the fetal heartbeat and ultrasound
description, it is impossible for patients to entirely
drown out the sounds. (Id., PageID # 699–700, 722)
During the process mandated by H.B. 2, patients are
“very upset,” “crying,” and even “sobbing.” (Id.,
PageID # 699) For victims of sexual assault, the
requirements of H.B. 2 “can be extremely upsetting.”
(Id., PageID # 698) Similarly, for patients diagnosed
with a fetal anomaly, who have already had several
ultrasounds
performed
and
heard
detailed
descriptions of the fetus, the requirements of H.B.
2 “can be extremely difficult” and “emotional.” (Id.,
PageID # 700-01; D.N. 41, PageID # 601–03)
2.
Having established the relevant facts, the
Court will now apply intermediate scrutiny.
Intermediate scrutiny requires the state to prove
that “the statute directly advances a substantial
governmental interest and that the measure is
drawn to achieve that interest.” Stuart, 774 F.3d at
250 (quoting Sorrell, 564 U.S. at 572). When a state
defends a regulation on speech as a means to
prevent harm, “[i]t must demonstrate that the
recited harms are real, not merely conjectural, and
that the regulation will in fact alleviate these
114a

harms in a direct and material way.” Turner
Broad. Sys., Inc. v. F.C.C., 512 U.S. 622, 664 (1994)
(citations omitted). Because H.B. 2 does not
advance a substantial governmental interest, is
not drawn to achieve the government’s interests,
and prevents no actual harm, it fails under
intermediate scrutiny and is unconstitutional.6
The Commonwealth asserts that H.B. 2
advances a number of substantial governmental
interests, including the practice of medicine, the
well-being and informed decision-making of
pregnant women, and the protection of fetal life
and discouragement of abortion. (D.N. 62-1,
PageID # 1820-21, 1823, 1836; D.N. 32-7, PageID #
421) The Court finds, as have other courts, that
these are substantial governmental interests. See
Gonzales, 550 U.S. at 158 (recognizing a state
interest in fetal life); Washington v. Glucksberg, 521
U.S. 702, 731 (1997) (recognizing a state interest in
maintaining “the integrity and ethics of the
medical profession”); Casey, 505 U.S. at 871, 882
(recognizing state interests in fetal life, the
psychological well-being of pregnant women, and
informed decision-making); Stuart, 774 F.3d at 250
(same). But H.B. 2 still must directly advance the
The Commonwealth argues that if the Court finds H.B. 2 to
be unconstitutional, the decision will render unconstitutional
numerous other statutes that compel physicians to make
certain disclosures. (D.N. 62-1, PageID # 1822–24) This
argument is unpersuasive. Only H.B. 2 is under review by
the Court at this time, and the Court will make no
determination as to the constitutionality of the statutes
cited by the Commonwealth. But the Court notes that those
statutes require disclosures different in nature than those
required by H.B. 2, and it is entirely possible that they do not
infringe on physicians’ First Amendment rights as does H.B. 2.
6

115a

Commonwealth’s interests and be drawn to achieve
those interests. Sorrell, 564 U.S. at 572.
The facts here show that H.B. 2 does not
advance the Commonwealth’s interests and, in fact,
acts to the detriment of those interests. As an initial
matter, it is impossible to say that H.B. 2 is
intended to better inform women considering an
abortion when it also permits women to cover their
eyes and ears in order to avoid receiving the
information the Commonwealth intends for them to
receive. Thus, even the plain language of H.B. 2
fails to advance the substantial governmental
interests of the Commonwealth.
H.B.
2
also
fails
to
serve
the
Commonwealth’s interests because it appears to
inflict psychological harm on abortion patients. (See
D.N. 55, PageID # 699–701) See Stuart, 774 F.3d at
253 (“[F]ar from promoting the psychological health
of women, this requirement risks the infliction of
psychological harm on the woman who chooses not
to receive this information.”). The unrebutted facts
adduced at the hearing show that women experience
distress as a result of H.B. 2. (D.N. 55, PageID #
699–701; D.N. 41, PageID # 601–03) Requiring
physicians to force upon their patients the
information mandated by H.B. 2 has more potential
to harm the psychological well-being of the patient
than to further the legitimate interests of the
Commonwealth. See Stuart, 774 F.3d at 253.
Nor can the Commonwealth demonstrate that
H.B. 2 alleviates a “real, not merely conjectural”
harm.
Turner, 512 U.S. at 664.
When the
Kentucky General Assembly enacted § 311.725, its
express purpose was to ensure that women made
116a

informed decisions when considering abortion. See
Ky. Rev. Stat. § 311.710(4).
Here, the
Commonwealth argues that H.B. 2 is intended to
ensure that abortion patients “possess[] sufficient
information” to make their decisions. (D.N. 62-1,
PageID # 1838) But there is no evidence that the
existing law fell short of its goal, thereby creating a
“real” harm to be remedied by H.B. 2. Turner, 512
U.S. at 664. When asked at the hearing whether
the
existing
law
was
inadequate,
the
Commonwealth could not articulate specifically how
or why § 311.725 fell short. (D.N. 55, PageID # 676–
78) In its post-hearing brief, the Commonwealth
asserted that it need not prove that the existing
informed-consent law was inadequate. (D.N. 62-1,
PageID # 1828 n.2) But this assertion ignores the
burden placed on the Commonwealth under
intermediate scrutiny. See Turner, 512 U.S. at 664.
The
Commonwealth
submitted
several
affidavits from women who chose to have an
abortion but later came to regret their decision after
realizing that they may not have been fully
informed about the procedure. (D.N. 32-3; D.N. 32-4;
D.N. 32-5; D.N. 32-6) While compelling, the
affidavits are irrelevant; all of the affiants had
abortions prior to the passage of the informedconsent laws preceding H.B. 2. (D.N. 55, PageID #
856-57) Thus, the record contains no evidence that
Kentucky’s existing informed-consent laws were in
any way inadequate or left unresolved some “real,
not merely conjectural” harm. Turner, 512 U.S. at
664.
Further, the Commonwealth’s suggestion that
H.B. 2 ensures that women are no longer “den[ied]”
certain information is misleading. (D.N. 62-1, PageID
117a

# 1825 (citing Lakey, 667 F.3d at 579)) The evidence
shows that it is not only the practice at EMW, but
also the nationwide standard, to offer women the
opportunity to see an ultrasound, hear a description
of that ultrasound, and hear the fetal heartbeat.
(D.N. 55, PageID # 694, 705, 813) There is no
evidence that physicians in Kentucky were denying
women this information prior to the enactment of
H.B. 2.
To the contrary, Dr. Franklin’s testimony
shows that prior to H.B. 2, EMW patients made
informed decisions about abortion and that the
informed-consent process followed by EMW
physicians ensured this. While Dr. Franklin’s
testimony also shows that EMW physicians
complied with the existing informed-consent laws
and have been complying with H.B. 2, there is no
evidence that H.B. 2 has dissuaded women from
choosing to have an abortion. (See id., PageID #
690–94, 698–702, 726-27) Indeed, Dr. Franklin
testified that in the nearly three months since
H.B. 2 took effect, not a single EMW patient decided
against an abortion as a result of viewing an
ultrasound image or hearing an ultrasound
description and the fetal heartbeat. (Id., PageID #
722, 725–27, 729) Moreover, the evidence shows that
H.B. 2 inflicts harm on patients and physicians. The
Commonwealth has thus failed to meet its burden
under intermediate scrutiny, and H.B. 2 is therefore
unconstitutional.
D.
The Court will now address the motions for
summary judgment filed by Defendant Attorney
General Andrew G. Beshear and Defendant Michael
118a

S. Rodman. Beshear and Rodman argue that they
are not proper defendants to this action. Having
concluded that Beshear and Rodman are proper
defendants, the Court will deny both motions.
Defendant Beshear argues that he is not a
proper party because he has no authority to
enforce H.B. 2. (D.N. 58-1, PageID # 872) This is
the same argument submitted in Beshear’s motion
to dismiss. (D.N. 13) In the event that he is a
proper party, Beshear submits a substantive defense
of H.B. 2, arguing that it is constitutional on its face.
(D.N. 58-1, PageID # 872) Because the Court has
already
determined
that
H.B.
2
is
unconstitutional, the latter argument fails.
Nor is the Court convinced that Beshear
lacks the necessary authority. The attorney
general is the “chief law officer of the
Commonwealth” and has a statutory responsibility to
exercise all common law duties and
authority pertaining to the office of
the Attorney General under the
common law, except when modified by
statutory enactment. . . . [H]e shall . . .
commence all actions or enter his
appearance in all cases, hearings, and
proceedings in and before . . . courts,
tribunals, or commissions in or out of
the state, and attend to all litigation
and legal business in or out of the
state . . . in which the Commonwealth
has an interest, and any litigation or
legal business that any state officer,
department, commission, or agency
may have in connection with, or
119a

growing out of, his or its official duties,
except where it is made the duty of
the
Commonwealth’s attorney or
county attorney to represent the
Commonwealth.
Ky. Rev. Stat. § 15.020. “It is unquestioned that ‘[a]t
common law, [the Attorney General] had the power
to institute, conduct[,] and maintain suits and
proceedings for the enforcement of the laws of the
state, the preservation of order, and the protection of
public rights.’” Commonwealth ex rel. Conway v.
Thompson, 300 S.W.3d 152, 173 (Ky. 2009)
(emphasis added) (alterations in original) (quoting
Commonwealth ex rel. Hancock v. Paxton, 516
S.W.2d 865, 867 (Ky. 1974)). “Indeed, the Attorney
General has not only the power to bring suit when he
believes the public’s legal or constitutional interests
are under threat, but appears to have even the
duty to do so.” Commonwealth ex rel. Beshear v.
Bevin, 498 S.W.3d 355, 362 (Ky. 2016) (citing
Commonwealth ex rel. Cowan v. Wilkinson, 828
S.W.2d 610, 618 (Ky. 1992) (Leibson, J.,
dissenting)). “And, notably, this ‘broad grant of
authority . . . includes the power to act to enforce
the state’s statutes.’” (omission in original) (emphasis
added) (quoting Thompson, 300 S.W.3d at 173); see
also Johnson v. Commonwealth ex rel. Meredith, 165
S.W.2d 820, 826 (Ky. 1942) (“It is generally
recognized that unless denied by statute the attorney
general of any state is clothed with . . . the powers . .
. . to represent his state as its chief lawyer and to
advise and speak for its several departments and
officers in legal matters.”).
From the above, it is fair to conclude that the
Kentucky attorney general is empowered to enforce
120a

state law, unless that power is explicitly delegated
by statute to another authority. The General
Assembly has not expressly made it the duty of
any other official to represent the Commonwealth
in actions to enforce penalties under H.B. 2.
Beshear cites no authority that
expressly
designates another official. Therefore, the Court can
only infer that the official with the authority to
enforce H.B. 2 is the attorney general. Beshear thus
appears to be a proper party here.
Defendant Rodman, the executive director of
the Kentucky Board of Medical Licensure, also
argues that he is an improper party because he has
no enforcement authority under H.B. 2 and no
authority to take disciplinary action against a
medical licensee. (D.N. 59-1, PageID # 884)
Additionally, Rodman argues that Plaintiffs’ injuries
are purely hypothetical. (Id.)
H.B. 2 requires courts to report violations of
the law to the Kentucky Board of Medical Licensure
for
disciplinary
action.
Plaintiffs
describe
Rodman’s position on the Board as a “gatekeeper”
to the disciplinary process. (D.N. 66, PageID # 1890)
When the Board receives a grievance, the executive
director assigns that grievance to an inquiry panel
composed of Board members. Ky. Rev. Stat. §
311.591(2). If the panel determines that there has
been a violation, the panel issues a complaint. §
311.591(3)(d). The executive director then assigns
the matter for a hearing. § 311.591(5). This role is
sufficient to name the executive director as a
defendant, as he may be enjoined from initiating
any inquiries or disciplinary hearings related to
violations of H.B. 2.
121a

Further, while it is true that Article III
standing requires an injury, causation, and
redressability, pre-enforcement review is permitted
in some circumstances. See Doe v. Bolton, 410 U.S.
179, 188 (1973); Airline Prof’ls Ass’n of Int’l Bhd.
of Teamsters, Local Union No. 1224, AFL-CIO v.
Airborne Inc., 332 F.3d 983, 988 (6th Cir. 2003).
Potential adverse licensing actions, like those that
could result from violating H.B. 2, are serious
enough on their own to create a constitutional
injury-in-fact
to
satisfy
the
justiciability
requirements. See Kiser v. Reitz, 765 F.3d 601, 60810 (6th Cir. 2014). Notably, in Eubanks, Judge
Heyburn concluded that the plaintiff physicians
could seek pre-enforcement review of the informedconsent law because “they may face disciplinary
proceedings under the Statute.” Eubanks, 126 F.
Supp. 2d at 453 (emphasis added) (citing Bolton,
410 U.S. at 188). The same is true here. The
executive director of the Kentucky Board of Medical
Licensure at the time, C. William Schmidt, was
named as a defendant in Eubanks. Here, Rodman is
a proper defendant.
IV.

CONCLUSION

The Court concludes that H.B. 2 violates the
First Amendment.
Accordingly, and the Court
being otherwise sufficiently advised, it is hereby
ORDERED as follows:
(1) Plaintiffs’ motion for summary judgment
(D.N. 60) is GRANTED. A permanent
injunction and judgment will be entered
this date.

122a

(2) Defendant Glisson’s motion for summary
judgment (D.N. 62) is DENIED.
(3) Defendant Beshear’s and Defendant
Rodman’s motions for summary judgment
(D.N. 58; D.N. 59) are DENIED.
(4) Defendant Beshear’s and Defendant
Rodman’s motions to dismiss (D.N. 13; D.N.
14) are DENIED as moot.
(5) Plaintiffs’ motion for temporary restraining
order (D.N. 3) is DENIED as moot.
(6) The third-party motion for leave to file
a brief as amici curiae (D.N. 18) is
GRANTED.
September 27, 2017

David J. Hale, Judge
United States District Court

123a

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-6151/6183
EMW WOMEN’S SURGICAL
CENTER, P.S.C., on behalf of itself,
its staff, and its patients; ERNEST
MARSHALL, M.D., on behalf of
himself and his patients; ASHLEY
BERGIN, M.D., on behalf of herself
and her patients; TANYA
FRANKLIN, M.D., on behalf of
herself and her patients,

FILED
Apr 04, 2019
DEBORAH S. HUNT, Clerk

Plaintiffs-Appellees
v.
ANDREW G. BESHEAR, Attorney
General (17-6183); ADAM MEIER, in
his capacity as Secretary of the
Cabinet of Health and Family
Services (17-6151),
Defendants-Appellants.
BEFORE: NORRIS, DONALD, and BUSH, Circuit
Judges.
JUDGMENT
On Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
THIS CAUSE was heard on the record from
the district court and was argued by counsel.
IN

CONSIDERATION
124a

THEREOF,

it

is

ORDERED that the judgment of the district court is
REVERSED, the injunction is VACATED, and the
case is REMANDED with instructions for General
Beshear to be dismissed from the case, and for
summary judgment to be entered in favor of
Secretary Meier on the first claim for relief stated in
the complaint and for further proceedings consistent
with the opinion of this court.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

125a

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-6151/6183
EMW WOMEN’S SURGICAL
CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND
ITS PATIENTS, ET AL.,
Plaintiffs-Appellees
v.

.,---------.,
FILED
,._ _ _ _ _ _ _ _,#

ORDER

ANDREW G. BESHEAR,
ATTORNEY GENERAL (176183); ADAM MEIER, IN HIS
CAPACITY AS SECRETARY OF
THE CABINET OF HEALTH
AND FAMILY SERVICES (176151),
Defendants-Appellants.
BEFORE: NORRIS, DONALD, and BUSH,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision. The petition then was
circulated to the full court. Less than a majority of
the judges voted in favor of rehearing en banc.



Judges Thapar and Murphy recused themselves from
participation in this ruling.

126a

Therefore, the petition is denied. Judge Donald
would grant rehearing for the reasons stated in her
dissent.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

127a

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
EMW WOMEN’S
SURGICAL CENTER,
P.S.C., et al.,

Plaintiffs,

v.

Civil Action No. 3:17-cv16-DJH

ANDREW G. BESHEAR,
et al.,

Defendants.

*****
JUDGMENT AND PERMANENT INJUNCTION
Pursuant to Rules 58 and 65 of the Federal
Rules of Civil Procedure, and in accordance with the
Memorandum Opinion and Order entered this date,
it is hereby
ORDERED and ADJUDGED as follows:
(1) Judgment is entered in favor of Plaintiffs
as to their first claim for relief. (Docket No. 1, PageID
# 13) H.B. 2, codified at Ky. Rev. Stat. §§ 311.727,
.990(32), violates the First Amendment rights of
physicians.
(2) Defendants and their officers, agents, and
employees, and those persons in active concert or
participation with Defendants who receive actual
notice of this Order, are PERMANENTLY
ENJOINED from enforcing H.B. 2 by civil action,
criminal proceeding, administrative action or
proceeding, or any other means; penalizing any
person for failure to comply with H.B. 2 by civil
128a

action, criminal proceeding, administrative action or
proceeding, or any other means; and applying,
imposing,
or
requiring
compliance
with,
implementing, or carrying out in any way any part of
H.B. 2.
(3) This action is DISMISSED with prejudice
and STRICKEN from the Court’s docket.
(4) This is a FINAL and APPEALABLE
Judgment, and there is no just cause for delay.
September 27, 2017

David J. Hale, Judge
United States District Court

129a

RELEVANT STATUTE
AN ACT relating to full disclosure in public safety
and declaring an emergency.
Be it enacted by the General Assembly of the
Commonwealth of Kentucky:
SECTION 1. A NEW SECTION OF KRS 311.710 TO
311.820 IS CREATED TO READ AS FOLLOWS:
(1)

(2)

As used in the section:
(a)

“Ascultate” means to examine by
listening for sounds made
by
internal organs of the fetus,
specifically for a fetal heartbeat,
utilizing an ultrasound transducer
or a fetal heart rate monitor;

(b)

“Obstetric
ultrasound”
or
“ultrasound” means the use of
ultrasonic waves for diagnostic or
therapeutic purposes, specifically to
monitor a developing fetus; and

(c)

“Qualified Technician” means a
medical imaging technologist as
defined in KRS 311B.020 who is
certified
in
obstetrics
and
gynecology by the American Registry
for Diagnostic Medical Sonography
or a nurse midwife or advance
practice nurse practitioner in
obstetrics with certification in
obstetrical ultrasongraphy.

Prior to a woman giving informed consent
to having any part of an abortion
performed, the physician who is to
130a

perform the abortion or a qualified
technician to hom the responsibility has
been delegated by the physician shall:
(a)

Perform an obstetric ultrasound on
the pregnant woman;

(b)

Provide a simultaneous explanation
of what the ultrasound is depicting,
which shall include the presence
and location of the unborn child
within the uterus and the number of
unborn children depicted and also,
if the ultrasound image indicates
that fetal demise has occurred,
inform the woman of that fact;

(c)

Display the ultrasound images so
that the pregnant woman may view
the images;

(d)

Ascultate the fetal heartbeat of the
unborn child so that the pregnant
woman may hear the heartbeat if
the heartbeat is audible;

(e)

Provide a medical description of the
ultrasound images, which shall
include the dimensions of the
embryo or fetus and the presence of
external members and internal
organs, if present and viewable; and

(f)

Retain in the woman’s medical
record a signed certification from
the pregnant woman that she has
been presented with the information
required to be provided under
paragraphs (c) and (d) of this
131a

subsection and has viewed the
ultrasound images, listened to the
heartbeat if the heartbeat is
audible, or declined to do so. The
signed certification shall be on a
form prescribed by the cabinet.
(3)

When the ultrasound images and
heartbeat sounds are provided to and
reviewed with the pregnant woman,
nothing in this ection shall be construed
to prevent the pregnant woman from
averting her eyes from the ultrasound
images or requesting the volume of the
heartbeat be reduced or turned off if the
heartbeat is audible.
Neither the
physician, the qualified technician, nor
pregnant woman shall be subject to any
penalty if the pregnant woman refuses to
look at the displayed ultrasound images
or to listen to the heartbeat if the
heartbeat is audible.

(4)

The requirements of this section shall be
in addition to any requirement contained
in KRS 311.725 or any other section of
KRS 311.710 to 311.820.

(5)

The provisions of this section shall not
apply in the case of a medical emergency
or medical necessity.
If a medical
emergency or medical necessity compels
the performance or inducement of an
abortion, the physician who will perform
or induce the abortion, prior to its
performance or inducement if possible,
shall inform the pregnant woman of the
132a

medical indications supporting the
physician’s judgment that an immediate
abortion is necessary. Any physician who
performs or induces an abortion without
the prior satisfaction of the requirements
of this section because of a medical
emergency or medical necessity shall
enter the reasons for the conclusion that
a medical emergency or medical necessity
exists in the medical record of the
pregnant woman.
Section 2.

KRS 311.990 is amended to read as
follows:

(30) (a)

Any
physician
or
qualified
technician who violates Section 1 of
this Act shall be fined not more than
one hundred thousand dollars
($100,000) for a first offense and not
more than two hundred fifty
thousand dollars ($250,000) for each
subsequent offense.

b)

In addition to the fine, the court
shall report the violation of any
physician, in writing, to the
Kentucky
Board
of
Medical
Licensure for such action and
discipline as the board deems
appropriate.

Section 3. Sections 1 and 2 of this Act shall be
known and may be cited as the Ultrasound Informed
Consent Act.

133a

Section 4. Whereas ultrasound requirements serve
an essential medical purpose in confirming the
presence, location, and gestational age of a
pregnancy, and whereas the knowledgeable exercise
of a woman’s decision to have an abortion depends on
the extent to which the woman receives sufficient
information to make an informed choice between the
two alternatives of giving birth or having an
abortion, an emergency is declared to exist, and this
Act takes effect upon its passage and approval by the
Governor or upon its otherwise becoming law.

134a

